          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection


                Embassy Kabul,
                 Afghanistan

Report Number ISP-I-10-32A, February 2010




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

                SENSITIVE BUT UNCLASSIFIED




   PURPOSE, SCOPE AND METHODOLOGY OF THE 

                 INSPECTION

    This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the Council of the Inspectors General on Integrity and Ef­
ﬁciency, and the Inspector’s Handbook, as issued by the Ofﬁce of Inspector General
(OIG) for the U.S. Department of State (Department) and the Broadcasting Board
of Governors (BBG).

PURPOSE

    The Ofﬁce of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the operations
of the Department and the BBG. Inspections cover three broad areas, consistent
with Section 209 of the Foreign Service Act of 1980:

   • 	 Policy Implementation: whether policy goals and objectives are being ef­
       fectively achieved; whether U.S. interests are being accurately and effectively
       represented; and whether all elements of an ofﬁce or mission are being
       adequately coordinated.

   • 	 Resource Management: whether resources are being used and managed with
       maximum efﬁciency, effectiveness, and economy and whether ﬁnancial trans­
       actions and accounts are properly conducted, maintained, and reported.

   • 	 Management Controls: whether the administration of activities and opera­
       tions meets the requirements of applicable laws and regulations; whether
       internal management controls have been instituted to ensure quality of
       performance and reduce the likelihood of mismanagement; whether instance
       of fraud, waste, or abuse exist; and whether adequate steps for detection,
       correction, and prevention have been taken.

METHODOLOGY

    In conducting this inspection, the inspectors: reviewed pertinent records; as ap­
propriate, circulated, reviewed, and compiled the results of survey instruments; con­
ducted onsite interviews; and reviewed the substance of the report and its ﬁndings
and recommendations with ofﬁces, individuals, organizations, and activities affected
by this review.




                SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                       SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED





                                TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

   Rightsizing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

   National Security Decision Directive-38 Process. . . . . . . . . . . . . . . . . . . . . . . . . 13

   The Executive Secretariat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

   Political Affairs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

   Political-Military Affairs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

   Assistance: Development, Good Governance, Counternarcotics, 

       Law Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

   Economic Affairs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

   Public Affairs and Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44

   Interagency Provincial Affairs and the Provincial Reconstruction Teams . . . . . 55

   Consular Affairs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

RESOURCE MANAGEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

   Management Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

   Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74

   Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

   Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86

QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93

   Health Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93

   Community Liaison Ofﬁce . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94

   Equal Employment Opportunity and Federal Women’s Program . . . . . . . . . . . 95

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 105





                         SENSITIVE BUT UNCLASSIFIED

                 SENSITIVE BUT UNCLASSIFIED




INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 127

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 129





                         SENSITIVE BUT UNCLASSIFIED

                SENSITIVE BUT UNCLASSIFIED





                       KEY JUDGMENTS

• 	 The Ambassador and his leadership team in their ﬁrst six months in Kabul
    have made impressive progress implementing the Administration’s plans for a
    massive civilian plus up to support the large increases in assistance programs.
    This progress took place at the same time that the Embassy experienced
    virtually 100 percent turnover of American staff, supported international fa­
    cilitation of the Afghan presidential elections, and participated in the Admin­
    istration’s Afghanistan policy review.

• 	 Even with the able leadership of Kabul’s senior ofﬁcers, the best of inten­
    tions, and the most dedicated efforts, Embassy Kabul faces serious chal­
    lenges in meeting the Administration’s deadline for “success” in Afghanistan.
    The unprecedented pace and scope of the civilian buildup, the need for these
    new ofﬁcers to arrive in Kabul before support infrastructure expansions have
    been completed, and the complexity of establishing arrangements to equip
    the new subject matter experts for success in the ﬁeld will constrain the abil­
    ity of these new ofﬁcers in the short-term to promote stability, good gover­
    nance, and rule of law (ROL) in Afghanistan.

• 	 The number of U.S. executive branch staff assigned to the U.S. Mission to
    Afghanistan will have grown from 320 to approximately 900 by early 2010.
    The Embassy, at the direction of the Administration, used a process outside
    of the Mission Strategic Plan (MSP) to justify these new positions and to
    plan for the increased life support and security costs involved in hosting so
    many new ofﬁcers. These costs have not yet been captured in the Depart­
    ment’s International Cooperative Administrative Support System (ICASS)
    planning procedures.

• 	 Embassy Kabul has a detailed, multiphase plan to expand its administrative
    support infrastructure to accommodate these new employees. The manage­
    ment section is remarkably adaptable and responsive in an atmosphere of
    massive personnel surges, constant reinvention, and multiple construction
    and infrastructure projects.




    OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   1 .


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          • 	 The performance of Embassy Kabul’s management section, however, has
              been adversely affected by lapses in oversight that have resulted in signiﬁcant
              management control weaknesses, particularly in the travel program, voucher
              review, and contracting. Not all designations of duties have been properly
              assigned.

          • 	 The Embassy’s prodigious ofﬁcial visitor support workload taxes the same
              military and civilian assets that would otherwise be deployed in the vital
              counterinsurgency and reconstruction efforts that the visitors seek to evalu­
              ate.

          • 	 The cost of supporting temporary duty (TDY) ofﬁcers who are assisting U.S.
              mission operations in Afghanistan is being drawn from funds provided for
              Embassy Kabul, rather than being charged back to the originating agency via
              ICASS.

          • 	 Embassy oversight of contracts and grants is seriously inhibited by the dan­
              gerous security conditions that preclude onsite visits outside of Kabul as well
              as by the shortage of qualiﬁed contract ofﬁcer representatives in Kabul. The
              ability of embassy sections, such as the public affairs section (PAS) and the
              political section, to support proposed new and or expanded grant programs
              will be limited until additional qualiﬁed grants ofﬁcers are in place and local
              staff have been trained in grants management.

          • 	 One-year assignments coupled with multiple rest and recuperation (R&R)
              breaks limit the development of expertise, contribute to a lack of continu­
              ity, and require a higher number of ofﬁcers to achieve the Administration’s
              strategic goals.

          •    Stafﬁng in the PAS is inadequate to handle the huge increase in public diplo­
               macy funding approved for Afghanistan. A planning team from Washington
               has traveled to Kabul to develop an operational plan to specify the stafﬁng
               and resources that will be needed for the new programs.

          The inspection took place in Washington, DC, between September 8 and Octo­
      ber 9, 2009 and in Kabul, Afghanistan between October 15 and November 13, 2009.
      (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
      (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
      (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
      (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)




2 .       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                   CONTEXT

    The President's Strategic Review for Afghanistan and Pakistan identiﬁed this
region as our nation's highest national strategic and security priority. Afghanistan is
bigger in geography and population and more complex in tribal dynamics than Iraq.
                                       The country is exhausted by over three de­
                                       cades of war that destroyed Afghan capacity in
                                       the public and private sectors. In the wake of
                                       August 2009 elections fraught with allegations
                                       of wide-scale fraud and the withdrawal of the
                                       incumbent’s closest challenger just prior to a
                                       November runoff, the U.S. Government now
                                       hopes to resume efforts on strategic goals that
                                       depend on the commitment to reform by a
                                       popularly supported Afghan Government. De­
                                       spite the election outcome, there remains some
                                       doubt that the new Afghan Government will
                                       enjoy the wide support that U.S. policymakers
                                       were counting on.

                                            The complexity of the Embassy’s structure
and operations parallels the complexity of the security and political situation in the
country as a whole. There is tension among the U.S. Government’s lofty goals, the
Embassy’s ability to advance them, and the capacity and commitment of elements of
the Afghan Government to implement them. Corruption threatens the Afghan Gov­
ernment’s effectiveness. Its human rights record remains poor, including its record
on violence and discrimination against women, lack of due process, weak rule of law,
and restrictions against free speech. The security situation is dire in many regions,
and has deteriorated in some previously relatively calm areas in the north and west.
U.S. forces have faced sharply increased violence over the past two years, and attacks
in early September 2009 were at their highest levels since the fall of the Taliban in
2001. Amidst this volatility, the U.S. administration, through the embassy, is encour­
aging major economic reforms to support private sector development. This includes




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   3 .


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




      a focus on: job creation, increased agricultural productivity, education and vocational
      training, capacity building, governance, and rule of law, along with greater emphasis
      on projects at the subnational level. The former U.S. policy on eradication of poppy
      crops in the ﬁeld has been replaced with a focus on shutting down high-level pro­
      cessing and trafﬁcking targets and the systems that support them, and greater em­
      phasis on alternative livelihoods.

           In order to support these priorities, the Embassy is trebling its U.S. staff from
      320 to approximately 900 countrywide and across agency lines by early 2010; this
      new number represents a quadrupling of U.S. staff at the provincial reconstruction
      teams (PRT) and forward operating bases. In addition to the assignment of Foreign
      Service ofﬁcers to the embassy and to the PRTs, the Department also uses a mecha­
      nism authorized by Title 5, Section 3161 of the U.S. Code to hire subject matter
      experts (commonly called 3161s) to support its ambitious reconstruction and stabil­
      ity agenda. Most of these 3161s come from outside the U.S. Government and are
      assigned to PRTs where they are expected to work semi-autonomously. The Embassy
      is also experiencing growing difﬁculties in recruiting local staff in certain specialties
      to support this rapid U.S. direct-hire plus up.

          The need to expand the already over-burdened life support systems (housing,
      food, security, transport) in Kabul and in the ﬁeld to support the new staff has itself
      become a major short-term challenge. Some PRT staff is housed in makeshift lodg­
      ings with no heat or running water, while TDY staff in Kabul may occupy 65-bed
      dormitory-style containers with common bath facilities for months at a time. There
      are multiple permanent and temporary construction projects underway or in the
      pipeline, and efforts to relocate work and living spaces while those projects disrupt
      normal operations occupies much of the Embassy’s energy and resources. The
      Embassy will also soon stand up consulates in Herat and Mazar-e-Sharif. Meanwhile,
      the Embassy has already presented a follow-on proposal for an additional 307 U.S.
      direct-hires and 362 locally employed (LE) staff positions in the next two years. Be­
      cause the majority of assignments to Kabul are for only one year with multiple R&R
      breaks, most U.S. staff spend approximately two months of their one-year tours on
      leave. The one-year assignment scenario limits the development of expertise, con­
      tributes to a lack of continuity, requires a higher number of ofﬁcers to achieve the
      Administration’s strategic goals, and results in what one former ambassador calls “an
      institutional lobotomy.” 1




      1
          The Other War: Winning and Losing in Afghanistan by Ron Neumann



4 .         OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     In addition to the Embassy’s focus on its own rapid growth, the staff manages a
prodigious visitor workload that takes a toll on management resources in particular,
and draws on all Embassy personnel to perform support functions. Some describe
the incredible volume of visitors from all branches of the federal and even state gov­
ernments as “war tourism”. As of October 1, 2009, the Embassy had supported ap­
proximately 100 groups of visitors, totaling over 700 individuals, and accounting for
over 30,000 bed nights. Approximately a dozen more Congressional delegations were
expected before the end of 2009 (see housing section of this report for a descrip­
tion of availability and suitability of living conditions.) Although Congressional and
other VIP travel builds crucial support for U.S. efforts in Afghanistan, it also taxes
the same military and civilian assets that would otherwise be deployed in the vital
counterinsurgency and reconstruction efforts that the visitors seek to evaluate. Ofﬁ­
cial travelers often visit dangerous or remote areas. Travel to conﬂictive zones obvi­
ously increases the exposure of those visitors, as well as the Embassy and military
personnel who support them, to insurgent attacks. It is not unusual for the Embassy
to host multiple groups of Congressional visitors in one week, replete with individual
tours of the war zone, separate representational events, and sequential meetings with
the same Afghan Government representatives. The production of brieﬁng materials
and the performance of control ofﬁcer duties cuts into the limited time that ofﬁcers
have to work with their Afghan counterparts outside the embassy walls.

    Even when there are no visiting delegations, much of the embassy staff already
works extraordinarily long hours in support of core initiatives. Continual 80-hour
work weeks, even with periodic R&Rs, may, in fact, reduce productivity as staff
reaches the half-way point in their tours of duty. The time difference between Kabul
and Washington regularly extends Kabul’s workday with a ﬂurry of late night re­
quests to clear briefers, or provide information for Washington’s consumption ﬁrst
thing in the morning, Washington time. In addition, Washington’s often preferred
time for video conferences or telephone calls is at the end of their day, which equates
with 2:00 a.m. or 3:00 a.m. Kabul time. Last-minute requests that Kabul be prepared
to participate in information sharing meetings or policy discussions in the middle of
the night sap the energy of the senior staff, disrupt the next day’s meeting or travel
schedule, and add to already long work days.

    Much of the Embassy’s policy implementation work actually occurs at the PRTs
rather than at the Embassy itself. PRTs are integrated civil-military (civ-mil) organiza­
tions that expand the reach of U.S. Government and international community assis­
tance efforts to the provincial level and to the local community. Approximately half
of the PRTs are led by U.S. military forces; others are led by coalition military forces.
PRTs seek to improve the governing capacity of the host nation through interaction
with the governor’s ofﬁce as well as with provincial ministry representatives. They


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   5 .


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




      assess international efforts and urge coordination with the host nation’s development
      plan and, in doing so, try to mitigate constraints to development.

          In order to ensure that the military units in charge of the PRTs are ready to
      receive the assigned civilian personnel, the Embassy established a small ofﬁce to co­
      ordinate the logistical requirements for PRT employees. In the summer of 2009, this
      ofﬁce expanded to coordinate the substantive work of the PRTs and was renamed
      the ofﬁce of interagency provincial affairs (IPA) to reﬂect its broader responsibility
      for PRT coordination and oversight.

          Finally, the deteriorating security situation in many areas of the country limits
      the embassy staff ’s exposure to Afghans other than regular government interlocutors
      and constrains the reporting and advocacy work that U.S. direct-hires from all agen­
      cies were brought to Afghanistan to undertake.

         As of September 28, 2009, Embassy Kabul had 558 U.S. direct hires, including
      3161s, 548 LE staff, and approximately 100 other U.S. staff hired through various
      other personnel mechanisms. U.S. development assistance in FY 2009 totaled ap­
      proximately $2.9 billion.




6 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                    EXECUTIVE DIRECTION

    The inspection of Embassy Kabul coincided with a number of profound chang­
es in the structure and size of the embassy, and the U.S. Government’s policy on
Afghanistan as a whole. The inspectors were not surprised, under those conditions,
to ﬁnd a certain amount of confusion and angst over the many changes in policy and
procedure. For example, on counternarcotics the U.S. Government had only very
recently decided to shift from a focus on eradication to interdiction of high-value
production and shipment of illicit narcotics. Human resources and assets formerly
directed against the cultivation of opium poppies were in the process of being redi­
rected to the new policy focus. In another example, responsibility for the large police
training programs was being shifted during the course of the inspection from the
Bureau of International Narcotics and Law Enforcement (INL) to the Department
of Defense. Once again staff members hired by INL were in transition, with some
departing Afghanistan and others being redirected to work with the Department of
Defense program.

     Perhaps the most profound change was to the coordination of U.S. foreign as­
sistance in Afghanistan – traditionally a responsibility of the U.S. Agency for Inter­
national Development (USAID). With the Administration’s new focus on Afghani­
stan, and the huge increase in funding made available to development and security
programs in that region, President Obama appointed a Special Representative for
Afghanistan and Pakistan (S/SRAP) to direct changes in the operation of Embassy
Kabul that have had a signiﬁcant impact on the allocation of foreign assistance funds
in Afghanistan. The Embassy established a new senior Foreign Service position
of Coordinating Director for Development and Economic Affairs (CDDEA) and
recruited a senior Foreign Service ofﬁcer who has served both as Ambassador and
as Assistant Secretary to ﬁll that position. This CDDEA, under the Ambassador’s
direction, has supervisory responsibility to ensure that all interagency economic and
development assistance programs are fully integrated and working in sync with the
U.S. and Afghan Governments’ goals for Afghanistan.

    In addition to the new CDDEA, Embassy Kabul has also appointed senior civil­
ian representatives (SCR) who will have responsibility for coordination of all civilian
development and security assistance activities in their corresponding North Atlantic
Treaty Organization (NATO) International Security Force for Afghanistan (ISAF)
regions. As will be further developed in the assistance section of this report, the


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   7 .


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




      Embassy is still in the process of clarifying the authorities of the CDDEA function,
      and the new senior civilian representatives vis-a-vis the mandatory internal controls
      and oversight responsibilities of the agency funding the actual assistance projects.

          Even with the issues raised above, relations between the country team members
      and Embassy Kabul’s executive team are harmonious and quite productive. The Am­
      bassador chairs one country team meeting each week and allows very wide participa­
      tion. A number of agency heads interviewed by the inspectors reported that time
      spent in this meeting is highly valued as it is the one occasion for many of them
      to hear directly the Ambassador’s thoughts on key policy issues. It is also the only
      forum in which many of the smaller agencies are able to brief the Ambassador on
      important activities and high-level visits. The Ambassador, the deputy chief of mis­
      sion (DCM), the assistant chief of mission, and the CDDEA all participate in a wide
      range of regularly-scheduled interagency meetings to include a series of 14 working
      groups, each focused on a speciﬁc theme of great importance to the U.S. Govern­
      ment’s goals and objectives for Afghanistan, the law enforcement working group,
      the counterintelligence working group, visas viper, and emergency action committee
      meetings.

          One of the great challenges of leading Embassy Kabul is the disparity in re­
      sources available to the U.S. mission as compared to those available to the U.S.
      military forces in country. Between May and July 2009, at the direction of S/SRAP
      and the U.S. Central Command, embassy and International Security Force for Af­
      ghanistan (IASF) staff crafted the Integrated Civilian-Military Campaign Plan for
      Support to Afghanistan. In accordance with the plan, the Embassy established the
      14 issue-focus working groups to enhance coordination between the civilian and
      military components on planning and implementation of governance and assistance
      activities. The Ambassador and his team are working to ensure that local fast track
      assistance projects implemented by U.S. forces to promote the counterinsurgency
      (COIN) program are both properly coordinated with U.S. development programs
      and fully sustainable. As will be developed further on in this report, the inspectors
      suggested that the embassy review this process with an eye to streamlining these 14
      working groups to free up more subject matter expert time for work with Afghan
      counterparts.

          Embassy Kabul no longer reports to the Assistant Secretary for South and
      Central Asian Affairs but rather reports directly to S/SRAP, although it still receives
      administrative support from the regional bureau’s executive ofﬁce. S/SRAP is com­
      posed of a brain trust of subject matter experts who have played a key role in the
      design and development of the integrated civ-mil plan for Afghanistan. There is con­
      stant interaction between Embassy Kabul and the staff of S/SRAP, but a signiﬁcant


8 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                   SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




number of these transactions involve S/SRAP staff tasking the Embassy to draft or
review products, often on a very short fuse and literally in the middle of the night
Kabul time. A number of Kabul ofﬁcers interviewed noted that they have not been
able to get assistance from S/SRAP staff nor do S/SRAP staff members routinely
keep their embassy counterparts well briefed on Washington policy developments
relevant to Embassy Kabul’s responsibilities.

    Embassy Kabul has a de facto six-day workweek. (See the management section
of this report for a discussion of premium pay and overtime issues.) The Embassy
participates in frequent conference calls and digital video conferences each week,
many stretching into the early evening. During the course of the inspection it was
clear that the weekly S/SRAP video conferences are scheduled during Embassy Ka­
bul’s one day off from work, forcing those ofﬁcers who must support the Embassy’s
participation in these interactions to work on their only day off. In addition, while
the OIG team was in Kabul, the Ambassador and the DCM, on top of a very long
workday, were called to participate in a series of videoconferences scheduled by S/
SRAP and the National Security Council between the hours of midnight and 4:00
a.m. Kabul time. While recognizing that emergent issues will need to be dealt with
immediately, and sometimes in the middle of the night Kabul time, the inspectors
believe that the Department and other Washington entities must pay greater atten­
tion to the time difference in Kabul.

     Embassy Kabul has an approved FY 2011 MSP that was submitted by the
Embassy on February 26, 2009. The relevance of that MSP, however, was dramati­
cally curtailed by the Administration’s review of its policy on Afghanistan and by
the subsequent decision to shift its overarching strategy from one of attempting to
secure the entire territory of Afghanistan to an ambitious integrated civ-mil COIN
program. The Embassy has worked closely with ISAF on a Joint Campaign plan that
incorporates both civilian and military goals and objectives. The inspectors urged
post management to initiate work on the FY 2012 MSP so that the new positions
and resources it will need to carry out the COIN strategy are captured in the Depart­
ment’s normal planning process and not simply to rely on the Joint Campaign plan.
See the rightsizing section of this report for a formal recommendation.

     The Ambassador and DCM exhibited support for the mission’s Equal Employ­
ment Opportunity (EEO) program not only in the recruitment of female and minor­
ity ofﬁcers, but also in the public diplomacy work of the Embassy. For example,
the Ambassador makes a point of including his spouse on his internal travel to the
provinces of Afghanistan. This allows his spouse to take advantage of the media
spotlight on the Ambassador’s visits to call attention to the need for Afghan men to
allow their wives a more equal role in society.


       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   9 .


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           Responsibility for the entry-level ofﬁcer (ELO) program at Embassy Kabul has
       been delegated to the assistant COM. The Director General continues to restrict
       ELO assignments to Kabul to those who have signiﬁcant relevant experience that
       would equip them to succeed in the tough conditions in Kabul. At any given time,
       there are less than a dozen ELOs assigned to Kabul. The ELOs interviewed by the
       inspectors report general overall satisfaction with the mentoring they are receiving at
       Embassy Kabul, although there is no formal ELO program in place, and they com­
       plimented the assistant chief of mission for his role. The inspectors suggested infor­
       mally that the ELOs meet as a group and decide upon a list of enrichment activities
       they would ﬁnd most useful. They could submit this list to the executive ofﬁce for
       consideration. The inspectors also suggested that the ELOs ask that a speciﬁc senior
       or mid-grade ofﬁcer be assigned to each of them as a mentor.

           The Ambassador has declared that the security of embassy staff members is
       his highest priority. Under his leadership, the Embassy funds a contract guard force
       composed of third country nationals to secure the perimeter of the embassy com­
       pound, as well as a separate contract for protective services to ofﬁcers needing to
       travel outside of the compound. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
            The Ambassador has taken a strong and direct interest in the public affairs activi­
       ties of the U.S. Mission to Afghanistan. The PAS credits him with renewed outreach
       to the media, especially the Afghan media. He frequently invites the media to ac­
       company him as he visits the provinces of Afghanistan, and he takes full advantage
       of media interest in him to highlight U.S. Government assistance and development
       programs. He makes himself available for media interviews on a regular basis.

          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


10 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
    Morale at Embassy Kabul has been challenged by the stresses of an almost 100
percent personnel turnover, a massive civilian buildup at a frenetic pace, the redesign
of development assistance programs, the continuing high volume of ofﬁcial visitors,
and the need to support an extended Presidential strategy review. In addition, the in­
voluntary curtailments of several recently arrived ofﬁcers led some staff to perceive
that any misstep would result in their own removal. The short-term impact of the
expansion of the executive ofﬁce from the traditional ambassador and DCM to four
ambassadorial-level positions to include the Ambassador, the DCM, the assistant
COM, and the CDDEA – each of whom plays a role in policy development, tasking
of work, and clearance of all products -- has also had a negative impact on morale.
The embassy leadership was aware of these problems and was engaged in a process
to revamp and streamline the executive secretariat support system. The inspectors
suggested a number of improvements to the executive secretariat function, discussed
later in this report, which should help ameliorate some of the adjustment difﬁculties.

     Embassy Kabul is on a path to increase its footprint by more than 100 percent.
Its approved positions in January 2009 were 531 (320 of which were U.S. direct
hires), but by the end of this calendar year it is projected that total stafﬁng will be
over 1,300 employees (approximately 900 of which will be U.S. direct-hires.) Most
of these positions will need to be housed, at and will work on, the embassy com­
pound, but more than 380 are projected to work out of PRTs and other ﬁeld lo­
cations at over 100 locations around Afghanistan. Provisions for life support and
security at these locations have not yet been ﬁnalized. The reality of work in Afghan­
istan is that some ofﬁcers under chief of mission control who work at ﬁeld locations
are living under primitive conditions without basic housing and sanitation. Embassy
leadership is fully aware of these shortcomings and actively engaged in negotiations
with coalition partners and Department of Defense commanders to rectify them.
However, it is not likely that accommodations available for this civilian upsurge will
be adequate in the short term absent support by interagency ofﬁcials for Embassy
efforts.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   11 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           Conditions on the embassy compound are already strained beyond capacity, and,
       despite the embassy’s efforts, there will be serious challenges in residential and of­
       ﬁce space. Security vulnerabilities are detailed in the classiﬁed annex to this report.
       The management controls section of this report will discuss recommendations for
       improvements to the internal systems used by the Embassy to avoid waste, fraud,
       and mismanagement as it implements the ambitious building projects and life sup­
       port systems augmentations that will be required to care for this increased number
       of staff members.



       RIGHTSIZING
           It is not possible to evaluate rightsizing at Embassy Kabul the same way that one
       would at any other U.S. embassy. The Department has responded to the Administra­
       tion’s renewed emphasis on Afghanistan with plans for a vibrant civ-mil partnership.
       In order to match the military’s capacity to implement reconstruction and stabiliza­
       tion goals, the Embassy requested hundreds of new positions both in Kabul and in
       the ﬁeld, primarily at PRTs. Because the Department committed to complete the ﬁrst
       phase of this plus up before the end of 2009 with a second phase to begin in early
       2010, new staff is arriving in Afghanistan before the Embassy can prepare position
       descriptions, ready housing, and ofﬁce space, or adequate onsite supervision for the
       subject matter experts (3161s), many of whom have never worked in the govern­
       ment.

            Embassy Kabul is expanding its life support infrastructure to accommodate
       these newly arrived employees as rapidly as it can at considerable effort that, in some
       cases, has resulted in insufﬁcient attention to good management practice. This will
       be developed further in the resource section of this report. Prior to FY 2010, most
       of the funding for this expansion, as well as funding for the greatly enhanced bilat­
       eral assistance programs, has been derived from supplemental funding. Supplemental
       funding levels were incorporated into both the FY 2010 budget and the FY 2011
       budget request to sustain the expansion of the U.S. mission and its programs. The
       U.S. Mission to Afghanistan will be dependent on regularly appropriated program
       funding in the future and will be required to evaluate the affordability of its activi­
       ties carefully. The MSP continues to be the appropriate vehicle to insert Embassy
       Kabul’s resource needs into the Department’s long-term planning process.

          Recommendation 1: Embassy Kabul should capture all the new positions
          and resources that it needs to carry out its counterinsurgency strategy in the FY
          2012 Mission Strategic Plan. (Action: Embassy Kabul)


12 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



NATIONAL SECURITY DECISION DIRECTIVE-38 PROCESS
        As part of the Administration’s decision to surge civilian employees in Af­
ghanistan, the Embassy was directed to process hundreds of new position justiﬁca­
tions. The OIG team did not have the time or the resources to evaluate each of these
hundreds of new positions or their justiﬁcations; the inspectors are concerned that
there has been a lack of planning on how to link new, generously funded programs
with an appropriate number of implementing ofﬁcers and with sufﬁcient ofﬁcers to
provide the requisite oversight. A quick review of several NSDD-38 requests indi­
cated that many were hastily prepared and essentially used the same justiﬁcation for
multiple positions. In one case, the inspectors spoke with representatives from an
agency that had ﬁled an NSDD-38 request to create up to ten full-time positions in
Afghanistan but had not yet decided what those positions would do when the em­
ployees actually arrived in country.

         The inspectors also noted that the NSDD-38 approvals issued by the Embas­
sy failed to require other agencies to commit to speciﬁc ICASS costs, did not clarify
the question of where the new ofﬁcers would work or live in advance, and failed to
reach agreement on extra costs attributable to the new positions such as the cost of
providing security escort services. The fact that most of these costs are paid by the
Department using supplemental funds has removed a budgetary limitation that nor­
mally serves as a force for discipline in evaluations of new NSDD-38 requests.



THE EXECUTIVE SECRETARIAT
     The Ambassador and DCM realized upon their arrival that executive ofﬁce sup­
port was insufﬁcient for their needs. Embassy Kabul has a large executive secretariat
operation very different from other staff assistant or visitor assistance operations
found at most large U.S. embassies. The structure and processes have been evolving
over the past few months, leaving many in the embassy uncertain about expectations
and devoid of feedback. Many U.S. direct-hire staff reported inadequate two-way
communication with embassy leadership and the staff assistant operation in addition
to problems with lost paperwork, tight deadlines, and last minute, late night taskings.
With the arrival of a new executive secretary halfway into the inspection to build on
initiatives begun by an interim executive secretary, a more rational executive secretari­
at is beginning to take shape. Some reﬁnements on work ﬂow, team assignments, and
visitor support still remain before the operation can run seamlessly and with minimal
stress or overtime.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   13 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Accelerated Success and the Ambassador

           Both the Ambassador and the DCM have exceptionally ambitious schedules. The
       Ambassador works in overdrive all the time, and his own long hours, his one or two
       trips within Afghanistan per week, a robust meeting schedule, and a representational
       plan built around a steady stream of high-level visitors and Congressional delega­
       tions drive a corresponding ﬂurry of activity from the executive secretariat.

            Until a few weeks before the inspection, the staff assistants were either inexperi­
       enced or pulled from other parts of the Embassy with no formal standard operating
       procedures (SOP) to guide them, a situation that they inherited upon assignment.
       There was also, until recently, no experienced executive secretary to organize the
       staff assistant operation and ensure efﬁciency. There are now three full-time, mid-
       level staff assistant positions, and an agreed upon tracking system for papers mov­
       ing through the executive ofﬁce. In theory, the staff assistants work shifts, but in
       reality they are all on duty at least 12 hours each day, often more. Until recently, they
       planned all travel for the Ambassador and DCM, and one of them also accompanies
       the Ambassador to all his meetings and on all travel, performing much like a military
       staff aide rather than in the traditional staff assistant role. The staff assistants still
       lead planning for the Ambassador’s travel, although the logistics and control ofﬁcer
       function have recently moved from the executive secretariat to the IPA section. (See
       Embassy Visitor Bureau section below for other travel planning.) This change has
       reduced the frenetic activity in the executive ofﬁce and permitted the staff assistants
       to perform their more traditional roles.

            Because of space limitations, the executive secretary and the staff assistants are
       not colocated. The executive secretary sits in another ofﬁce down the corridor from
       the executive suite, and is not in close enough proximity either to train the staff as­
       sistants, ensure equitable assignments, or to run interference on more complicated
       issues. Because of his location, he cannot play a useful chief of staff role in prob­
       lem solving matters that could be redirected to other ofﬁces or handled without the
       involvement of the Ambassador or DCM. As the inspection was concluding, the
       executive secretary was adapting one of the staff assistant work areas in the execu­
       tive suite for his use and relocating one or two of the staff assistants to nearby ofﬁce
       space. The OIG team concurs with this relocation as a way of enhancing oversight
       of the staff assistant operation and rationalizing their work assignments.




14 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





      Recommendation 2: Embassy Kabul should reorganize the staff assistant
      operation so that the executive secretary manages a rotating schedule of re­
      sponsibilities for the three staff assistants to include facilitating paper ﬂow, note
      taking, country team follow-up, travel, and other support activities as required.
      (Action: Embassy Kabul)


     In a top heavy hierarchy, the clearance process can be onerous. The interim exec­
utive secretary codiﬁed a series of formats on a SharePoint site so that ofﬁcers now
have drafting models. This cuts down on paper rejected for formatting problems
but does not mitigate the fact that a paper coming from the economic section, for
example, may have to move from the CDDEA to the staff assistant operation, which
will decide whether the assistant COM has to clear it as well, then to the executive
secretary, and ﬁnally to the DCM who will decide whether it needs further edits
before going to the Ambassador, or if it is a telegram whether it can be transmit­
ted. Although section chiefs do have the authority to transmit some memoranda and
reporting telegrams on their own, a considerable amount of paper wends its way to
the executive ofﬁce via multiple clearance levels, with the potential for edits at each
juncture. Staff assistants may also return products for punctuation or word changes
as part of an effort to encourage attention to detail and more professional products.



      Recommendation 3: Embassy Kabul should streamline its clearance process,
      using staff assistants to make nonsubstantive changes to end products, initiat­
      ing in-house tradecraft training, if necessary, to encourage better products from
      initial drafters, and reducing the number of clearing ofﬁcers wherever possible.
      (Action: Embassy Kabul)



The Embassy Visitors Bureau

    The executive secretary also oversees a three-person embassy visitor bureau
(EVB).2 One of the EVB staff is a Foreign Service ofﬁcer who focuses predomi­
nantly on Congressional visits; one eligible family member (EFM) handles other
high-level visitors; and the second EFM organizes travel for the DCM, the assistant




2
    There was a fourth unﬁlled position for an EFM in the EVB at the time of the inspection.



           OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   15 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       COM, and the CDDEA, and also supports Congressional visits. In October 2009,
       the Embassy supported 11 multiple-day and multiple-visitor high-level delegations,
       and in November 2009, it supported an additional 15 similar visits. Obviously, other
       embassy ofﬁcers participate in visitor support and control ofﬁcer duties, but the in­
       creased capacity in the EVB will help to reduce the burden for visitor support on the
       rest of the embassy staff.

            The EVB, the staff assistants, the regional security ofﬁcer (RSO), and other
       elements of the embassy and the military that coordinate transportation for ofﬁcial
       visits spend an inordinate amount of time arranging last minute requests to visit sites
       throughout the country. While the OIG team was on site, one Congressional delega­
       tion, upon arrival, unexpectedly requested travel outside of Kabul for the next day,
       redirecting the efforts of several embassy staff at the last minute to try to coordi­
       nate an unanticipated trip. Travel outside Kabul requires considerable preparation,
       security arrangements, and the redirection of air transport that would otherwise be
       engaged in operational activities. The Embassy does not have a good mechanism for
       advising ofﬁcial visitors of the limitations on travel in the conﬂictive areas, for im­
       posing reasonable deadlines to decide on their travel programs, and for holding the
       delegations to those programs so that the Embassy has time to arrange secure travel
       and minimize disruptions while the visitors are on the ground. Bearing in mind that
       much of this travel is tied to the Administration’s strategic objectives, the Embassy
       also requires strong support from S/SRAP and the Bureau of Legislative Affairs to
       rationalize congressional and executive branch travel to Afghanistan.

          Recommendation 4: Embassy Kabul should develop, implement, and en­
          force a protocol for ofﬁcial visitors that requires travelers to submit their
          preferred programs, including in-country travel, at least 72 hours before the
          group’s arrival in Afghanistan to allow for adequate logistical preparation. (Ac­
          tion: Embassy Kabul)



       Protocol and Interpretation

            Three LE protocol assistants support the Ambassadors’ meetings and represen­
       tation agenda—much of which is built around the high-level visitor schedule. They
       work closely with the residence manager on event planning, and serve as escorts
       during representational events. The sole LE interpreter augments their number,
       serving as an invitee escort, but also standing by for nearly every representational
       event involving Afghan attendees in case interpretation is required. All of the pro­
       tocol assistants and the interpreter work considerable overtime, often cutting deeply
       into family and rest time. The Embassy is trying to recruit two additional trilingual


16 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




interpreters, and the OIG team endorses that effort. At present, although they often
work side by side on representational events, protocol assistants are supervised and
rated by the Ambassador’s ofﬁce manager while interpreters fall under the executive
secretary’s supervision. Because of recent changes in the structure of the executive
secretariat, the interpreter, in particular, is not adequately mentored or considered for
awards with the same attention that has been given to the protocol assistants. The
OIG team made an informal recommendation that the Embassy review the arrange­
ments for the supervision of protocol assistants and interpreters so that they all
receive the same level of mentoring and supervision.

The Washington Factor

    There is not a single quiet day for the Kabul executive ofﬁce. The Ambassador
has to be alert and focused for full days of meetings, for action-packed travel days
into the hinterlands, and for speeches. Most of the U.S. direct-hire staff also work
seven days a week and late into the night. It is important to have excellent commu­
nications with Washington on policy developments, and in fact a good portion of
the paper generated in Kabul is a result of requests for information in Washington.
Washington, however, is sometimes not sensitive to the schedule that it imposes on
an already-stressed Embassy as a result of the time and work week differences.

    The Department tends to push out its paperwork for clearance or action towards
the end of their work day, or close to midnight Kabul time. Often the Embassy
receives long policy papers for comment with a demand for overnight turnaround
time. Since those responsible for comment often have their next day completely
scheduled, they have no choice but to try to provide input that same evening and
sacriﬁce meals or sleep.

     From October 1 through November 12, 2009, Embassy Kabul participated
in ten late night video conferences, some called at the last minute, between 9:00
p.m. and 4:30 a.m., in addition to other video conferences scheduled during work­
ing hours. Three nights in a row during the month of November, the Ambassador
participated in video conferences between midnight and 2:00 a.m. The OIG team
witnessed one day when the Ambassador had to cancel his next day’s activities in
order to get enough rest after being up virtually the entire night preparing for and
participating in a video conference with Washington. On occasion he has to leave
for previously scheduled travel a matter of hours after a 3:00 a.m. video conference
terminates. The Ambassador is not the only person who is involved in late night con­
versations with Washington; he is usually supported by the DCM, a staff assistant,
and other subject matter experts—all of whom then have to either reorganize their
next day schedules or work sleep deprived.


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   17 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





          Recommendation 5: The Ofﬁce of the Special Representative for Afghani­
          stan and Pakistan should coordinate all routine high-level communications be­
          tween the Department, the National Security Council, and Embassy Kabul and
          restrict such communications with the Embassy to between 6:00 a.m. and 9:00
          p.m. Kabul time. (Action: S/SRAP)


           Embassy Kabul participates via video teleconference in a weekly Pakistan-Af­
       ghanistan Coordination Cell Federation Forum meeting that is chaired by the Joint
       Staff. This regular meeting, which can involve up to a dozen embassy participants, is
       scheduled for Friday evenings during the Kabul dinner hour. Fridays are an ofﬁcial
       day off, and the only day of the week when most embassy staff can take a few hours
       away from the ofﬁce. All Embassy Kabul staff rely on a cafeteria for meal service
       during limited hours at the same time as the regular Friday meeting.



          Recommendation 6: The Ofﬁce of the Special Representative for Afghani­
          stan and Pakistan should ask the Joint Staff to reschedule its routine weekly Fri­
          day teleconferences with Embassy Kabul during ofﬁcial Kabul working hours.
          (Action: S/SRAP)




18 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





POLICY AND PROGRAM IMPLEMENTATION



POLITICAL AFFAIRS
     A small political section carries out Embassy Kabul’s reporting and advocacy on
political issues with the Afghan central Government. The section focuses primarily
on bilateral relations rather than Afghanistan’s relations with its neighbors. It cov­
ers human rights, Afghanistan’s ﬂedgling parliament, and other issues well, but lacks
depth in its analysis of Afghan leaders who could be effective U.S. interlocutors. It
is not responsible for reporting on developments outside the capital city (see IPA
section). The section is well led but not well organized to absorb a large, projected
increase in its stafﬁng. The skillful use of temporary surge capacity enabled it to
cover important elections without being overwhelmed. The biggest challenge it faces
is the lack of experienced ofﬁcers familiar with the complex political and cultural
dynamics of Afghanistan. To overcome the effects of one-year tours of duty and
constant turnover, it could beneﬁt from additional internal management tools includ­
ing reporting and travel plans, contact and handover systems, and more in-depth
predeployment training.

Reporting and Analysis

     Working in cramped quarters but supported by experienced LE staff, the politi­
cal section turns out a steady stream of reporting cables, brieﬁng memos, and emails
on developments at the national level in Afghanistan. Most reporting is well written,
timely, and objective. The focus is on spot reporting, with a minimum of analysis,
although there is a measurable trend toward greater analytical depth each spring as
ofﬁcers near the end of their one-year tours of duty and reap the beneﬁt of greater
familiarity with the country and its issues.

    Reporting on external issues is more limited. No one in the political section fol­
lows Afghan foreign relations on a full-time basis. In addition to its focus on bilat­
eral relations, the Embassy could expand reporting and analysis about Afghanistan’s
relations with neighboring countries, particularly Iran. With the opening of a consul­
ate general in Herat, the Embassy will have enhanced options for external political
reporting.


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   19 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





          Recommendation 7: Embassy Kabul should assign a team or unit in its po­
          litical section to follow Afghanistan’s relations with Iran and other neighboring
          countries on a full-time basis. (Action: Embassy Kabul)


           The political section’s operating tempo is high. (b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2) They praise their RSO colleagues for
       facilitating travel whenever it is necessary and prudent.

            For the ﬁrst time in years, the political section also has sufﬁcient language capa­
       bility. As of September 2009, almost all ofﬁcers had been trained in Dari, and have
       adequate language skills. Even those who use their language skills primarily to put
       Afghan interlocutors at ease, switching to English when the discussion needs preci­
       sion or still using an interpreter, report that it creates a mutually respectful atmo­
       sphere and greater conﬁdence that interpretation is accurate. Most believe their
       training should have included greater emphasis on cultural, historical, and political
       issues as well as language. Because these ofﬁcers arrived in Kabul without the full
       beneﬁt of the Foreign Service Institute’s recently enhanced area studies program, the
       inspectors did not make a speciﬁc recommendation in this regard.

           Virtually all program ofﬁcers in the ﬁeld and at the chancery are expected to
       contribute their insights to the mission reporting program. The majority of these of­
       ﬁcers are not trained in political reporting and analysis, and must rely on the report­
       ing ofﬁcers in IPA and the political section for guidance and training. The inspectors
       found that these ofﬁcers felt poorly equipped to provide reporting input due to their
       lack of tradecraft and their lack of familiarity with Afghan political culture and his­
       tory. Potentially valuable insights into regional political developments were not being
       shared with Washington end-users.

          Recommendation 8: The Foreign Service Institute should develop online
          modules in the history, politics, and culture of Afghanistan, and in reporting
          trade craft that can be added to the predeployment training of ofﬁcers who will
          have political reporting and analysis responsibilities on provincial reconstruc­
          tion teams. (Action: FSI)


           Reporting closely tracks the Department’s policy priorities as they are under­
       stood. Many ofﬁcers, however, have difﬁculty in obtaining clear and authoritative
       guidance on priorities on any given day because too many taskings arrive from
       Washington as uncoordinated, individual requests. They also have no way of know­
       ing whether their reporting meets the needs of Washington consumers outside their

20 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




immediate circle. In the absence of such formerly required actions as the country
director’s annual evaluation of reporting, the Embassy has no mechanism for ob­
taining formal feedback from a wider range of readers in the Department and other
agencies. Combined with the overuse of email and restricted caption trafﬁc, this has
meant that some bureaus and agencies in Washington do not receive the reporting
that they need.

   Recommendation 9: The Ofﬁce of the Special Representative for Afghani­
   stan and Pakistan should collect and convey the reporting needs of Washington
   consumers to Embassy Kabul by providing the mission with a periodic sum­
   mary of key areas of reporting interest that reﬂect the needs of all consumers
   while consolidating and prioritizing needs, wherever possible, to reduce ad hoc
   requests. (Action: S/SRAP)


     The skillful use of temporary reinforcements enabled the Embassy to cover cru­
cial national elections without overwhelming its small political section. A TDY elec­
tions team, led by a retired Ambassador with experience in several similar situations,
acted as a semi-autonomous reporting group but cooperated closely with the political
section, strengthening reporting and analysis without creating tensions over turf and
rivalries. The OIG team informally recommended that the embassy make more use
of such surge capacity in the future, though not necessarily only for elections.

    The Embassy also made good use of a professional associate family member
to increase its coverage of human rights. With only one ELO available to cover the
human rights portfolio, the section was in danger of missing deadlines for congres­
sionally required reports on human rights, religious freedom, and trafﬁcking in per­
sons – particularly because some annual deadlines fall immediately after the summer
ofﬁcer turnover. These reports are a vital part of the Embassy’s reporting goals but
are enormously time-consuming. Hiring an EFM to draft them enabled the human
rights ofﬁcer to continue the investigations, advocacy, and reporting on which they
ultimately depend.

    While the reports that the Embassy produced this way were widely praised in
Washington, it makes no sense to assign the drafting of such complex and important
assessments to a newly arrived ofﬁcer. The Embassy cannot change the deadlines by
which ﬁnal drafts must be in Washington, but it could alter its internal deadlines for
preparing them. The OIG team informally recommended that the Embassy make
the ﬁrst draft of some annual reports the last thing the human rights ofﬁcer does
before departing in the summer rotation rather than the ﬁrst thing his or her replace­
ment does upon arrival in the fall.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   21 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           Stretching Embassy Kabul’s reporting resources to cover demands is made more
       difﬁcult by the absence of a reporting plan. While it has used one in the past, the
       Embassy did not produce one for the current ﬁscal year. A traditional reporting plan
       that promises lengthy analytical research pieces at rigid intervals would not be useful
       in the busy Afghan context, but a reporting strategy that lays out key anticipated is­
       sues on a time line and identiﬁes constraints to covering them could help the section
       make the most efﬁcient use of scarce resources.

          Recommendation 10: Embassy Kabul should produce a strategic reporting
          plan for political issues and link it to resource planning through the Mission
          Strategic Plan. (Action: Embassy Kabul)


           Reporting from Afghanistan could also be strengthened by adding periodic,
       stand-back summaries to the ﬂow of daily spot reporting. Turnover among Washing­
       ton consumers is not as rapid as it is at the embassy. Nevertheless, it is difﬁcult for
       many readers and policymakers to keep sight of important trends and developments
       in the relentless ﬂow of daily emails.

          Recommendation 11: Embassy Kabul should prepare a quarterly cable sum­
          marizing key political developments and trends in addition to its daily reporting.
          (Action: Embassy Kabul)


           The inspectors’ survey found that consumers in the Department and other agen­
       cies as well as other parts of the mission need more leadership analysis reporting to
       identify effective Afghan interlocutors. Information is currently scattered in different
       places, and the political section makes too little use of it to strengthen its reporting.
       Many ofﬁcers are unaware of how to report such information and few telegrams
       contain the necessary TAGS for automatic retrieval. Although the Embassy has an
       experienced leadership analyst available on temporary duty in the political military
       section, it has not assigned a mission-wide biographics coordinator as required in
       2 FAM 113.3. One of the political section’s innovative LE staff has constructed an
       impressive ﬁle of information on key members of parliament but is uncertain how
       to integrate it with other biographic records. The political section does not take the
       additional step of assembling and maintaining a database of information to assist all
       parts of the mission in identifying reliable leaders at the provincial and subcabinet
       level and in the private sector.




22 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 12: Embassy Kabul should appoint an experienced bio­
   graphics coordinator, and that coordinator should construct appropriate data­
   bases of information on key Afghan leaders and potential leaders to assist in
   identifying effective interlocutors. (Action: Embassy Kabul)


     The weakest aspect of political reporting is the link between developments at
the national and local levels. Some of the Embassy’s most valuable reporting comes
from the PRTs, which were not originally envisioned or equipped to do reporting but
do develop important economic and political information through their ﬁrst-hand
access to provincial leaders. To be useful to consumers in Washington, reporting
on developments at the national and local levels must be closely integrated, because
the only way to understand the actions of the central government is often to relate
them to maneuvering in the provinces while information on developments in each
local area is of limited value until collated and placed in context. Instead of holding a
single section accountable for both perspectives, Embassy Kabul divides the respon­
sibility. The political section is responsible only for developments at the national
level; IPA reports developments at subnational levels.

     This bifurcated approach has not produced reporting that sufﬁciently combines
the two perspectives. Political ofﬁcers do not travel outside Kabul often, and some
of their reporting could be strengthened by more information on the view from out­
side the capital. Some PRT reporting is too parochial to be useful because the draft­
ing ofﬁcers do not have access to reporting and information from the Embassy that
enables them to place it in a broader context. Most political reporting from the PRTs
is cleared by political ofﬁcers before it is sent to the Department. In some cases, IPA
and the political section have each begun a project only to discover that the other
is working on the same issue. On a few occasions, they have been unable to include
supporting information necessary to a well-supported analysis because of disagree­
ments over which one “owns” the information.

     As discussed in more detail in the section on PRTs below, the OIG team found
that IPA needs to retain control over any requests for action from the political or
other sections to protect the PRTs from too many ad hoc “taskings” that would
divert them from their primary missions. At the same time, PRT reporting could
beneﬁt greatly from more frequent guidance from the political and economic sec­
tions that would help them know how best to ﬁt their pieces of the puzzle into the
embassy’s broader needs. The political section and IPA could also cooperate on a
plan for political ofﬁcers to travel more extensively outside the capital to strengthen
their reporting and for ofﬁcers from PRTs to contribute their experience and insights



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   23 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       to the reporting sections during visits to the Embassy. The OIG team informally rec­
       ommended that the political section provide all PRTs with periodic guidance on what
       issues would be most useful to investigate and report, carefully distinguishing this
       guidance from immediate taskings or requirements. The OIG team also informally
       recommended that the section develop a funded plan for reporting-oriented travel
       outside the capital city.

       Advocacy and Operations

           The Embassy makes a limited number of demarches due to the pace of events.
       In addition, the Afghan Government is so dependent on its Western allies that such
       formal diplomatic requests are rare. Instead, the Embassy competes with other
       foreign embassies for access to a thin layer of decisionmakers in each ministry and
       urges U.S. views on them in meetings. It also takes its case directly to the ﬂedgling
       Afghan parliament, discussing U.S. points of interest with members. In 2009, the
       Embassy assigned a second political ofﬁcer to this important business.

           This work is made more difﬁcult by the lack of political parties in Afghanistan.
       Instead of organizations with ofﬁcials at all levels with whom diplomats can interact,
       most factions represent a single, powerful individual. The Embassy is still experi­
       menting with the most effective method for covering Parliament. At present, one
       Foreign Service ofﬁcer and one LE staff spend hours watching plenary sessions
       from the visitors’ gallery as well as making calls on individual members. This is not
       an efﬁcient use of time. The OIG team informally recommended that the Embassy
       make use of the daily summary of developments in Dari and English that Parliament
       now produces through a grant by USAID.

           Political ofﬁcers are not responsible for managing any grants or contracts. Begin­
       ning in FY 2010, however, a section ofﬁcer will serve as grants ofﬁcer representa­
       tive for two grants from the Ofﬁce for Monitoring and Combating Trafﬁcking in
       Persons. Both grants closely match the policy needs identiﬁed in embassy reporting
       and have formal embassy support. Embassy Kabul and the trafﬁcking ofﬁce worked
       closely and harmoniously to design these programs and the section is well placed to
       oversee and monitor them.

           The Bureau of Democracy, Human Rights, and Labor has worked with the
       section to identify programs it could fund that are related to women’s access to the
       political system, a neuralgic issue in Afghanistan but one of the mission’s key policy
       objectives. Political ofﬁcers have identiﬁed several possible programs that would
       support this goal. S/SRAP has proposed expanding grants in this area to $20 million
       or more in FY 2010. The Embassy feels conﬁdent that the political section, drawing


24 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




upon grants expertise in PAS, could provide adequate oversight for a limited grants
program; however, the inspectors found that the political section lacks the stafﬁng or
the specialized training required to oversee a grants program of the magnitude that
S/SRAP is proposing. Nor is PAS, as detailed in this report, able to assist with a new
program supporting women’s access to the political system on top of its present and
proposed expanded duties.

   Recommendation 13: Embassy Kabul should assign responsibility for over­
   sight of large-scale grants for the advancement of women’s rights to an agency
   with development experience. (Action: Embassy Kabul)



Management and Stafﬁng

     The political section is well led and managed but is not well organized to absorb
a large, projected increase in its stafﬁng. At present, the entire section is a single, ﬂat
structure. Having everyone report to the deputy counselor instead of to a unit chief
creates too great a span of control for effective management, particularly since the
deputy also has a substantive portfolio. It also deprives the section’s mid-level ofﬁ­
cers of supervisory experience and means that no one takes the place of the coun­
selor or deputy when they are away from post on frequent R&R breaks. Carrying out
the Embassy’s plan to nearly double the number of ofﬁcers in its political section will
require a different management structure.

   Recommendation 14: Embassy Kabul should reorganize its political section
   into at least two units, headed by ofﬁcers who can replace the deputy counselor
   when necessary. (Action: Embassy Kabul)


    The biggest challenge facing the section is the combination of one-year tours,
inexperienced ofﬁcers, and simultaneous rotation of all personnel. As the inspec­
tion began, no ofﬁcer had been in the job for longer than two months. Almost all
except the counselor and deputy were on their ﬁrst political reporting tour. Many
had not received a handover memo from their predecessor, and most did not receive
an orientation to the section’s work although they did receive the mission’s overall
administrative orientation. The section does not use an integrated source manage­
ment system, travel plan, or representation plan. Because the formats and require­
ments for producing memos and other products for the Ambassador have changed
multiple times, the section has been unable to develop SOPs or “how-to” books. The
OIG team left informal recommendations on how to develop and make greater use
of these traditional management tools.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010    25 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Refugee Affairs

            The small refugee coordinator’s ofﬁce monitors and evaluates Bureau of Popula­
       tion, Refugees and Migration Affairs (PRM) grants in Afghanistan, which are focused
       primarily on returning refugees, displaced persons, gender issues, and hygiene. PRM
       enters into all cooperative or grant agreements with the nongovernmental organiza­
       tions that oversee their projects; all of the grants are for one year in duration. The
       grants ofﬁcer representatives for the cooperative agreements are in the Department.
       The sole refugee coordinator and two LE staff track, monitor, and provide interim
       evaluations of the PRM-funded projects in conjunction with the grants ofﬁcer rep­
       resentatives who, until recently, traveled periodically to Afghanistan. The monitoring
       system is in place, but the deteriorating security situation limits the refugee coordina­
       tor’s ability to conduct onsite inspections.

            PRM makes every effort to fund projects only when the bureau and the refugee
       coordinator think they will be able to get to the project site without risking life and
       limb. There are no PRM-funded projects in the volatile south and fewer in the north
       than previously. PRM realizes that they will have to carefully consider how to moni­
       tor future grants given the uncertain security situation. In some cases, even PRM’s
       nongovernmental implementing partners are unable to get to the region where local
       counterparts are carrying out the projects. The refugee coordinator relies on second­
       hand reports on how the projects are advancing. With refugee returns from Pakistan
       at their lowest levels since 2002 and PRM funding decreasing accordingly, the refugee
       coordinator realizes that synergy with other assistance programs is the best way to
       maximize PRM resources. There is, however, no systematic coordination of pro­
       gramming between the refugee coordinator’s ofﬁce and USAID ofﬁces working in
       some of the same regions. The OIG team made an informal recommendation that
       the refugee coordinator maintain regular contact with USAID counterparts as they
       both develop strategies for assistance.

           The OIG team also made an informal recommendation that the Ambassador
       include the refugee coordinator or the senior LE assistant when he travels to areas
       where there are PRM-funded projects. The Ambassador can often travel to areas
       with his protective detail that the RSO would consider unsuitable for travel by less
       well-protected ofﬁcer staff.




26 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




POLITICAL-MILITARY AFFAIRS
     Unlike most embassies, Kabul has a large, independent political-military (pol­
mil) section. This approach reﬂects the need for constant interaction with U.S. and
NATO military forces and facilitates the Ambassador’s desire for greater unity of
military and civilian efforts in Afghanistan. Strong leadership and a well-thought-out
reorganization have transformed this section into one capable of carrying out a large,
projected increase in its workload. This includes extensive new responsibilities for
strategic planning. In 2009, the Embassy reorganized its pol-mil section into three
new units that handle demining and disarming, security assistance, and strategic plan­
ning. It also disbanded the Integrated Civil-Military Action Group set up by plan­
ners from the Ofﬁce for Reconstruction and Stabilization (S/CRS) and transferred
its responsibilities to the pol-mil section. In addition to traditional pol-mil programs
such as demining and the training and equipping of Afghan military and police, the
expanded pol-mil section is now responsible for planning and assessment metrics
and support for an elaborate system of 14 civ-mil working groups that needs to be
streamlined and consolidated as recommended below. The pol-mil section serves as a
liaison with military attachés from other embassies because Embassy Kabul does not
have a Defense attaché.

Demining and Disarming

     The ﬁrst unit now oversees traditional pol-mil programs such as weapons remov­
al and abatement, the recovery of surface-to-air missiles, and humanitarian demin­
ing. These assistance programs totaled $29 million in FY 2009 and are expected to
grow to over $100 million in FY 2010. The Bureau of Political-Military Affairs (PM)
manages the assistance programs and implements them primarily through contract
personnel in Afghanistan. Embassy Kabul’s role is to provide political oversight and
guidance to ensure that they support the mission’s policy objectives and are well
coordinated with each other and with ISAF. An OIG inspection of the demining
program in early 2009 found that the program was well managed and effective.3 In
order to maintain effective oversight if funding for these programs triples, however,
the section will need to ﬁnd ways to reduce competing demands on ofﬁcers’ time by
reassigning clerical and other duties as recommended below.




3
    ISP-I-10-11, October 2009.



           OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   27 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            This unit is also responsible for liaison with NATO. Persuading allies to share the
       burden in Afghanistan is a key objective of U.S. policy, and the United States regard­
       ed it as a victory when NATO agreed in 2007, at U.S. urging, to take over responsi­
       bility for security throughout the country. Because each NATO member contributes
       troops to ISAF with a different set of caveats, however, U.S. actions in Afghanistan
       must be coordinated extensively with all 27 allies. In some cases this coordination
       has been easier for the U.S. military, whose commander in Afghanistan is also com­
       mander of NATO forces, than for the Embassy. There was initially resistance in
       some quarters to including British, Dutch and other Allied ofﬁcers in all strategic
       planning meetings until the Embassy concluded that no effective planning could be
       done without their full participation.

            As noted in the 2009 OIG inspection of the U.S. Mission to NATO, the De­
       partment launched a new program in September 2009 under which one ofﬁcer at
       Embassy Kabul and one at the U.S. Mission to NATO exchange positions every six
       months. Each ends up spending half of a two-year tour in each of the two linked
       posts. The OIG team found that this new program is already paying dividends to
       both missions by improving the ﬂow of information and coordination. It is also
       likely to strengthen both missions in their dealings with allies by providing them with
       ofﬁcers who bring immediate, ﬁrsthand experience with the view from the other end
       of the telescope.

       Security Assistance

           The second pol-mil unit works with U.S. military forces on security assistance
       issues, including detainees and the training of Afghan military and police. It also
       supports the work of a combined new fusion cell set up in October 2009 to try to
       replicate in Afghanistan the success that Western forces had in Iraq in persuading
       enemy ﬁghters to switch sides. The Embassy moved promptly to assign two For­
       eign Service ofﬁcers to this cell, which will be led by a British general. It has not yet
       sorted out exactly how to clear its reporting and coordinate its advocacy with the
       new cell, which has been assigned the lead role in reintegration policy by NATO. The
       OIG team informally recommended that the mission review its systems for com­
       munication links, reporting responsibilities, and information sharing to ensure that
       this important work is fully coordinated with U.S. policy and UN mandates for the
       disarmament and reintegration of disillusioned former Taliban.

           Like the other units, this group no longer depends on individual portfolios but
       works as an integrated team, in which three or more ofﬁcers share overlapping
       responsibilities for an issue area. The OIG team found that this approach was more
       successful than traditional systems of portfolios and backups in ensuring coverage

28 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




of an issue during frequent absences for R&R. Using the team approach, the deputy
section chief, who concentrates on management while the counselor focuses on poli­
cy, is able to let people go on leave with the assurance that each team will still have at
least two other members who are equally familiar with all aspects of the work.

Strategic Planning

    The third new unit handles strategic planning. In 2009, the Embassy abolished
the Integrated Civilian-Military Action Group after concluding that its complex plan­
ning models and assertive style were not producing adequate results. Because of the
need to keep the Embassy’s planning linked with that of ISAF, the Ambassador in­
structed the pol-mil section to take over strategic planning. Using TDY assignments
from S/CRS and other temporary stafﬁng sources including military augmentees, the
section hastily assembled a new planning unit known as the civ-mil plans and assess­
ments subsection. Despite cramped working quarters and a shortage of computer
terminals, it set to work to turn out planning documents including metrics, bench­
marks, and the Joint Campaign plan that were cosigned by the Ambassador and the
ISAF commander as a summary of their agreed strategic concepts.

    During the inspection, this small staff was overwhelmed with requests from the
Department for new metrics to determine whether the United States was making
progress in Afghanistan. Under these conditions, it was impossible for the OIG team
to assess the long-term viability of this new approach. The unit is also still in the ex­
perimental stages, using a series of short-term TDYs instead of creating permanent
positions. However, it is clear that much of this planning work does not depend on
interaction with the Afghan Government, and does not necessarily need to be done
in Kabul, where the costs and security risks of maintaining U.S. employees are so
high. The OIG team informally recommended that Embassy Kabul review the unit
to determine whether some of its work could be done more cost effectively in the
Department or at another embassy in the region.

Interagency Working Groups

    In addition to its planning and assessment function, the pol-mil section is also
responsible for staff support to Embassy Kabul’s system of civ-mil working groups,
which are directed by the CDDEA. Fourteen working groups, each chaired by a rel­
evant agency or section and a corresponding military ofﬁcer, report to an executive
working group chaired by the DCM and the deputy ISAF commander. Its decisions
are in turn submitted to weekly “summit” meetings between the Ambassador and the
ISAF commander.


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   29 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




            The inspection found shortcomings with this system that is still evolving. There
       are too many working groups to be efﬁcient and they meet too frequently. Many
       working groups are being used primarily as coordinating bodies rather than decision
       mechanisms. In part because too many agencies or individuals are not kept aware of
       what their colleagues are doing, many working groups use all their time for the ex­
       change of information, and do not reach a policy decision or consensus. The DCM
       is often too busy to chair meetings of the executive working group. The Embassy
       does not always keep minutes of key meetings or a formal, interagency record of de­
       cisions. After reviewing the amount of time expended on preparing for key meetings
       and comparing it to the number of decisions reached, the OIG team concluded that
       the system is cumbersome.

          Recommendation 15: Embassy Kabul should streamline and consolidate its
          planning system by reducing the number of working groups, focusing agendas
          on decisions to be made, and keeping formal records of all meetings that re­
          ﬂect agreement by all agencies on what decisions were reached. (Action: Em­
          bassy Kabul)




          Recommendation 16: Embassy Kabul should keep minutes of all regularly
          scheduled meetings between the Ambassador and the commander of U.S. mili­
          tary forces in Afghanistan, ensuring that the minutes reﬂect agreement by both
          sides on what decisions were reached. (Action: Embassy Kabul)




          Recommendation 17: Embassy Kabul should add an administrative assistant
          to its political-military section, using an eligible family member or other ap­
          propriate hiring mechanism, to take over the clerical aspects of civilian-military
          planning meetings and required Leahy Amendment vetting. (Action: Embassy
          Kabul)



       Political Advisers

           Embassy Kabul has eliminated most of its political adviser positions. This pro­
       gram, administered by the PM bureau, places Foreign Service ofﬁcers in U.S. military
       commands where they can offer advice on the political considerations of military
       strategies and decisions. The political advisers were replaced by four new SCRs (see


30 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



executive direction) whose primary role is to coordinate and supervise all civilian
personnel assigned to the four military regions in Afghanistan.

    The Embassy believes this new approach, in which the SCR will be the co-equal
of the military commander of that region rather than a member of his staff, will
improve unity of government, enhance civilian stature in the implementation of re­
construction efforts, and better integrate civilian efforts with ongoing military plans.
Because the experiment is so recent, the OIG team concluded that despite some
encouraging indications, it is too early to evaluate its effectiveness.



ASSISTANCE: DEVELOPMENT, GOOD GOVERNANCE,
COUNTERNARCOTICS, LAW ENFORCEMENT
Coordinating Director for Development and Economic
Affairs

    The CDDEA is tasked with coordinating and overseeing the work of 14 sections
and agencies at the U.S. mission. These include economic and development agencies
such as USAID, the U.S. Department of Agriculture, the Treasury attaché, the Fed­
eral Aviation Administration, the Department of Transportation, and the economic
section itself. The CDDEA also oversees a subgroup of entities consisting of the
development and assistance portions of the rule of law section and law enforcement
agencies including the Department of Justice, the Drug Enforcement Administration
(DEA), the Federal Bureau of Investigation, the U.S. Marshals Service, the Depart­
ment of Homeland Security, and the INL ofﬁce. Additional ofﬁces reporting to the
CDDEA are the Afghanistan-Pakistan border coordinator and the large and growing
IPA ofﬁce.

     The intent of the CDDEA’s ofﬁce is to link civilian efforts with military efforts
to achieve the Administration’s goals in Afghanistan. Within the civilian effort its aim
is to end the stovepiping of information and program development within agencies
and ofﬁces and instead coordinate a “whole of government” approach that reduces
duplication and ensures that the goals and efforts of various agencies and ofﬁces are
not in conﬂict with each other. CDDEA has succeeded in increasing coordination,
reducing stove piping, and better assuring that development supports U.S. foreign
policy. However, it has also created two new layers between the Embassy’s executive
ofﬁce and the implementing agencies and ofﬁces.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   31 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            The CDDEA is a former Ambassador and Assistant Secretary; he is assisted by
       three experienced Foreign Service deputy coordinating directors with line respon­
       sibility for a variety of functions and agencies or sections. A vast volume of paper
       passes through the three CDDEA deputies. In the ﬁrst months of the new struc­
       ture, the deputies not only coordinated and properly cleared documents, but also
       checked them for content, coherence, and relevance, as well as for style, form, and
       grammar. Their purpose was to ensure a level of quality to all paper provided to the
       CDDEA and eventually forwarded to the DCM and the Ambassador. Their efforts
       were directed by the executive ofﬁce, in particular by the Ambassador and DCM
       who wanted to increase the volume and quality of reporting by ofﬁcers who had
       front line interactions with Afghan interlocutors in the ﬁeld. Because many of these
       ofﬁcers lacked reporting expertise, this effort was labor intensive. Ofﬁcers in many
       of the agencies and sections expressed considerable frustration at having their work
       returned not only for substantive additions but often for grammatical or semantic
       corrections. While CDDEA noted that the quality of draft documents has improved
       substantially, ofﬁcers continued to report delays for editing. The inspectors made
       an informal recommendation that CDDEA staff focus their efforts on products
       for consumption outside of the Embassy such as reporting cables and give internal
       products a lighter scrub for policy consistency.

       Development Assistance

            The President’s March 2009 announcement of a new direction for our engage­
       ment in Afghanistan altered the focus and pattern of development assistance. Many
       programs will now focus on developing Afghan leadership and assisting the Afghan
       Government to assume a larger role in their own development. At the national level,
       more U.S. assistance is channeled through the Afghan Government; at the subnation­
       al level, U.S. assistance is creating smaller, more ﬂexible mechanisms to meet local
       needs and to decentralize decisionmaking.

           In FY 2009, nearly $2.8 billion was appropriated for development assistance for
       Afghanistan, with $2.1 billion for USAID, $485 million for INL and the remaining
       $203 million mainly for PRM, PM, and the Bureau of International Security and
       Nonproliferation. The Administration has made a base request of $2.8 billion for FY
       2010, and the Ambassador has submitted a substantially larger request to meet the
       revised requirements of the President’s strategy. In FY 2009 $1.17 billion was allo­
       cated for reconstruction, which includes infrastructure as well as agriculture, health,
       and education. Democracy and governance programs were allocated $959 million,
       which includes $297 million (14 percent of USAID’s appropriation) in direct assis­
       tance to the Afghan Government, principally through the Afghan Reconstruction
       Trust Fund, which is managed by the World Bank. Counternarcotics efforts were

32 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




funded at $462 million, of which the majority was through USAID to fund programs
for alternative crops to poppy. Humanitarian assistance, which includes demining
and refugee reintegration, was budgeted at $201 million. The programs of most of
the U.S. law enforcement agencies present in Afghanistan and the ROL programs are
funded from INL-administered, USAID, or Department of Defense money, and not
through appropriations to their parent departments.

    USAID is the primary designer and implementer of development assistance. By
the end of 2009, USAID will have approximately 300 Americans and 180 LE staff
in Afghanistan to manage the largest USAID development program in the world,
funded at nearly $2.1 billion for FY 2009. According to USAID, 20,000 staff mem­
bers are employed by USAID-funded implementing partners – 19,000 of whom
are Afghan nationals. Cumulatively, USAID-funded cash-for-work programs have
provided employment for 304,000 Afghan citizens since 2002. The U.S. Department
of Agriculture, by the end of 2009, will have 64 employees in Afghanistan devoted
to agriculture development efforts.

    As part of the Obama administration’s new focus on Afghanistan, the newly
created S/SRAP reviews and approves all USAID programs and projects, includ­
ing new projects, additional funding for ongoing projects, and project extensions, to
ensure that they support U.S. policy priorities. In some cases, S/SRAP has delegated
this responsibility to the Ambassador. All new approved projects are initially awarded
for one year with options for extensions. Although it is appropriate to ensure that all
development programs support U.S. foreign policy objectives, the OIG team made
an informal recommendation that CDDEA review the established process to make
sure that only essential information is requested and, in the cases of contract exten­
sions, that continued program relevance and contract performance are the key issues
addressed.

     To ensure civ-mil coordination and cooperation outside Kabul, the Embassy
created four senior civilian representative positions, matching the four regional ISAF
commands. Below them, in turn, are civilian representatives at the task force, provin­
cial, and district levels. Each level is subordinate to the next level up, with the senior
civilian representative reporting to IPA. Each level also has a counterpart military
structure with which they coordinate activities and on whom they are dependent for
security, logistical, and support services. The Government of Afghanistan, however,
does not have regional or task force-level representation. Therefore it is essentially
only at the national, provincial, and district levels that the U.S. Government civilians
can mentor Afghan ofﬁcials.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   33 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           The Ambassador issued a letter of instruction to each of the senior civilian
       representatives charging them with coordinating and directing the work of all U.S.
       Government civilians under chief of mission authority within their region. Imple­
       mentation of this instruction may come into conﬂict with speciﬁc U.S. Department
       of Agriculture, USAID, and INL development program requirements. Authority
       to direct USAID’s programs is vested in the USAID mission director as delegated
       under USAID policy (Automated Directives System—ADS 103) from the USAID
       Administrator. The authority to change contracts or grants or to direct contractors or
       grantees is vested in warranted contracting ofﬁcers and their certiﬁed representatives
       in accordance with federal acquisition regulations and speciﬁc agency regulations.



          Recommendation 18: Embassy Kabul, in coordination with the Bureau of
          Administration, should implement policy decisions in accordance with acquisi­
          tion and grant law and regulations, including the requirements that contract and
          grant changes be authorized by warranted contract and grant ofﬁcers. (Action:
          Embassy Kabul, in coordination with A)


           Personnel assigned outside of Kabul and under the responsibility of the re­
       gional senior civilian representative may come from several different agencies and
       may have been hired under several different personnel systems. There are differing
       rules regarding direction and performance evaluations for contractors. In the case of
       USAID contractors, there is a contractual obligation requiring that they be directed
       and their performance evaluated by USAID direct-hires. The Ambassador’s letter
       of instruction charges the senior civilian representatives to rate or review the per­
       formance of their immediate subordinates regardless of parent agency. The USAID
       rules conﬂict with this letter of instruction.



          Recommendation 19: Embassy Kabul should amend and reissue the letter of
          instruction from the Ambassador to the senior civilian representatives in the
          regional commands to bring the text into harmony with contractual obligations
          regarding direction and performance evaluations of other agency contractors
          and indicating that responsibility for direction and performance evaluations
          must remain with the employing agency. (Action: Embassy Kabul)




34 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




    In the same vein and relating to the same instruction regarding rating subordi­
nates, employing agencies have different systems for employee performance evalua­
tion. USAID rates its Foreign Service ofﬁcers with a 360 degree rating, and does not
use a reviewing ofﬁcer. USAID regulations state that personal services contractors
(PSC) may not supervise U.S. direct-hire USAID employees or employees of other
U.S. Government agencies.



   Recommendation 20: Embassy Kabul should conduct a review of the rules,
   regulations, and practices of all agencies with employees under chief of mis­
   sion authority in Afghanistan and amend guidance as necessary so that perfor­
   mance evaluations are done in accordance with the appropriate rating system.
   (Action: Embassy Kabul.)


     INL and USAID ofﬁcers and their PSCs at regional commands, PRTs, and dis­
trict support teams are activity managers and as such are tasked by INL or USAID
to evaluate and report to contracting ofﬁcer technical representatives in Kabul on
the performance of implementing partners (contractors or grantees) in their region.
These technical reports go through IPA for clearance and approval before being
forwarded to INL or USAID Kabul.

   Recommendation 21: Embassy Kabul should authorize activity managers and
   contracting ofﬁcer technical representatives in the ﬁeld to send technical per­
   formance reports on implementing partners and development projects directly
   to the corresponding agency’s contracting ofﬁce at the embassy at the same
   time that they send such reports to the interagency provincial affairs ofﬁce.
   (Action: Embassy Kabul)



Rule of Law Program

     The ROL section under CDDEA is responsible for developing the Embassy’s
ROL and anticorruption strategies as well as coordinating the development assis­
tance activities of six law enforcement agencies. In light of the increasing empha­
sis that the Obama administration is giving to anticorruption in its overall Afghan
strategy, this is a daunting and high-proﬁle task. The three ofﬁcers in the section
(two Foreign Service ofﬁcers and one U.S. Army Judge Advocate General colonel)
are charged with bringing competing agencies to one table to develop a coordinated
strategy to improve Afghanistan’s legal regime.



       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   35 .


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            There are several agencies at Embassy Kabul that have a wide spectrum of
       technical capacity in the administration of justice and in law enforcement, and most
       have ROL coordinators of their own. Partners include the full complement of law
       enforcement agencies, the largest INL program in the world, and USAID. The ROL
       section leads both the rule of law and anticorruption working groups and develops
       and coordinates a cooperative action plan to focus judicial capacity building assis­
       tance on achieving functioning courts capable of hearing corruption and low-level
       insurgent cases. It coordinates a resource action plan to make the Kabul-based Major
       Crime Task Force/Anticorruption Unit functional and works with the Department
       of Justice, the U.S. Marshals Service, the Department of Defense’s Combined Securi­
       ty Transition Command – Afghanistan (CSTC-A), and INL to implement the Afghan
       Judicial Security Force. Non-embassy entities, like ISAF and the Government of the
       United Kingdom, also have programs that dovetail with U.S. efforts in this area. In
       addition to encouraging a uniﬁed approach to ROL issues at the Embassy itself, the
       ROL section provides guidance to nearly a dozen ROL coordinators at PRTs. One
       of the ROL section’s top goals for the next six months is to work with IPA to im­
       prove the ﬂow of policy guidance on ROL and anticorruption issues to the ﬁeld and
       at the same time enhance ROL-related reporting from ofﬁcers at the PRTs.

            Funding from the supplemental and from INL underwrite most of the Embas­
       sy’s ROL programs, no matter which agency is actually providing the technical exper­
       tise. At present, the availability of technical resources determines the Embassy’s pri­
       orities, and the ROL section is trying to coordinate and leverage well-funded entities
       that are implementing the programs that they have developed with the personnel as­
       sets they have in country. The Embassy prepared a draft ROL strategy, and S/SRAP
       has approved much of it in principle, but as yet there is no approved overarching
       strategy that the ROL section can use to set priorities, timelines, the needed numbers
       of personnel, and their skill sets. Once the ROL strategy is formally approved, the
       Embassy can adjust the size of its ROL coordination ofﬁce, as appropriate.



          Recommendation 22: The Ofﬁce of the Special Representative for Afghani­
          stan and Pakistan, in coordination with the Bureau of International Narcotics
          and Law Enforcement, should approve and disseminate a sustainable, compre­
          hensive rule of law strategy, to include program priorities, interagency stafﬁng
          and skill needs, and a timeline. (Action: S/SRAP, in coordination with INL)




36 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Anticorruption

     One of the U.S. Government’s key policy objectives is to promote the Govern­
ment of Afghanistan’s anticorruption campaign. The Embassy prepared a draft anti­
corruption strategy during the OIG inspection. The overall goal of the draft strategy
is to strengthen the institutions that provide checks on government power and instill
conﬁdence by Afghans that their government is taking meaningful action against
corruption. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)
    This strategy has far reaching implications for coordination with other U.S. Gov­
ernment strategies regarding governance, rule of law, illicit ﬁnance, and the insur­
gency-narcotics-corruption-criminality nexus. Other donors, including the United
Nations Development Program, the World Bank, and the ISAF Anticorruption Task
Force, are taking similar steps to encourage the Government of Afghanistan to ﬁght
corruption. Even though the strategy is still in draft and not yet fully coordinated
with other donors, many of the initiatives set out in the anticorruption strategy are
underway.

    In light of the approval of the newly drafted anticorruption strategy, the current
stafﬁng conﬁguration of the ROL section is not adequate to develop and coordinate
the fulltime guidance that will be required for this forward leaning policy initiative.
As an example, the Afghan Supreme Court recently approved the establishment of a
national anticorruption court. The ROL section has responsibility for canvassing the
Embassy’s anticorruption working group with participation by representatives from
ISAF and CSTC-A along with the law enforcement agencies and INL to determine
the optimal mix of assistance for this new court. This is a clear indication of the
need for additional ROL staff dedicated to coordinating policy guidance on the
anticorruption strategy. The embassy has requested additional positions for the ROL
section for the summer of 2010.

   Recommendation 23: The Ofﬁce of the Special Representative for Afghani­
   stan and Pakistan, in coordination with the Bureau of South and Central Asian
   Affairs and the Bureau of International Narcotics and Law Enforcement Af­
   fairs, should approve an anticorruption strategy and authorize the allocation of
   assistance funding to support that strategy. (Action: S/SRAP, in coordination
   with SCA and INL)




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   37 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Recommendation 24: Embassy Kabul should review the positions it request­
          ed for FY 2010 in light of the approved anticorruption strategy and assign an
          anticorruption ofﬁcer to oversee its implementation. (Action: Embassy Kabul)



       International Narcotics and Law Enforcement Programs

          INL’s narcotics control program operates in direct support of ROL and anticor­
       ruption programs in Afghanistan. Its major objectives are threefold:

               1) attack and weaken the nexus among narcotics, crime, corruption, and the
               insurgency;
               2) build a professional and competent Afghan national police force; and
               3) support nationwide development of rule of law institutions and capabili-
               ties.

           The INL/NAS budget for Afghanistan averaged over $217 million in each of the
       past ﬁve years. The Department also funds from Washington, sizeable contracts to
       support discrete programs such as police training (see below) and counternarcotics.
       The INL/NAS section at Embassy Kabul oversees and evaluates the performance
       of these contracts even though it does not control the funding stream. INL-adminis­
       tered funding enables DEA and other law enforcement agencies to accomplish their
       goals.

       Grants and Contracts

            In addition to its sizable budget, INL/NAS provides oversight for upwards of
       $1.8 billion in contract services to support its programs related to counternarcot­
       ics, construction, and police training throughout the country. The Foreign Service
       program ofﬁcers who assess contract performance, however, are not also the in-
       country contracting ofﬁcer representatives (I-COR). INL/NAS has seven authorized
       I-COR positions to oversee the contractors’ technical performance in coordination
       with Foreign Service program ofﬁcers who oversee the contractor’s program execu­
       tion. These contract activities take place at seven regional training center locations in
       Afghanistan. At the time of the inspection, only ﬁve of these I-COR positions were
       ﬁlled. All ﬁve of those I-CORs were PSCs, four on long-term contracts and one in
       Kabul on temporary duty status. These ﬁve I-CORs were based in Kabul as were the
       Foreign Service program ofﬁcers. Security conditions in Afghanistan limit site visits
       to the regional training centers to day trips. The I-CORs reported that their ability
       to make frequent site visits to the regional centers was hampered by the lack of a

38 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




permissive security environment. INL has not been able to ﬁll all seven of the autho­
rized I-COR positions for Afghanistan. These ﬁve I-CORs cannot provide effective
oversight of the contractual service programs as required by the Federal Acquisition
Regulations.



   Recommendation 25: The Bureau of International Narcotics and Law En­
   forcement Affairs should immediately ﬁll all seven of the in-country contract­
   ing ofﬁcer representative positions. (Action: INL)


    During the inspection, the I-COR positions at the embassy were ﬁlled by PSC
employees. This subject has been discussed in several OIG reports, most recently in
MERO-A-10-02, Status of INL Counternarcotics Programs in Afghanistan. As of the time
of the MERO inspection there were four I-CORs in country, two of whom were
PSCs on long-term contract, and two were PSC staff on temporary duty assignment.
As that report contains an outstanding formal recommendation on this subject, the
inspectors simply noted that the fact that all of the ICORs were PSC employees had
not changed as of the time of this report. INL/NAS also oversees a number of
grants in Afghanistan. The INL/NAS management ofﬁcer is the warranted grants
ofﬁcer. Foreign Service ofﬁcers assigned as program ofﬁcers also serve as grants of­
ﬁcer representatives.

Counternarcotics

     The U.S. law enforcement agencies in Afghanistan rely heavily on INL ﬁnancial
support for training, capacity building, and mentoring programs. The U.S. adminis­
tration’s shift to a greater focus on interdiction and enforcement efforts against high-
level targets combined with expanded alternative agricultural development programs
required a shufﬂe of resources and personnel. In response to this shift in focus, INL
has partnered effectively with DEA by shifting the helicopters it formerly dedicated
to poppy eradication to DEA’s highly effective interdiction programs.

Justice Sector Development

    Without INL’s ﬁnancial resources, the Embassy’s ROL and justice programs
would be seriously weakened. INL funds the Embassy’s efforts to build a sustainable
nationwide criminal justice system and a Justice Sector Support Program that runs a
capacity building and mentoring program with a staff of over 100 U.S. and Afghan
legal and support personnel. This staff provides guidance and technical assistance


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   39 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       to the Ministry of Justice and the Attorney General’s ofﬁce. The INL Corrections
       System Support Program trains, mentors, and advises the Ministry of Justice’s Cen­
       tral Prison Directorate in developing a safe and humane prison system that will not
       radicalize prisoners.

       Police Training

            The U.S. Government spends a signiﬁcant amount of money on police training,
       and there has been considerable progress in providing basic police training to mem­
       bers of the Afghan National Police although the number of trained police is not
       sufﬁcient to respond to Afghanistan’s deteriorating security conditions. As a result,
       this program is changing from a Department of Defense-funded and INL-managed
       program to a program funded and managed by the Department of Defense. Because
       the Department of Defense is likely to provide paramilitary training rather than basic
       civilian police training, this may mean a change from the INL emphasis on commu­
       nity policing skills.

       The Air Wing and Embassy Air

            The INL-funded and managed air wing is based at the Kabul International Air­
       port and at the Kandahar Air Field. UH-II helicopters provide gunship and medical
       evacuation support for DEA and Afghan Ministry of Interior interdiction opera­
       tions. The ﬁxed-wing aircraft and the medium helicopters provide passenger trans­
       portation and logistical support for all counternarcotics activities and programs. In
       addition to the INL aircraft, the Bureau of South and Central Asian Affairs (SCA)
       purchased six aircraft (two ﬁxed wing and four rotary wing). Congress funded this
       additional air capacity through the FY 2008 and FY 2009 supplementals. The ad­
       ditional aircraft are intended to support the plus-up in civilian personnel described
       elsewhere in this report. These aircraft, operating under chief of mission authority,
       will be part of a consolidated aircraft pool known as Embassy Air. This aircraft pool
       will include USAID wet-leased aircraft. SCA arranged with INL to use the same
       contractor supporting the INL program air ﬂeet to operate SCA’s aviation assets.
       The entire consolidated air wing will eventually be housed at the same camp hous­
       ing as the INL air ﬂeet when physical colocation of the USAID ﬂeet is possible. In
       the meantime, a jointly managed Embassy Air ofﬁce undertakes centralized passen­
       ger manifesting and dispatch. Aircraft will be used to support the routine transport
       of high-level U.S. Government ofﬁcials. There may be foreign registry aircraft with
       non-U.S. citizen crews in the aircraft pool. In observance of international safety
       standards, all aircraft and crew should, at a minimum, adhere to the International
       Civil Aviation Organization standards detailed in 41 C.F.R. Part 102-33 (Management


40 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




of Government Aircraft). (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


   Recommendation 26: Embassy Kabul should require that all aircraft and
   crew in the Embassy Air pool adhere to the International Civil Aviation Or­
   ganization crew proﬁciency, aircraft maintenance, and aircraft safety standards
   and that all personnel have appropriate security clearances. (Action: Embassy
   Kabul)




 ECONOMIC AFFAIRS
     The ﬁve-ofﬁcer economic section is well organized and effective in implementing
U.S. economic policy in Afghanistan. The economic section shares ofﬁce space and
works closely with the Treasury attaché. The economic counselor also supervises a
contractor at the Embassy who is implementing an export control, nonproliferation,
and border security program for the Bureau of International Security and Nonpro­
liferation. The section works closely with the civil aviation attaché on aviation issues
such as air trafﬁc control and with the Department of Homeland Security Transpor­
tation Security Administration ofﬁcer on aviation security matters. In view of the im­
portance and high proﬁle of Afghan economic issues, as well as strong Washington
interest in these issues, the economic counselor reports through the senior CDDEA
deputy to the CDDEA. Both the CDDEA and the deputy take a close interest in the
section’s work. The economic counselor has a seat on the country team.

    On top of normal duties, the economic section does a great deal of preparation
for the Ambassadors’ travel, for frequent ambassadorial-level meetings, and for high-
level visitor support. Morale in the section is generally good, but it ebbs and ﬂows
depending on a number of factors including the work load and the security situation.
Ofﬁcers would like to develop contacts with their counterparts, but the section has
not been able to count on any representational funds (see representational funding in
the management section.)

     Washington agencies told the OIG team that economic reporting is of high qual­
ity and includes insightful analysis. The economic section has a reporting plan for the
year which it is meeting. Ofﬁcers can and do leave the embassy compound on a fairly
frequent basis to meet with host government and private sector contacts in Kabul.


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   41 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       Travel outside of Kabul is less frequent. There is little economic reporting from the
       provinces or of provincial views. The economic section does not have a travel plan
       linked to reporting. While ofﬁcers in the provinces are sending in some economic
       information, it is screened by a cumbersome reporting chain, forwarded to the IPA
       ofﬁce, and then generally subsumed in a daily summary. (See section on IPA.) Eco­
       nomic information is not passed directly to the economic section for amalgamation
       and use in coordinated reporting and analysis. The OIG team encouraged the eco­
       nomic section to send out to the PRTs lists of topics and issues on which it would
       welcome input or ﬁeld reports.

       Environment, Science, Technology, and Health

           One ofﬁcer in the section has responsibility for environment, science, technol­
       ogy, and health issues in addition to other full-time responsibilities. There are a num­
       ber of environmental issues that could be addressed more fully if the section had the
       resources to do so. The Embassy has requested two additional economic reporting
       positions. The OIG team supports this increase in personnel and suggested that the
       position approved for the next assignment cycle include the environment, science,
       technology, and health portfolio.

       Trade Promotion

           The Embassy would like to do more to promote and encourage U.S. exports
       to Afghanistan. One economic section ofﬁcer devotes the majority of her time to
       commercial matters because there is no U.S. Commercial Service presence at the
       Embassy. Much of the work involves assisting U.S. companies doing business in
       Afghanistan, promoting the establishment of an American Chamber of Commerce,
       working with potential U.S. investors, and encouraging government improvements to
       the business climate. During the inspection, the economic section hired an LE com­
       mercial assistant.

           Presently, Afghanistan is covered by the U.S. Commercial Service ofﬁcer based
       at Embassy Islamabad, who visits Kabul infrequently. The Embassy and the Depart­
       ment have been negotiating with the Department of Commerce to have a full-time
       U.S. Commercial Service position created and staffed at Embassy Kabul. This ofﬁcer
       would support mission efforts to promote Afghan economic development via Af­
       ghan export promotion, match making, and the promotion and facilitation of small
       and medium enterprises, as well as perform the traditional role of promoting U.S.
       exports and investment.



42 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Treasury Attaché

    The Treasury attaché works closely with Ministry of Finance and Central Bank
ofﬁcials on macroeconomic stability and economic growth objectives. He also moni­
tors the work of the World Bank, the International Monetary Fund, and the Asian
Development Bank in improving the Afghan economy and training Afghan ofﬁcials.
An increasingly important focus is increasing the Government of Afghanistan’s rev­
enues through a number of mechanisms including taxation, customs collection, and
improved management.

    The Treasury attaché reports through the CDDEA but has frequent contact
with the Ambassador. A deputy attaché arrived during the inspection. The Treasury
Department’s Ofﬁce of Technical Assistance maintains mentors in the Ministry of
Finance and the Central Bank. Several additional technical advisors are expected to
arrive soon to provide training in effective budgeting and auditing. The Treasury
Department also provides staff to the Afghan Threat Finance Cell. Initially focused
on gathering information on terrorist ﬁnancing, the threat ﬁnance cell is now an
important component of information gathering for anticorruption efforts. Currently
located at Bagram Airﬁeld, the center is expected to move to Kabul when ofﬁce
space becomes available at the ISAF compound adjacent to the Embassy.

Border Coordination

    The Afghan-Pakistan border coordinator, a Foreign Service ofﬁcer, is respon­
sible for coordinating all U.S. Government efforts to improve the Government of
Afghanistan’s capacity to provide security, fundamental services, and economic op­
portunity to its citizens in the border areas. He chairs the interagency border issues
working group and also coordinates closely with his counterpart border coordinator
at Embassy Islamabad and with international donors. He encourages Afghan Gov­
ernment ofﬁcials to plan for border development to include infrastructure as well as
economic development.

    The border coordinator works closely with the border management task force
(BMTF) in the Embassy. The BMTF is composed mainly of Department of Home­
land Security, Customs and Border Protection ofﬁcers and contractors who mentor
the Afghan customs and border police. Much of the mentoring is done through
instruction at the Afghan customs academy, and emphasizes counternarcotics train­
ing as well as increasing customs revenues from the 14 recognized border crossing
points. The BMTF also coordinates its training and mentoring efforts with customs
ofﬁcials from several other coalition countries.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   43 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           Currently, over 50 percent of the Afghan Government’s revenues come from
       customs receipts. Better trained customs ofﬁcers and better infrastructure at tradi­
       tional border crossing points are likely to substantially increase customs revenue to
       the central government.

             The border coordinator’s formal mandate is to assist the Afghan Government’s
       program to strengthen controls on the Afghanistan-Pakistan border. Afghanistan,
       however, has international borders with ﬁve other countries as well. Licit as well as
       illicit trade with these other neighbors is increasing. The Government of Afghani­
       stan has not taken advantage of opportunities to develop economic corridors in all
       its border areas or developed the necessary infrastructure to increase trade and trade
       revenues.



          Recommendation 27: Embassy Kabul should expand the border coordina­
          tor’s role to include the coordination of border activities at all borders. (Action:
          Embassy Kabul)




       PUBLIC AFFAIRS AND PUBLIC DIPLOMACY
       Public Affairs Section

           Leadership upheaval severely affected PAS from August through October 2009, a
       period which saw the sudden departure of both the new public affairs ofﬁcer (PAO)
       and the cultural affairs ofﬁcer. Internal reassignment of another ofﬁcer left a vacancy
       in the information ofﬁcer position, and most of the rest of the American PAS staff
       had only limited previous public diplomacy (PD) experience. This unusual stafﬁng
       ﬂux exacerbated the problems caused by the complete annual turnover of the Ameri­
       can staff due to one-year assignments.

           The timing of this upheaval came at a bad time, as it occurred when plans were
       underway to increase the $1.5 million PD budget by an additional $22.1 million in
       the FY 2009 Afghanistan supplemental budget. A strategic communications plan de­
       veloped jointly by S/SRAP, SCA/PPD, and Embassy Kabul envisions a program of
       $150 million for PD activities. Thus PAS was forced to make initial strategic planning
       decisions during a period when the section did not have a leader.




44 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     PAS ofﬁcers, like their colleagues in the rest of the Embassy, also found them­
selves spending large amounts of time to complete multiple and sometimes con­
tradictory taskings from the Department and from embassy management. Only the
willingness of the staff to work long hours kept the section aﬂoat. Basic PD pro­
grams and activities continued under the direction of an acting PAO from another
section of the Embassy. The press ofﬁce capably managed a constant stream of
journalists, media events for high-level visitors, and the Ambassador’s many public
appearances. The Lincoln Centers (American Corners)—the crown jewels of PD
outreach in Afghanistan—continued to host programs and serve visitors; a new
center opened its doors in Gardez. More than 1,200 underprivileged Afghan students
studied English through a microscholarship program. An English language fellow
began work with Afghanistan’s most important teacher training college. Fulbright
scholars left for programs in the United States. Embassy-funded cultural restoration
projects continued apace.

    The creation of the position of deputy PAO for programs and operations was
a positive step that facilitated decisions on handling the upcoming tidal wave in PD
resources. The Embassy executive ofﬁce was aware that PAS was undermanned and
facing extraordinary challenges and supported the addition of staff. Realizing that
the section itself lacked the time and expertise to develop a concrete plan specifying
the personnel and programs that would be required, the Embassy requested a team
from S/CRS to develop such an operational plan. This team was scheduled to travel
to Kabul after the OIG team’s departure. In addition, the arrival of a new PAO in
mid-October improved morale and created forward momentum in the section.

Structural Issues

     Throughout the mission, an array of ofﬁces and agencies in addition to PAS
carry out PD and communications activities. USAID sponsors extensive journalist
training and educational development projects, and its six-person public affairs ofﬁce
publicizes USAID development programs through media activities and a Web site.
Foreign Service ofﬁcers and staff at PRTs and military regional commands engage in
PD activities; some PRTs and regional commands have their own PD specialists with
more on the way as part of the civilian uplift plan. The INL ofﬁce has its own public
affairs person who arranges press events and public information campaigns. A nine-
member military information support team (MIST) embedded in PAS undertakes
student outreach and publications projects.

      In addition, Embassy PD ofﬁcers are working in an environment where much
larger entities, especially the U.S. military and ISAF, are heavily engaged in public
affairs and strategic communications projects similar to and sometimes overlapping


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   45 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       with traditional PD work. Message coordination with the military is good in this
       fast-paced environment of incessant media inquiries and breaking events. The PAS
       press staff is in frequent contact with their military public affairs counterparts, and
       they keep each other informed about what they are saying to the media. A civ-mil
       information initiatives working group meets weekly and includes about two dozen
       representatives from PAS, USAID, IPA, MIST, and the public affairs ofﬁces of key
       U.S. military units and ISAF.

            Despite, or perhaps because of, the various PD plans and proposals ﬂoating
       about, many staff emphasized the need for a concise PD strategy that would focus
       resources on the highest priorities, design programs to push the strategy forward,
       and serve as a benchmark against which they could judge the many program propos­
       als they receive from various Department ofﬁces and outside sources. Without such
       a plan, they feared that they would be engaging in a lot of uncoordinated programs
       and activities that would not move toward concrete goals.

            To improve coordination of the growing PD and strategic communications activ­
       ities, the Embassy created the director of communication and public diplomacy posi­
       tion, popularly known as the “über PAO” because this position would not only be
       the PAO’s superior but would also be in charge of the overall public affairs strategy.
       While logical in theory, other sections and agencies were concerned about how this
       structure would work in practice. They also had qualms about how much authority
       the director of communication and public diplomacy would have over non-PAS staff
       and whether the director could give instructions about PD priorities and strategy
       directly to the PD ofﬁcers at the PRTs, whose lines of command do not include the
       PAO. Complicating the structural questions was the assignment in mid-October of
       the same individual to be both the PAO and the acting director of communication
       and public diplomacy. The director of communication and public diplomacy arrived
       a few days before the inspection began, and it was still unclear how his authority to
       direct PD strategy mission-wide would eventually work in practice. However, there
       is no point in having the director (in addition to and above the PAO) unless his or
       her authority to provide policy direction on communication strategy extends beyond
       PAS. Otherwise, inconsistency, duplication of effort, and missed opportunities for
       programs across sections and agencies could result.

          Recommendation 28: Embassy Kabul should establish a concise public
          diplomacy and communications strategy to set priorities, drive program initia­
          tives, and provide a framework to judge proposals and should disseminate this
          plan to all ofﬁcers, sections, agencies and entities that conduct public diplomacy
          activities in Afghanistan. (Action: Embassy Kabul)




46 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





   Recommendation 29: Embassy Kabul should clarify the role of the direc­
   tor of communication and public diplomacy in providing policy direction to all
   personnel under chief of mission authority in Kabul and in the ﬁeld who are
   working on public diplomacy and communications issues. (Action: Embassy
   Kabul)


    The PAS structure itself has been modiﬁed to accommodate the addition of
particular individuals, chosen for their special expertise, but then shoehorned into
the PAS organizational chart in newly created positions. The new deputy PAO for
press (also performing the duties of spokesperson), for example, overlapped the au­
thority of the information ofﬁcer to such an extent that the information ofﬁcer was
moved into a new position as deputy PAO for operations and programs. Worldwide,
only the largest public affairs sections have a deputy PAO; Kabul ended up with two,
and is due to get a third as a result of another special assignment: a deputy PAO
for strategic communications. That deputy PAO’s authority and duties are yet to be
deﬁned. Vacancies in key slots, particularly the cultural affairs ofﬁcer position, caused
those responsibilities to be divvied up among other ofﬁcers and muddied the lines of
authority. As a result of the ﬂux, although all PAS ofﬁcers have work requirements in
some form and know their portfolios and responsibilities, speciﬁc work requirements
have not been deﬁned fully.



   Recommendation 30: Embassy Kabul should rationalize and clarify the
   public diplomacy stafﬁng structure to eliminate duplication of functions and
   unclear lines of authority and should establish a clear organizational chart with
   work requirements for each position. (Action: Embassy Kabul)


    An anomaly in the PD stafﬁng structure is the position of the Foreign Service
ofﬁcer who serves as senior adviser to the Government Media Information Center
(GMIC) and that of the two other U.S. Government employees working there. The
GMIC is an Afghan institution that aims to build the capacity of the Afghan Gov­
ernment to communicate with the Afghan people. It was established two years ago
and has grown into an Afghan-led institution on a compound that comprises a large,
well-equipped facility for press events; a two-story training center; a sophisticated
digital video imagery distribution system capable of doing two-way interactives from
anywhere in Afghanistan; and ofﬁces for its 35-member Afghan staff. The $2 million
in funding to set it up was cobbled together from NATO, British, Canadian, Dutch,
and American sources. The animating idea is that Afghan ofﬁcials, spokespersons,


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   47 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       and informal communicators are more credible than foreigners in delivering mes­
       sages to Afghan audiences, but they lack the training and support to be effective.
       GMIC aims to ﬁll that knowledge gap and also to provide a venue for Afghans and
       their foreign partners to speak to Afghan media. This approach is in accord with the
       Ambassador’s guiding principle to “put Afghans in the lead.” Its value was demon­
       strated during the inspection when GMIC hosted press events by a provincial gover­
       nor and Islamic scholars effectively debunking false allegations that ISAF forces had
       burned a Koran, thus depriving the Taliban of a propaganda weapon.

           However, the position of the senior adviser to GMIC, the extent of the posi­
       tion’s authority, and the adviser’s relationship to PAS are not well deﬁned. This has
       lead to a situation in which the adviser is regarded as something of an outsider. The
       embassy does not initiate events at the GMIC as much as it could to reinforce the
       concept of U.S.-Afghan partnership by putting U.S. ofﬁcials and visitors side-by-side
       with their Afghan counterparts on the stage of the Afghan GMIC before Afghan
       journalists.



          Recommendation 31: Embassy Kabul should increase its use and support of
          the Government Media Information Center and should clearly deﬁne the posi­
          tion and clarify the authority of the Foreign Service ofﬁcer advising the center,
          as well as other U.S. Government staff working there. (Action: Embassy Ka­
          bul)



       Resource Issues

           PAS’s FY 2009 budget was $1.5 million (including additions for special projects
       but not including funds kept separately such as Fulbright and speaker funds). The
       FY 2009 Afghan supplemental put an additional $22.1 million in the pipeline for PD
       activities, with $23 million more for FY 2010. A draft strategic communications plan
       envisions $150 million more for PD. The existing PAS staff is already working at
       maximum capacity. Except for the top leadership of the section, most of the ofﬁcers
       in PAS have limited PD experience; some are on their ﬁrst PD tours. They expressed
       a common concern about how PAS could manage the looming funding increases
       effectively and responsibly. The OIG team shared their concern and concluded that
       any plan that counts on existing staff to take on signiﬁcant additional program re­
       sponsibilities is unrealistic.




48 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




     The Embassy has requested additional PD staff, but these requests were not tied
to speciﬁc PAS program plans. The initial proposal developed by SCA/PPD in June
for spending the $22.1 million from the FY 2009 Afghan supplemental does take
into account stafﬁng requirements. It requests 27 new Foreign Service ofﬁcer and
LE staff positions in Afghanistan, though some programs, such as journalist tours,
are listed without new staff to carry them out. But the strategic communications plan
calls for huge increases in labor-intensive exchanges, media programs, grants, English
teaching, cultural preservation, and other programs without specifying the stafﬁng
needs for each.

    Recognizing that it did not have anyone in-house with the time to focus on the
kind of detailed planning needed to spend large sums of new money, PAS took an
important ﬁrst step in requesting a team from S/CRS to develop a detailed spend­
ing and implementation plan, including budgets, contracts, and grants proposals.
The success of this short-term infusion of planning staff will depend on whether
their recommendations—especially those regarding additional staff—are sufﬁciently
speciﬁc and actually followed.



   Recommendation 32: The Bureau of South and Central Asian Affairs, in
   coordination with the Ofﬁce of the Special Representative for Afghanistan and
   Pakistan and Embassy Kabul, should develop and implement a stafﬁng plan to
   cover all of the additional public diplomacy programs to be carried out by the
   Embassy and should link these new programs to the provision of additional
   staff in Kabul. (Action: SCA, in coordination with S/SRAP and Embassy Kabul)



    Any large-scale increase in resources would require PAS to issue signiﬁcantly
more grants to carry out the projects. For example, the spending plan for the FY
2009 supplemental proposed $340,000 for 680 opportunity grants, which is ten times
more than the total number of grants PAS issued in FY 2009. The plan also provides
for $50,000 in PD grant money for each of the PRTs; these grants would presumably
have to be issued by PAS because none of the PRT staff have grant warrants. Most
of the other projects listed would also require additional grants yet grants manage­
ment has been a weak point for PAS for some time. The OIG team examined a sam­
pling of more than 20 of 68 grants ﬁles for FY 2009 and found serious shortcom­
ings in all of them, including missing program reports, incomplete ﬁnancial docu­
ments, and lack of proof of the requisite bureau approval for grants over $10,000.
Some grants had expired, but there was no indication that the projects had been
completed or that the grant had been extended. In one case, a PD-funded grant was


       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   49 .


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       issued for what appeared to be a non-PD project on waterway control. In another
       case, a grant was made to a speaker with no mention of the topic. PAS had stopped
       entering its grants into the grants database management system at the beginning of
       2008 and was not asking for the required identiﬁcation numbers from institutional
       grantees. OIG’s December 2005 Kabul inspection report also cited grants manage­
       ment as a problem, mentioning many of these same issues.

           At the time of the inspection, PAS had begun to put its grants folders in order
       and was attempting to determine the status of each grant. PAS staff were again
       entering grants into the database. This turnaround was largely due to the addition
       of a new LE staff member who had taught himself to do grants. The OIG team
       counseled him on grants procedures, such as the requirement to check the excluded
       parties list and obtain identiﬁcation numbers from grantees, and showed him the Of­
       ﬁce of the Procurement Executive’s grants Web site, including the grants toolkit, list
       of sample documents, and grants directives.

           Many grant periods extend past the grant ofﬁcer’s tour of duty, and the funded
       projects are not completed until after the ofﬁcer has left post. This heightens the
       importance of well-trained LE staff and makes the establishment of a system of
       oversight and an orderly way to convey grant responsibility from one ofﬁcer to an­
       other even more vital. With a dramatic increase in PD funding on the way, PAS is not
       staffed to handle a large increase in grants; PAS has recognized this and identiﬁed an
       LE program manager assistant for grants to be funded by the FY 2009 supplemental.



          Recommendation 33: Embassy Kabul should establish a stronger oversight
          system for issuing and monitoring grants to ensure that projects are completed
          according to the proposal, funds have been expended properly, and grants ﬁles
          include all the required documents. (Action: Embassy Kabul)




          Recommendation 34: Embassy Kabul should request grants training for the
          locally employed staff handling grants. (Action: Embassy Kabul)




50 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Program Issues

    At the time of the OIG inspection, the PRTs and the military regional com­
mands had three U.S. direct-hire employees devoted to PD, and new positions were
scheduled to be added as part of the civilian uplift. In addition, other PRT ofﬁcers
were also engaging in a variety of PD activities, including responding to journalists,
conducting programs at Lincoln Centers, and nominating participants for exchange
programs. PAS has one ofﬁcer whose primary duty is to serve as the PD coordinator
for the PRTs and the PAS chief point of contact for ofﬁcers in the ﬁeld. This person
regularly briefed ofﬁcers on their way out to the PRTs, provided them with pack­
ets of information about various PD programs, answered questions, and provided
advice. However, the amount of contact the PAS coordinator has with PD staff in
the ﬁeld varies widely. Some PRT ofﬁcers expressed frustration that the IPA ofﬁce in
Kabul discouraged PRT ofﬁcers from directly communicating with the PAS coordi­
nator.

     PRT ofﬁcers said they wished they had more PD training and guidance because
they were having difﬁculty conceiving, initiating, and carrying out projects. One who
had been sent to a PRT to do PD work received press training but no training on
educational or exchange programs; another had received no PD training at all. Un­
like ofﬁcers in embassy public affairs sections who can consult daily with fellow PD
ofﬁcers and experienced LE staff, these PRT ofﬁcers are on their own. The problem
will be especially acute for 3161 employees, most of whom will have had no experi­
ence at an embassy, let alone in PAS. The need for training will become even more
pressing when each PRT becomes eligible for $50,000 to administer PD activities.
While FSI has the training capabilities to address this need, the current limits set by
S/SRAP on U.S.-based-training time preclude additional training.



   Recommendation 35: The Ofﬁce of the Special Representative for Afghani­
   stan and Pakistan, in coordination with the Bureau of South and Central Asian
   Affairs, the Bureau of Human Resources, and the Foreign Service Institute,
   should authorize all U.S. direct-hire personnel who are designated to do public
   diplomacy at the provincial reconstruction teams to have targeted diplomacy
   training, including grants training, and provide other provincial reconstruction
   teams ofﬁcers with some basic public diplomacy (especially media) training. (Ac­
   tion: S/SRAP, in coordination with SCA, DGHR, and FSI)




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   51 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           The OIG team informally recommended that the Embassy continue PAS brief­
       ings for all PRT ofﬁcers heading out to their assignments and expand those for staff
       who will be focusing on public diplomacy.

           As the worsening security in Afghanistan and increasing work demands within
       the Embassy have made it more difﬁcult for PD ofﬁcers to get out and travel, the
       Lincoln Centers have assumed an increasingly important role in reaching out to
       ordinary Afghans. Through the end of November 2009, the centers had welcomed
       148,000 visitors, up from 71,000 in all of 2008. The network of Lincoln Centers has
       grown to eight, and negotiations are under way for a ninth. The centers host com­
       munity meetings, offer English and computer classes, show ﬁlms, present speakers,
       welcome school groups, and sponsor a variety of information programs on issues
       such as democracy, human rights, diversity, the role of a free press, and Islam in
       America. In some places, the Lincoln Center is the only public library or free source
       of Internet access. They also provide a good location for PRT ofﬁcers to engage
       with local Afghans. In one city, a PRT ofﬁcer teaches an English class at the local
       Lincoln Center.

            The special circumstances in Afghanistan make the Lincoln Centers more expen­
       sive, both in money and staff time, than American Corners in other countries. They
       do not follow the standard model of shared costs between the embassy and a local
       host institution. Although local ofﬁcials are involved in the decision about where to
       place the centers, the U.S. Government pays all costs to set up and equip the cen­
       ters. Through a grant to a nongovernmental organization, the U.S. Government also
       pays for the annual operating costs--about $25,000 to $30,000 a year. The logistics
       for getting books and equipment out to the centers are daunting. The three-person
       staff of the Embassy’s information resource center orders the books and equipment.
       When the shipment arrives, they transfer it to vehicles, accompany it to the airport,
       and load it on a USAID plane. At the other end, PRT ofﬁcers handle the arrival
       and monitor the delivery. The information resource center staff estimate that they
       spend about 80 percent of their time on the Lincoln Center program. This complete
       dependence on U.S. funding raises questions about future sustainability, but for now,
       the consensus in the Department and at Embassy Kabul is that the centers are worth
       the cost, and the OIG team concurs.

            The spending plan for the $22.1 million PD funds from the FY 2009 supplemen­
       tal includes nine more Lincoln Centers. The information resource center would need
       additional staff to handle this increase. The growing network would also beneﬁt
       from supervision and guidance by an information resource ofﬁcer with library or in­
       formation resource experience – an addition that would free up an assistant cultural
       affairs ofﬁcer to work on other programs.


52 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    PAS held a training and networking conference for all of the Lincoln Center
directors in November, which gave them an opportunity to meet each other and ex­
change ideas. Unfortunately, they have been blocked from participating in an interna­
tional visitor program for American Corner directors because their salaries are paid
by the U.S. Government, albeit through a grant to a nongovernmental organization.

     Due primarily to lack of time and the drumbeat of requests and taskings from
the Department and Embassy leadership, PAS ofﬁcers were not doing basic contact
work, meeting key Afghans in important local educational and cultural institutions
and media organizations, and developing relationships that lead to better understand­
ing and more effective programming. Inability to speak the language was also a fac­
tor, especially for the press ofﬁce. None of the American press ofﬁcers were ﬂuent
in a local language, and this hampered interaction with Afghan journalists. Despite
an informal recommendation in the 2005 OIG inspection report, PAS still lacked a
contact database in 2009. Fortunately, an LE staff member has kept program alumni
records on a Microsoft Outlook database, and these records appeared up-to-date and
reasonably well-catalogued. In other areas, however, continuity was hampered by a
poor ﬁling system. The OIG team made a formal recommendation in the informa­
tion management (IM) section of this report to address the lack of a contact data­
base system and also made informal recommendations on the ﬁling issues.

     PAS has done a good job involving PRT ofﬁcers in nominating participants from
the provinces for exchange programs, particularly the International Visitor Leader­
ship Program (IVLP). However, this geographic diversity was not matched by func­
tional diversity. PAS did not involve the entire mission in its 2009 call for nomina­
tions; the memo requesting nominations was addressed only to Department sections.
Among these, just three sections sent in nominations. The IVLP selection commit­
tee, which is supposed to be mission-wide, had representatives from only these three
sections, plus the PAS program staff. The early departure of the ofﬁcer handling the
IVLP program led to a rough transition to the new staff because the nomination
ﬁles did not include contact information for the selectees or program descriptions
for the Embassy Kabul-originated single-country projects for which the individuals
were being nominated.

    Beyond these logistical problems lies the question of whether the IVLP could be
a more effective tool for Embassy Kabul. The mission has only 40 IVLP slots, far
fewer than Iraq or Pakistan. In addition, an OIG examination of documents for the
past three years showed a large number of English speakers among the nominees for
the IVLP, one of the few U.S. Government exchange programs capable of handling
non-English speakers.




       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   53 .


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Recommendation 36: Embassy Kabul should reach out to the entire mission
          for nominations, project proposals, and selection committee participation for
          the International Visitor Leadership Program and should place more emphasis
          on seeking out non-English speakers. (Action: Embassy Kabul)


           Although the number of Internet users in Afghanistan is small, they represent
       a young and inﬂuential section of the population. The Embassy has a Web site in
       English and Dari and at the time of the inspection was working on establishing a site
       in Pashto, the language of the areas of southern and eastern Afghanistan where the
       insurgency is strongest. However, PAS has only a single translator, and he specializes
       in Dari. This lack of translation capacity has slowed the development of the Pa­
       shto Web site and limited PAS’s ability to produce publications in local languages. A
       Pashto translator is listed as a vacancy on PAS’s projected stafﬁng list but has not yet
       been hired.



          Recommendation 37: Embassy Kabul should hire a Pashto translator for
          the public affairs section, and backup the translator’s work by investigating the
          availability of private translation companies and consulting with Embassy Is­
          lamabad on cooperation in producing Pashto language materials. (Action: Em­
          bassy Kabul)


           The Embassy Web site would also beneﬁt from more frequent updates and the
       inclusion of more “good news” stories of successful assistance projects and eco­
       nomic progress. USAID’s public affairs staff produces a lot of material for their own
       Web site that could be given broader play by highlighting it on the embassy Web site.
       The OIG team made an informal recommendation on this issue. PAS also maintains
       Facebook, Twitter, and Flickr sites, but they mirror the embassy Web site and PAS
       staff said that they currently lacked the time to focus more attention on the social
       media sites.

       Administrative Issues

           PAS has one LE staff member who does all of the mission’s audio-visual work
       and unclassiﬁed digital video conferences, including for events that have no PD
       element. Embassy Kabul often has digital video conferences or other events requir­
       ing audio-visual assistance simultaneously on different parts of the compound. The
       audio-visual technician sets the different events up and then shuttles back and forth


54 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




to oversee any problems, but he is not necessarily onsite when there is a problem.
Since PD funds its programs and its salaries separately, and many of these events
have no PD element, the Embassy cannot simply request an increase in PAS audio­
visual staff to provide sufﬁcient technical capacity for non-PD activities like regular
digital video conferences with the Department on policy planning. In effect, the PAS
audio-visual technician is providing services for several embassy elements that would
normally contribute to ICASS for shared audio-visual services. Transferring respon­
sibility for non-PD audio-visual services to the management or IM sections could
have ICASS implications, but PAS cannot continue to underwrite the Embassy’s
entire audio-visual needs.

   Recommendation 38: Embassy Kabul should develop the capacity in the
   general services ofﬁce to handle non-public diplomacy audio-visual work, as
   well as an arrangement in the information management ofﬁce for handling
   non-public diplomacy digital video conferences. (Action: Embassy Kabul)


    PAS employs an EFM who was hired originally as an administrative assistant but
now serves as the embassy photographer. As such, the EFM works primarily at the
direction of the Ambassador and photographs the Ambassador’s public activities
and trips around the country as well as VIP visits, important meetings, and embassy
events. This involves extensive overtime work. The photographer personally owns all
the camera equipment used for embassy work, the computer and software for edit­
ing the photos, and the hard drives on which the 120,000 photographs taken for the
Embassy are stored. This equipment will depart post with the EFM.

   Recommendation 39: Embassy Kabul, in coordination with the Ofﬁce of the
   Legal Adviser, should clarify the role of the embassy photographer, including
   issues of supervision, payment and approval of overtime, and ownership of
   the photo archive. (Action: Embassy Kabul, in coordination with L)




INTERAGENCY PROVINCIAL AFFAIRS AND THE PROVINCIAL
RECONSTRUCTION TEAMS
     The Obama administration’s revised policy on Afghanistan includes a new focus
on governance and stability at the provincial and district levels. The IPA ofﬁce was
created in 2009 to provide strategy and policy guidance on subnational governance,
stabilization issues, Afghan capacity-building programs, and civ-mil integration. For
these issues, IPA facilitates exchanges on subnational issues among ofﬁces in the


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   55 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Embassy, senior U.S. military commanders, Afghan ofﬁcials, and nongovernmen­
       tal organizations. This new responsibility is in addition to its previous and ongo­
       ing responsibility for logistical and management support of embassy civilian staff
       deployed at PRTs across Afghanistan.

            To accomplish these goals, IPA created a structure outside of Kabul parallel to
       the military. The Embassy recently designated four SCRs, co-equal to their military
       command counterparts. While the creation of the SCR structure formed a quick
       alliance with the military commands, the SCRs have begun to eclipse the policy and
       operational leadership of the subject matter experts in the Embassy on some issues.

          PRTs are an invaluable source of information that feed into traditional embassy
       reporting. Department readers have noted that some of the best reporting comes
       from ofﬁcers serving at PRTs. For example, PRT reporting on the voter registration
       process and the recent Afghan national elections was particularly noteworthy.

           Although IPA has an important coordination role, there are several sections and
       agencies that need to communicate directly with PRT representatives doing work in
       areas such as political reporting, economic analysis, and public diplomacy. IPA has
       established a system to coordinate communications to and from the ﬁeld to screen
       out unnecessary and excessive taskings. IPA instructions to the ﬁeld dated September
       27, 2009 require that ofﬁcers at PRTs “… submit cables to IPA through [the] ‘chain
       of command,’ e.g. through the Senior Civilian Representative to IPA… In order to
       avoid excessive or uncoordinated taskings, you should accept requests for informa­
       tion or action only from or through the Embassy front ofﬁce, IPA, or [the] chain of
       command (e.g. supervisor, SCR).” Although the intent of IPA’s policy is to avoid
       unnecessary and excessive taskings, in practice it has included many other kinds of
       communication with the PRTs, causing delays in reporting and information sharing
       and impeding the ﬂow of timely guidance and insights to the ﬁeld from policy and
       program-sponsoring sections. (See development assistance and public affairs sections
       of this report for examples of communication requiring direct access to the PRTs.)
       All of these entities need access to the PRT ofﬁcers. Some of these programs require
       direct monitoring from the respective embassy counterpart ofﬁce.

          Recommendation 40: Embassy Kabul should review, clarify, and where nec­
          essary streamline the policy on when and how the interagency provincial af­
          fairs ofﬁce and other sections and agencies transmit and coordinate policy and
          program guidance between the Embassy and the ﬁeld to enable more direct
          communication while maintaining limitations on mandatory taskings. (Action:
          Embassy Kabul)




56 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




CONSULAR AFFAIRS
     In less than one year, the Kabul consular section has evolved from a small opera­
tion with a modest American Citizen Services (ACS) workload and authorization
to process only diplomatic and ofﬁcial visas to a bustling consular operation with a
steady demand for passport services, increased involvement in conﬂict-related death
cases, and a nonimmigrant visa (NIV) workload that requires considerable supple­
mentary processing. Consular management recruited a diverse LE staff cadre in the
past year, and those staff are now trained and poised to take on more responsibility.
The Kabul consular section has both the staff and space to process its own immi­
grant visas (IV) and the full range of NIVs. Given the difﬁculties and dangers of
travel to Islamabad where IVs and temporary work visas are currently processed, the
likelihood of fraud in all visa categories, and the anticipated arrival of an assistant
regional security ofﬁcer-investigations (ARSO-I) by summer 2010, it is time for Em­
bassy Kabul to become a full-service consular section.

Consular Management

     Kabul’s consular workload may not be high, but the nexus of high fraud in a
visa population that could easily include potential terrorists, demands for consular
services by thousands of American citizens living and working in a conﬂict zone,
relatively inexperienced American and LE consular staff, and U.S. direct-hire person­
nel on one-year tours of duty requires a strong and detail-oriented consular manager.
The recently arrived consular section chief has corrected several internal controls
deﬁciencies. He conducted overdue inventories of controlled items, limited access
to consular systems, and brought the process for reviewing visa issuances and refus­
als into conformity with regulations. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
He is also reviewing ﬁle holdings, the awards program, and training needs. With the
expected arrival of a second mid-level ofﬁcer to oversee ACS issues, the consular
section chief will be able to put more emphasis on the development of a meaning­
ful warden system, the systematization of fraud prevention, and the streamlining of
work ﬂow.

    Although Kabul’s consular section had three full-time consular ofﬁcers at the
time of the inspection, the Kabul compensation package that provides for generous
R&R breaks means that there are only a few weeks during the year that all of those
ofﬁcers are in the ofﬁce together, effectively reducing the ofﬁcer complement to
two at any given time. Prior to the assignment of full-time staff assistants to Em­
bassy Kabul, Embassy leadership routinely detailed entry-level consular ofﬁcers to


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   57 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       the executive ofﬁce to serve as staff aides for weeks at a time. At the same time, the
       Bureau of Consular Affairs (CA) was sending TDY help from other consular sec­
       tions in the region to process nonimmigrant visas in Kabul. With the addition of the
       second mid-level ofﬁcer in 2010 and generous executive ofﬁce stafﬁng, CA-funded
       TDY assistance should no longer be required. Consular ofﬁcers will serve as control
       ofﬁcers and event support staff as part of a roster of embassy personnel, but they
       will be able to devote the majority of their tours to the professionalization of the
       consular function.

           Consular space is adequate for current and future needs including the addition
       of the new ACS ofﬁcer and an ARSO-I, but the section needs some reconﬁguration
       to afford privacy for the ARSO-I operation. The introduction of IV processing (see
       below) will take up any extra space that the section now enjoys. There is considerable
       confusion over the eventual location of the consular section. CA and the architect
       for the Bureau of Overseas Buildings Operations (OBO) believe that the consular
       section will move into one of two annexes being planned for construction in the
       next few years. Embassy Kabul’s OBO representative and the assistant COM respon­
       sible for management issues believe that the consular section will remain in its cur­
       rent location. Because Embassy Kabul is likely to add IVs and additional personnel
       in the next year, it is vital that any potential move and the relevant space designs be
       coordinated with consular management early in the process. Space in any new build­
       ing cannot be premised on existing workload and numbers but rather must include
       space for the additional services coming on line in the next 12 months.



          Recommendation 41: Embassy Kabul should request immediate clariﬁcation
          from the Bureau of Overseas Buildings Operations and the Bureau of Con­
          sular Affairs of plans to relocate the consular section and review any new space
          conﬁguration to be sure that new premises can accommodate the additional
          staff expected in FY 2010 and the return of the immigrant visa function. (Ac­
          tion: Embassy Kabul)


           The one-year tours of duty have played havoc with the development of SOPs
       and training plans on which successful consular sections rely. Two of the LE staff
       never had work requirements statements. Consular management is rectifying that
       situation, is developing SOPs and a new-ofﬁcer training protocol, has initiated cross
       training days, and is seeking training opportunities in the region and at the Foreign
       Service Institute for the relatively junior LE staff. The efforts of the consular section
       chief and the two ELOs to systematize operations in Kabul have already been
       successful.

58 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Visas

    An intersection of two events—the special immigrant visa (SIV) program for
Afghanistan and the creation of an ARSO-I position at Embassy Kabul—will
change the face of the Kabul consular section within the next few months. Through
the Afghan Allies Protection Act of 2009, the U.S. Congress authorized 1,500 SIVs
annually from FYs 2009-13 for Afghan employees and contractors who have been
employed by or on behalf of the U.S. Government in Afghanistan on or after Octo­
ber 7, 2001, for a period of not less than one year, and who have experienced or are
experiencing an ongoing serious threat as a consequence of that employment.

    Embassy Kabul, in coordination with the National Visa Center, is developing
an application process now, and it is expected that applicants will begin applying for
SIV status by January 2010. Embassy Kabul does not currently process IVs; most
Afghan residents travel to Islamabad to process their IVs. The security situation in
Islamabad is poor, however, and the trip to Pakistan can be dangerous. Given the
consular section’s increased capacity, the anticipated volume of SIVs, and the recent
establishment of internationally sponsored hospital facilities in Kabul, it makes sense
to process SIVs in Afghanistan and, once the consular staff is comfortable with that
process, to reintroduce all IV processing to Embassy Kabul.



   Recommendation 42: Embassy Kabul, in coordination with the Bureau of
   Consular Affairs, should identify one or more panel physicians and a laboratory
   facility in Kabul that is capable of providing reliable physical examinations and
   x-rays, referring to Centers for Disease Control guidelines for selecting a panel
   position. (Action: Embassy Kabul, in coordination with CA)




   Recommendation 43: Embassy Kabul, in coordination with the Bureau of
   Consular Affairs, Embassy Islamabad, and Embassy New Delhi, should send one
   of its consular ofﬁcers and one locally employed staff to observe immigrant visa
   processing at a consular section in the region prior to initiating visa processing
   in Kabul and designate a locally employed supervisor from the region to oversee
   initial processing in Kabul. (Action: Embassy Kabul, in coordination with CA,
   Embassy Islamabad, and Embassy New Delhi)




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   59 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           With the arrival of the ARSO-I, the consular section will have increased fraud
       prevention and detection resources. Given concerns at other consular sections in
       the region about the difﬁculties of investigating relationship and adoption fraud in
       Afghan IV cases, the ARSO-I will play a key role in tracking patterns among U.S.
       petitioners and investigating suspect adoption facilitators. Embassy Kabul does not
       process petition-based temporary work visas. Afghan citizens applying in those visa
       categories do so at neighboring embassies, notably Islamabad. The volume of ap­
       plications in those categories appears to be manageable. The ARSO-I will have the
       tools to investigate U.S. employers for petition-based IVs and NIVs, and the Kabul
       consular staff has the expertise and capacity to conﬁrm local educational and work
       credentials better than their colleagues elsewhere in the region. Embassy Kabul has
       access to more information on local conditions to assist the Department of Home­
       land Security in developing a more informed petition approval process.



          Recommendation 44: The Bureau of Consular Affairs should transfer all im­
          migrant visa processing for persons resident in Afghanistan to Embassy Kabul
          as soon as the initial surge of special immigrant visa applications has moved
          through the pipeline. (Action: CA)




          Recommendation 45: The Bureau of Consular Affairs should advise the De­
          partment of Homeland Security to transfer approved petitions for temporary
          work visas for Afghan residents to Embassy Kabul. (Action: CA)


           During its preparation for the Embassy Kabul inspection, the OIG team learned
       that there had been very few visa referrals during the previous year. Upon arrival,
       it quickly became obvious that USAID, the military commands, and PAS sent large
       volumes of passports to the consular section under covering letters that essentially
       served as a parallel referral system, outside the mandated CA process. The consular
       section chief has already taken steps to implement CA referral guidelines across the
       board, but the informal referrals for military training from the various commands
       pose a thorny problem. There is no Defense attaché ofﬁce in Kabul, and the military
       commands do not fall under chief of mission authority therefore they cannot be
       referring ofﬁcers.




60 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    Consular management has worked with the military commands to tighten the
vetting process for Afghan trainees following allegations that some Afghan com­
manders were ceding places on military training trips to civilian illegal immigrants;
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)


   Recommendation 46: Embassy Kabul, in coordination with the Bureau
   of Consular Affairs, should develop a referral program to address the large
   number of Afghan trainees that the U.S. military commands propose for U.S.
   programs who fall outside the standard referral guidelines. (Action: Embassy
   Kabul, in coordination with CA)



American Citizen Services

    Embassy Kabul’s ACS workload consists primarily of passport applications,
renewals, extra passport pages, and notarial services for Americans in Afghanistan
related to the conﬂict or the reconstruction and stabilization effort. Regrettably, most
of the death cases that the consular section handles involve civilian contractors in
Afghanistan in support of those same undertakings. As long as military personnel
deploy without passports and contract personnel travel in and out frequently, the
passport workload will remain signiﬁcant. Fortunately the larger military facilities
have acceptance agents to take passport applications for service members, but the
data entry of stacks of passport applications arriving from the military bases, the
quality control and return of the printed passports, and liaison with the Special Issu­
ance Agency where the passports are processed are all time consuming.

    Consular ofﬁcers man an emergency telephone 24 hours a day. There is no con­
sular portion of a duty ofﬁcer book because the consular section handles all of its
own duty calls. Embassy Kabul will not always be in emergency mode so it is impor­
tant to codify instructions on after-hour consular emergencies both for new consular
ofﬁcers and for other embassy personnel. The OIG team made an informal recom­
mendation on the development of a consular duty manual.

    The Embassy plans to open two consulates during the coming year in Herat near
the Iranian border and in Mazar-e-Sharif near the northern border. During the in­
spection, the consular section called on an American ofﬁcer at the PRT in Mazar to

        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   61 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       assist with an American citizen arrested for murder during the critical ﬁrst hours of
       his detention. Once the consulates are open, although it is not anticipated that they
       would provide routine consular services, the staff will be available to assist the Kabul
       consular section in consular emergencies and serve as acceptance agents for pass­
       port applications from contractors, nongovernmental organization staff, and other
       Americans in those areas. Kabul’s ACS ofﬁcer would provide guidance, training, and
       oversight of any consular services provided at the consulates.

          Recommendation 47: Embassy Kabul should require Foreign Service ofﬁcers
          assigned to the two new consulates to take the portions of consular training
          that deal with American citizen services regulations and processes before as­
          signment. (Action: Embassy Kabul)




          Recommendation 48: Embassy Kabul should rewrite the consular section’s
          travel plans to include quarterly oversight and training trips to the consulates in
          Herat and Mazar-e-Sharif. (Action: Embassy Kabul)




       Fraud Prevention

           Although it is widely acknowledged that Afghan documents are unreliable and
       that corruption is rampant in both government and social sectors, this has not af­
       fected NIV processing to date because so many of the applicants are found to be
       intending immigrants and therefore ineligible for NIVs regardless of the veracity
       of their supporting documentation. The high number of travelers absconding from
       government-sponsored training programs, youth exchanges, and ofﬁcial travel, with
       many of those absconders requesting asylum in Canada, suggests that there may be
       organized smuggling rings operating both in Afghanistan and the United States. As
       mentioned earlier, an ARSO-I may be able to identify and deter this type of fraud.

           An experienced ACS LE staff member currently doubles as the antifraud inves­
       tigator; most of the requests for investigation come in from embassies in the region
       in connection with IVs or temporary work visas for Afghan citizens. There is little
       systematization or tracking of the fraud caseload, however, and the OIG team made
       an informal recommendation to codify the investigation process before the arrival of
       the ARSO-I and the onset of IV processing.



62 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED





                                     RESOURCE MANAGEMENT
         Funding and Personnel at Embassy Kabul4

      Agency                U.S. Direct- U.S.            Foreign          3161     PSC      LT- Total          FY 2009
                            Hire Staff Local-            National                          TDY5 Staff           Actual
                                         Hire             Staff                                               Expenditure
                                         Staff
      State – D&CP6              162              9          28            30        0        0       229       $28,074,530

      State – ICASS                  22          10         302             0        0        0       334       $27,718,472
      State – DS                     27           1          39             0        0        0       67         $4,781,375
      State – MSG                    10           0           0             0        0        0       10            $32,250
      State – INL                    26           3          13             0        33       0       75       $119,500,0007
      State – MERO                   0            0           0             0        0        0        0          $118,7108
      State -- PAS                   10           3          19             0        0        0       32         $1,486,400
      State – SIGAR              10      9
                                                  0           0             0        0        0       10           $398,127

      USAID                      102              5         147             0        42       0       296      $99,766,00010
      USDA                       1311             0           0             0        0        0       13            $39,431
      DOD                            0            0           1             0        0        0        1           $25,37712
      Commerce                       0            0           0             0        0        0        0               NA13
      DHS                            0            0           0             0        0        0        0                NA

      DOJ –Civil14                   16           0           3             0        0        0       19         $1,000,000
      DOJ –DEA                       61           0          11             0        0        4       76                NA
    (table continued on next page)

4
  Numbers indicate personnel in-country as of 09/29/2009, not positions.
5
   LT-TDY means long-term TDY, over 6 months.

6
  State-D&CP actual expenditures include supplemental funds.

7
  State-INL – Program and operational (PD&S $3.3M) funds.

8
  State-MERO – Start up costs in preparation for arrival of personnel.

9
  State-SIGAR – Personnel numbers vary from week to week.

10
   USAID – Program ($53.8Mand operation ($45.6M) funds; PSC ﬁgure includes 36 PSCs and 6 PSAs.

11
   USDA – Personnel to arrive end of FY 2009, but expenses to be incurred beginning of FY 2010.

12
   DOD – For one DOD FSN only.

13
   NA – Not all funding is known or has been received yet.

14
   DOJ-Civil – Funded from FY 2005-09 – FSN and operational expenses only, USDH costs funded domestically.





                         OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010            63 .


                                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                Funding and Personnel table continued from previous page


       Agency                U.S. Direct- U.S.            Foreign          3161     PSC      LT- Total       FY 2009
                             Hire Staff Local-            National                          TDY5 Staff        Actual
                                          Hire             Staff                                            Expenditure
                                          Staff
       DOJ –LEGATT                 71            0             2             0        0        0     73              NA
       ATF                         0             0             0             0        0        0      0              NA
       U.S. Marshals               4             0             2             0        0        0      6          $30,000
       Service
       D/Treasury                  2             0             0             0        0        0      2              NA
       D/Transportation            2             0             0             0        0        0      2              NA
       (FAA)
       HHS/CDC                     0             0             0             0        0        0      0              NA
       AFGHANISTAN                538           31           567            30        75       4     1245    $282,970,672
       TOTAL
          Notes: Personnel numbers from S/SRAP Civilian Stafﬁng Afghanistan Matrix 

          The Departments of Commerce and Homeland Security did not have personnel at the embassy in FY 2009.





64 .            OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




MANAGEMENT OVERVIEW
    The management section is remarkably adaptable and responsive in an atmo­
sphere of massive personnel surges, constant reinvention, and multiple construction
and infrastructure projects. To the outside observer, it is nearly miraculous that the
management section can shoehorn so many permanent and TDY staff into an inad­
equate facility and support an unparalleled number of high-level visitors. The OIG
team noted several areas, however, where the section has not paid enough attention
to the regulations and management controls.

    Embassy Kabul’s management section is led by a management counselor who is
assisted by two deputies. Most of the subunits are headed by experienced ofﬁcers.
Some veteran LE management staff began working for the embassy prior to its 1989
closure and now anchor the management operation in the newly emerging mega
embassy.

     Accommodating the rapid plus up of U.S. direct-hire and TDY personnel is the
greatest challenge facing the management section. Management staff told the OIG
team in 2009 the Embassy had occasionally ﬁlled all but ﬁve to ten of its 584 total
beds. Kabul regularly hosts large delegations of legislative and executive branch
personnel, often on very short notice. Permanent ofﬁce buildings are already ﬁlled to
capacity. Basic systems are at or near capacity. Management, with the strong support
of the Department, including SCA and OBO, copes on a day-to-day basis. There
is some concern that the additional civilian personnel now arriving in Kabul will
outstrip the ability of the Embassy’s infrastructure to meet the demands placed upon
it in the short term. While the management section has a carefully orchestrated plan
for construction of both permanent and temporary ofﬁce and housing units for the
civilian uplift, a slight delay in any one phase could result in a serious shortfall in life
support.

     All of the OIG management inspectors individually observed a pervasive lack of
documentation to support actions taken or decisions made in the management area.
Inspectors noted the difﬁculty this created when trying to reconstruct the actions
that led to certain conditions and drew management personnel’s attention to this is­
sue.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010     65 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       International Cooperative Administrative Support
       Services

            The International Cooperative Administrative Support Services (ICASS) coun­
       cil at Embassy Kabul holds regular meetings; one was held during the OIG team
       visit. The OIG team reviewed ICASS operations and they appeared to be working
       well. ICASS invoices are distributed and paid in Washington. Costs are captured and
       allocated according to standard ICASS procedures, although there are some excep­
       tions. The practice of loaning ICASS vehicles to other agencies, for example, adds
       to subscribers’ invoice costs. (The section on motor vehicles provides more infor­
       mation.) Also, ICASS TDY costs are not captured and reimbursed by the agencies
       providing the TDY staff (see the ﬁnancial management section.) Given the large
       number of TDY visitors in Afghanistan, the failure to recover these TDY costs
       through ICASS could have repercussions for the Embassy, particularly if supplemen­
       tal funds are reduced or eliminated in the future, which would put a greater burden
       on the Embassy’s ICASS budget.

       Contract and Grants Management

           Embassy Kabul has many weaknesses in the oversight of its contract and grants
       management program. PAS, INL, and management sections of the report discuss
       speciﬁc cases. Oversight of contracts and grants that relate to activities being car­
       ried out in Kabul appears to be better than in remote locations simply because the
       security situation does not permit regular monitoring and evaluation trips to many
       areas of the country. Other OIG entities are currently or have recently reviewed the
       performance and oversight of speciﬁc contracts and grants, therefore the OIG team
       did not include a detailed review of this issue.

       Management Consolidation

           Embassy Kabul has made some progress in establishing a joint management
       structure. Kabul is a Tier One post for management consolidation purposes but
       is consolidating on a Tier Two schedule. Motor pool operations are consolidated.
       USAID vehicles are housed in the embassy motor pool area and appear on the com­
       mon inventory. Department of State-USAID property management consolidation
       was ongoing at the time of the inspection. The USAID property inventory was un­
       derway; general services ofﬁce (GSO) personnel were participating in the inventory
       and afﬁxing common property tags. Kabul planned to move USAID property into
       the embassy compound warehouse upon creation of an internal mezzanine structure
       to increase usable ﬂoor space.


66 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    Human resources (HR) consolidation had not progressed as far as general ser­
vices. The Embassy and USAID maintain separate HR sections. USAID representa­
tives told the OIG team that the operations would not be consolidated but rather
colocated, although Embassy management plans to consolidate certain HR functions
including training, recruitment of LE staff, performance evaluation management,
and computer assisted job evaluation. Although post management is making ar­
rangements to move the USAID HR staff into the Embassy’s HR ofﬁce, there is no
documentation showing when or how the move is going to take place. HR personnel
in both agencies were uninformed as to how the changes will affect their duties.

     IPA has its own management section to handle logistics and support operations
at the PRTs. Given the Embassy’s efforts to consolidate as many administrative func­
tions as possible across agency lines, it is surprising that IPA retains its own manage­
ment section. The OIG team made an informal recommendation that the embassy
examine the efﬁciencies that could be gained by consolidating IPA management
support into the management section.

General Services

    An assignment in Kabul’s general services unit is certainly one of the most difﬁ­
cult management challenges anywhere in the Foreign Service. In addition to support­
ing the rapidly growing permanent staff, the unit carries out a wide array of other
tasks in support of Kabul’s large number of TDY employees and high-level visitors.
The GSO in Kabul is headed by an experienced management ofﬁcer, who is assisted
by a deputy. In addition, there are four assistant general services ofﬁcers and two
EFM assistants in the GSO. Six ofﬁcers would be an unusually high number, even
for a post of Kabul’s size and complexity, but one or more ofﬁcers is absent from
the unit on R&R travel at any given time.

     The GSO handles housing assignments via input to the interagency housing
board (IAHB), travel, shipping and customs, procurement, motor vehicles, expend­
able and nonexpendable supplies, and property management. Facilities management
is a separate unit within the management section.

Motor Vehicles

     Because of the security situation, Embassy Kabul uses armored vehicles to
transport its personnel. Armored vehicles require signiﬁcantly more maintenance due
to their added weight and the resultant strain on suspension and drive train compo­
nents. Poor road conditions in Afghanistan compound maintenance challenges.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   67 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           The GSO uses a contractor to manage its vehicle maintenance program and has
       a fully equipped maintenance facility on the embassy compound. The contractor’s
       technicians do a good job on the maintenance of the motor pool vehicles, using an
       automated program that ﬂags vehicles requiring service including oil, ﬁlter, and ﬂuid
       changes and regular inspections for other maintenance issues such as brake pads,
       shocks, and body damage.

           The OIG team learned that some motor pool vehicles are loaned to individual
       agencies that have self-drive authorization. The motor pool staff sees the loaned
       vehicles only when they are brought in to the maintenance facility, normally because
       of a serious problem. The borrowing ofﬁce then is usually in urgent need of that
       repair, but is often unable to leave the vehicle long enough to have other periodic
       maintenance completed. Because the loaned vehicles are outside the daily control
       and oversight of motor pool personnel, the OIG team could not conﬁrm whether
       operator-performed maintenance tasks (Tier One maintenance) are being done by
       the borrowing agency, as required. There is additional discussion of the ICASS im­
       plications of this loaned vehicle program later in this section.

           The GSO conducted a motor vehicle inventory during the inspection. The
       number of vehicles counted during the inventory and checked against GSO Kabul’s
       spreadsheet, totaled 144 vehicles of all types. The Department‘s Inventory of On
       Hand Vehicles Report shows the total number of vehicles on hand at 239, with a
       value of over $24 million. The average acquisition cost per motor vehicle in Kabul is
       roughly $100,000, giving an approximate value of $9.5 million for the discrepancy of
       95 vehicles between the two inventories.

            No one in the GSO was able to advise the OIG team if any vehicles were actu­
       ally missing or if the problem was an accounting discrepancy in one of the two
       inventories. The OIG team inquired about the measures that were underway to
       reconcile the two reports. The motor vehicle supervisor reported difﬁculty in making
       changes to the Inventory of On Hand Vehicles Report. The OIG team counseled
       the supervisor and the responsible supervisory ofﬁcer on the importance of recon­
       ciling the two inventories and seeking assistance from the Bureau of Administration
       where necessary to prevent the loss or misuse of government property.

          Recommendation 49: Embassy Kabul should identify the reason it has been
          unsuccessful in making the needed corrections to the Inventory of On Hand
          Vehicles Report and request assistance from the Bureau of Administration to
          accurately adjust its inventory. (Action: Embassy Kabul)




68 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





   Recommendation 50: Embassy Kabul should reconcile the Inventory of On
   Hand Vehicles Report to document the reasons for the 95-vehicle discrepancy.
   (Action: Embassy Kabul)


      In many cases, the GSO does not have documentation for the motor pool vehi­
cles that it has loaned to various agencies. The loaned vehicles are shown on embassy
records as ICASS vehicles that are part of the common motor vehicle pool. In prac­
tice, Embassy Kabul is providing ICASS vehicles for the exclusive use of some agen­
cies without any prospect of the vehicles being returned to the motor pool while
still in operable condition. As mentioned earlier, there is no guarantee that vehicles
are properly maintained when they are removed from GSO control. When vehicle
maintenance is performed on loaned ICASS vehicles, costs are charged to ICASS,
improperly raising all ICASS agencies’ invoices when the other ICASS members do
not have access to those vehicles. In effect, ICASS is subsidizing the operations of
agencies that should be funding the costs of vehicle acquisition and maintenance.



   Recommendation 51: Embassy Kabul should recover loaned International
   Cooperative Administrative Support Services vehicles and return them to the
   embassy motor pool. (Action: Embassy Kabul)




   Recommendation 52: Embassy Kabul should inform agencies that have been
   operating loaned International Cooperative Administrative Support Services
   vehicles that maintenance and fuel costs for the period that those agencies have
   had exclusive use of the vehicles will be charged directly to the agency. (Action:
   Embassy Kabul)


    In one case, the Embassy loaned an armored ICASS vehicle with an acquisi­
tion cost over $100,000 to a host government entity. The vehicle was in an accident
while being driven by a host government employee. The vehicle was returned to the
embassy motor pool in an inoperable condition and is considered a total loss. The
OIG team asked for a copy of the embassy accident report, but none was available.
The loan agreement with the host government ofﬁce required that the vehicle be
returned in the condition received, with a provision that any damages would be paid
by the borrower. At the time of inspection, there was no action underway to collect
from the host government entity.


       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   69 .


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





          Recommendation 53: Embassy Kabul should cease loaning International
          Cooperative Administrative Support Services vehicles to Afghan Government
          agencies. (Action: Embassy Kabul)


            Embassy Kabul authorizes a number of U.S. direct-hire staff to operate self-
       drive vehicles, but the Embassy does not have any kind of document to inform
       self-drive employees or occasional operators of embassy vehicles of liability issues
       connected with the operation of ofﬁcial vehicles for other authorized use. When
       the OIG team informed the Embassy that 14 FAM 430 provides guidance regard­
       ing liability issues and the information to be made available to drivers, the Embassy
       immediately took steps to prepare a mission announcement. The OIG team made an
       informal recommendation on this issue.

       Housing

           The GSO and facilities management collaborate in the assignment and manage­
       ment of Kabul’s housing units. At the time of the inspection, all personnel in Kabul
       were assigned to some form of housing on the embassy compound. Work was un­
       derway on several leased properties outside the compound that will house additional
       staff when maintenance and security upgrades are complete.

           Compound housing units vary widely in quality. There are three OBO-construct­
       ed apartment buildings with a total of 144 single and double occupancy units. Oc­
       cupants of the well-appointed apartments universally reported satisfaction with their
       units, and stated that living in one of the apartments made a signiﬁcant difference in
       their morale and quality of life. An assignment to an apartment is highly prized, and
       is offered as an incentive to employees who volunteer for a two-year tour in Kabul.

           Personnel not accommodated in apartments live in containerized housing units
       (CHU), which are modiﬁed cargo containers. The GSO provides microwave ovens
       and small refrigerators, but preparing a full meal in the CHUs is difﬁcult, if not
       impossible, although there is a dining facility available for three meals a day for all
       employees. The CHUs share laundry facilities in containers adapted for that purpose.
       Housing can affect an employee’s entire attitude to a Kabul tour of duty, and the
       embassy’s attention to fairness and equity in making assignments is under constant
       scrutiny.




70 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     The OIG team looked closely at the housing program and assignment system.
The IAHB met several times between May and September 2009 to address assign­
ment issues for the summer turnover, but there was no IAHB meeting between
September and the conclusion of the inspection in mid-November. Minutes and de­
cisions from the IAHB meetings are published on a SharePoint Web site. At the time
of the inspection, the GSO’s housing ofﬁce was ensuring that all newcomers moved
into permanent housing quickly. A priority list for apartment assignments guided
GSO actions. The IAHB makes assignments to apartments, but the GSO makes the
housing assignments of all other employees who go to CHUs without IAHB discus­
sion.

    There were mixed opinions about whether the housing priorities were clear.
Employees who believed they qualiﬁed for a priority category based on a two-year
assignment reported volunteering for a second year after arrival and being told that
only employees volunteering for two years prior to arrival would be considered for
apartments. Others reported a perception that embassy management exerted undue
inﬂuence on the housing assignment process by requesting apartments for some
staff under the “special circumstances” priority category. The OIG team concluded
that, while the current system functions adequately in getting employees into shelter,
it does not address legitimate concerns about fairness and transparency.

   Recommendation 54: Embassy Kabul should schedule regular meetings of
   the interagency housing board throughout the year to consider assignments to
   apartments as well as housing appeals from employees. (Action: Embassy Ka­
   bul)


    Embassy Kabul is not in compliance with 15 FAM 232 and 15 FAM 261, which
cover the allocation of government-owned housing at overseas posts. The regula­
tions clearly and unequivocally state that priority for government-owned housing is
to be given to direct-hire employees of foreign affairs agencies (State, USAID, the
Foreign Agricultural Service, the U.S. Commercial Service, and the Defense Intel­
ligence Agency). Non-foreign affairs agency personnel are currently occupying a
number of apartments while some foreign affairs agency personnel are housed in
CHUs. A reasonable way to correct this violation of regulations would be to identify
apartments occupied by non-foreign affairs personnel and earmark them for reas­
signment to direct-hire foreign affairs agency personnel upon the departure of the
current occupants.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   71 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Recommendation 55: Embassy Kabul should identify apartments occupied
          by non-foreign affairs agency personnel and propose to the interagency housing
          board the assignment of direct- hire foreign affairs agency personnel upon the
          departure of the incumbents, according to the published priority list for hous­
          ing. (Action: Embassy Kabul)


       Property Management

           The OIG team visited the warehouse and observed receiving, expendable supply,
       and nonexpendable operations. The LE staff is professional and well trained. Non-
       Expendable Property Application bar code property labels are afﬁxed to items at the
       time of receipt. Random checks of expendable and nonexpendable property showed
       stock records to be current and accurate. Staff members reported that the bar code
       system functions satisfactorily, but that the bar code scanner had not worked for
       several months. The U.S. supervisor was informed and took action; the scanner was
       restored to service prior to OIG departure from Kabul.

           Inspectors were advised that the 2008 annual property inventory had signiﬁcant
       discrepancies. As the inspection concluded, the GSO was working on identifying
       property that might have been overlooked when the inventory was taken. The GSO
       also provided an ambitious schedule for the coming year’s inventory.

             Recommendation 56: Embassy Kabul should update and reconcile its
          property inventory in accordance with its projected schedule and document the
          reasons for the discrepancies in the 2008 inventory. (Action: Embassy Kabul)


       Procurement

           The deputy general services ofﬁcer holds a $250,000 contracting warrant. Be­
       cause most embassy contracts are above that warrant level, Embassy Kabul relies on
       outside support from the Regional Procurement Support Ofﬁce in Frankfurt and the
       Bureau of Administration, Ofﬁce of Logistics Management.

           Embassy Kabul has a policy of “Afghan First” for procurements. According to
       the policy, whenever possible, the embassy is to make procurements from Afghan
       sources in order to encourage growth in the Afghan economy. At the same time, the




72 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



policy is nuanced enough to allow for acquisitions from mandatory sources, from
GSA, or from vendors outside Afghanistan if necessary to acquire goods of suf­
ﬁcient quality. Procurement staff was unclear about the details of the procurement
options, however.

   Recommendation 57: Embassy Kabul should provide guidance that details
   the Afghan First policy while clearly stating the necessary exceptions. (Action:
   Embassy Kabul)


     In early 2009, an ofﬁcer, who has since departed Afghanistan, initiated contract­
ing actions that violated acquisition regulations. The ofﬁcer prepared a sole-source
justiﬁcation and issued purchase orders to a government contractor to cope with an
unexpected increase in staff that required the immediate purchase of new housing
units. The OIG team compared the sole-source justiﬁcation in the purchase order
ﬁles with the guidance in the Federal Acquisition Regulations Part 6.302 and did not
ﬁnd the justiﬁcation credible.

    Beginning in February 2009, the contracting ofﬁcer issued purchase orders to a
contractor to acquire and install the needed CHUs. None of the purchase orders to­
taled more than $100,000, although the total project was over $1,257,000. The OIG
team concluded that the acquisition was split into smaller parts to circumvent the
contracting ofﬁcer’s $250,000 limit.

   Recommendation 58: Embassy Kabul should establish internal review pro­
   cedures for large procurements and request contracting assistance when a pro­
   curement exceeds the embassy’s warrant limits. (Action: Embassy Kabul)


    In addition to the irregular mechanism used to purchase these CHUs, many of
the CHUs were unusable due to contamination problems. Although the Embassy
was able to return most of the unusable CHUs for a refund, the time spent on the
CHU problem and the loss of needed housing while the problem was being identi­
ﬁed and resolved probably outweighed the amount of time that the Embassy would
have spent had the CHUs been procured according to regulation.

Facilities Management

    The facilities management unit handles an extraordinary workload. The embassy
compound consists of the former chancery building; a new chancery building; three
apartment houses; Marine security guard quarters; one building housing the medical
unit, community liaison ofﬁce (CLO), dining facility, and a small gym; an electrical


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   73 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       power generating plant; a water treatment facility; a wastewater treatment facility; and
       a warehouse. Overﬂow population is accommodated in CHUs. OBO is clearing a
       nearby property to construct additional temporary dwellings so that current land can
       be used for permanent apartment buildings.

            Embassy Kabul’s facilities infrastructure is supported by an operation and main­
       tenance contract with an American ﬁrm at an annual cost of approximately $7 mil­
       lion. The contractor has local, U.S., and third country national employees. The senior
       facilities manager is the contracting ofﬁcer’s representative (COR) for the contract.
       A provision in that contract calls for the contractor to train LE staff to take over
       operation of the Heating, Ventilating, and Air Conditioning (HVAC) system and
       the water treatment and waste water treatment plants. To date, none of the LE staff
       have been trained, allegedly because of lack of capacity among the LE staff and a
       management decision not to exercise the training program option. No documenta­
       tion is available detailing any efforts to identify, recruit, or train qualiﬁed employees
       or to explain why management declined to make such an effort. In the absence of
       relevant documentation, the OIG team believes that the contractor did not comply
       with an important part of the contract.

          Recommendation 59: The Bureau of South and Central Asian Affairs should
          deduct an appropriate amount from the operations and maintenance contrac­
          tor’s payment due to the failure to train local personnel to take over the con­
          tractor’s duties. (Action: SCA)




       FINANCIAL MANAGEMENT
           As operations at Embassy Kabul expanded over the past year, the workload in
       the ﬁnancial management ofﬁce increased dramatically. Kabul adjusted by hiring
       additional staff and requesting more positions to keep pace with anticipated growth.
       Some of the processes need strengthening. Most of Embassy Kabul’s generous
       budget comes from supplemental funding, but once supplemental funding ends it is
       unclear if the normal budgeting process will be able to sustain the rapidly increasing
       level of embassy operations.




74 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




Temporary Duty Support Costs

     As mentioned in the context, Embassy Kabul supports a high number of TDY
staff in addition to numerous Congressional delegations and other high-level vis­
its. Lengths of stay vary from a few days to several weeks or even up to 12 months.
The Embassy does not have a system to ensure that the ﬁnancial management ofﬁce
receives information on TDY visitors such as date of arrival, administrative sup­
port requirements, or length of stay. Visitor support costs are signiﬁcant given the
large numbers of TDY visitors in Afghanistan, but the Embassy’s country clearance
process does not require agencies to submit information on TDY visitors to the
ﬁnancial management ofﬁce. The previous ﬁnancial management ofﬁcer drafted a
policy covering ICASS TDY support costs, with speciﬁc charges for certain services,
but the Embassy never implemented the policy, and no charges for TDY support
costs are currently tracked or invoiced under ICASS. Furthermore, the Embassy does
not use the Department’s ICASS TDY module to capture administrative costs for
all TDY visitors per 6 FAH-5 H-363.1-3. Because of the volume involved, directly
charging TDY visitors would be appropriate. It is the responsibility of the ﬁnancial
management ofﬁce to explore all the options and implement an appropriate policy.

     Recommendation 60: Embassy Kabul should establish and implement an
     ofﬁcial temporary duty policy that delineates the terms, calculations, and condi­
     tions under which International Cooperative Administrative Support Services
     costs of ofﬁcial visitors are recorded and charged to the sponsoring agency.
     (Action: Embassy Kabul)



Suspense Deposit Abroad Accounts

    Six suspense deposit abroad (SDA) accounts15 totaling $12,600.00 and dating
from 2003 to 2009 remain open. The ﬁnancial management ofﬁce is in the process
of researching these accounts to close them. According to 4 FAH-3 H-322 c 2, SDA
accounts are only used temporarily to hold funds, and should be cleared within 30
business days. Furthermore, balances in SDA accounts are to be reviewed quarterly
to determine if there are unclaimed balances that should be refunded to the deposi­
tor or if the deposit should be turned over to the U.S. Treasury as miscellaneous
receipts.


15
  SDA transactions are ofﬁcial collection amounts for payments on behalf of and as directed by
the depositors. The U.S. Government is responsible to each depositor for ensuring that amounts
received are appropriately disbursed or returned.


         OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010      75 .


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Recommendation 61: Embassy Kabul should review and close all open sus­
          pense deposit abroad accounts. (Action: Embassy Kabul)



       Travel

            As part of the Afghanistan Service Recognition Package, most employees are
       eligible for three R&Rs or two R&Rs and three regional rest breaks (RRB) to provide
       temporary relief from the stresses of living in Afghanistan. Two of the R&R trips
       may be to the United States, and three are for regional rest breaks. In FY 2009, Em­
       bassy Kabul employees made 420 R&R trips at a cost of just over $2 million. Prior
       to August 2009, the Embassy issued restricted business class tickets (no authorization
       required) for R&R travel, using the justiﬁcation that it was cheaper than unrestricted
       economy class. Per 14 FAM 567.2-4 b. (7)(c), business class accommodations are not
       authorized for R&R travel. The travel vouchers reviewed showed that, although there
       is a space for supervisor approval on the travel request form, Embassy Kabul super­
       visors do not normally sign the travel request forms absent justiﬁcation. When the
       travel ofﬁce receives an email with the supervisor’s approval, it is not attached to the
       ﬁle or the voucher. Some of the reviewed vouchers included travel by senior embassy
       ofﬁcers.

           Embassy Kabul issued an administrative notice in August 2009 to advise embassy
       staff that it would adhere strictly to Department guidelines for R&R travel. However,
       a ﬁnal comprehensive travel policy has not been issued. The draft policy clariﬁes the
       use, length, timing, and allowable locations for R&R travel. Publishing the updated
       policy will assist all employees in their planning and use of authorized travel and
       establishing clear guidelines to avoid any misunderstandings.

          Recommendation 62: Embassy Kabul should revise, issue, and implement an
          updated travel policy that includes the requirement for supervisory authoriza­
          tion, justiﬁcation, and documentation. (Action: Embassy Kabul)


           The OIG team reviewed a sample of the Embassy’s travel vouchers and noted
       several other issues in addition to the inappropriate use of business class travel for
       R&R’s prior to August 2009. Travel authorizations typically cite an “authorized and
       actual itinerary” rather than the designated R&R relief point as required by 3 FAM
       3725.3. This creates confusion between the cost of the allowable travel and the cost
       of the actual travel. Cost-constructive travel was not well documented, and there was




76 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




little or no documentation of the authorized fare versus the cost-constructive fare.
Since the R&R points are known in advance, it would be in the Embassy’s interest
to have the regional bureau approve routes in advance. Addressing these issues can
prevent abuse and fraud in the R&R travel.



   Recommendation 63: Embassy Kabul should develop and implement pro­
   cedures requiring all travel authorizations to show the authorized itinerary and
   authorized cost. (Action: Embassy Kabul)




   Recommendation 64: Embassy Kabul, in coordination with the Bureau of
   South and Central Asian Affairs, should identify and approve cost-constructive
   routes for rest and recuperation travel and document all cost-constructive travel
   with the associated costs. (Action: Embassy Kabul, in coordination with SCA)


    Because the Embassy documentation does not show travel costs to the autho­
rized R&R point, it is difﬁcult to determine if an actual itinerary was above or below
the authorized cost. In some cases, R&R travel to the United States included points
abroad but used the U.S. city for cost-constructive travel instead of the R&R relief
point abroad as required in 3 FAM 3725.3-1d. The OIG team reviewed travel vouch­
ers that contained a variety of problems, some of which may require that travelers
reimburse the U.S. Government for unauthorized or inappropriate travel costs. With
the increased use of e-tickets, travelers are no longer including ticket stubs with their
vouchers for reimbursement nor are boarding passes required as substitutes. Some
travelers are submitting itineraries as substitutes, but these do not establish what
actual ﬂights were taken. An assistant general services ofﬁcer supervises the travel
unit, but the travel agency and the traveler set up travel without the general services
ofﬁcer reviewing the travel plan. In some instances, R&R tickets appear to have been
issued in business class even after the change in the policy occurred in August 2009.
During interviews with the travelers as well as with ofﬁcers handling travel, it was
clear that the embassy was not exercising proper oversight and management control
of premium travel.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   77 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Recommendation 65: The Bureau of Resource Management, in coordination
          with the Bureau of Administration, should conduct an audit of all rest and re­
          cuperation travel performed by Embassy Kabul employees in FY 2009 to verify
          that travel was based on the most cost efﬁcient routes, that the proper cost
          constructive basis was used, and that all premium class travel was properly ap­
          proved and justiﬁed. (Action: RM, in coordination with A)


       Internal Travel

           The OIG team found that signiﬁcant numbers of Embassy employees, visitors,
       and nonofﬁcial guests traveled within Afghanistan on U.S. Government civilian air­
       craft during 2009. The OIG team requested records showing which travelers were on
       ofﬁcial business, which were traveling on a space available basis for recreation, and
       which were ofﬁcial visitors. The inspectors learned that some trips could be recon­
       structed from memoranda or manifests, but the Embassy does not have a formal sys­
       tem for issuing travel authorizations for domestic travel, distinguishing travelers on
       ofﬁcial business from recreational travelers or accompanying spouses, or recovering
       costs from visitors traveling on orders. The Embassy does not require travelers who
       are not U.S. Government employees, such as U.S. or foreign journalists accompany­
       ing an ofﬁcial traveler, to hold the government blameless in the event of accident or
       injury.

           Existing regulations do not take into account the unique conditions of travel on
       U.S. Government civilian aircraft in a danger pay country such as Afghanistan, nor
       do they speak speciﬁcally to those issues. Post management does not have a system
       to control travel and account for costs by collectively applying the principles in 14
       FAM 500 to conditions in Afghanistan.



          Recommendation 66: Embassy Kabul should review its current system for
          controlling travel within Afghanistan and establish procedures that require all
          ofﬁcial travel to be approved in advance by the chief of mission or his designee;
          distinguish ofﬁcial from unofﬁcial travel; protect the U.S. Government from li­
          ability for nonofﬁcial travelers; and allocate costs, including collecting the cost of
          trips from temporary duty employees and visitors on ofﬁcial travel when appro­
          priate. (Action: Embassy Kabul)




78 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   The voucher process, overtime, and the employee association are discussed in the
management controls section.



HUMAN RESOURCES
    Considering that until August 2009 there was only one human resources ofﬁcer
(HRO) in Kabul, the HR section has done remarkable work. In addition, the section
recently lost most of its LE staff members for various reasons, leaving a staff of
HR technicians with less than six months’ experience each. Two generalists on their
ﬁrst tours as HROs arrived in August and September 2009 respectively. Although
these new ofﬁcers are capable, they lack the HR background and experience needed
to address complex issues. In the future, the Department and Embassy Kabul would
beneﬁt by seeking bidders who have more Department HR experience.

    Survey information received by the OIG inspection team alleged that the LE
staff have been inﬂuencing LE staff hiring in favor of a certain ethnic group. An
OIG team review of the recruitment and hiring process did not reveal any cases
where qualiﬁed applicants had been excluded from consideration. All applications
that meet the qualiﬁcations are forwarded to the prospective U.S. supervisor. In fact,
the HR LE staff keep all applications, including those that do not meet the hiring
qualiﬁcations, longer than required in case the selecting ofﬁcer chooses to review ad­
ditional applications.

      Although the inspection did not reveal any improprieties, the OIG team noted
that job vacancies are advertised primarily on two commercial Internet Web sites and
the Embassy’s Web site. Since personal Internet access is not widespread in Afghani­
stan, this process could be limiting the pool of potential applicants to current em­
ployees and their relatives and friends. In the interest of providing equal opportunity,
vacancy announcements normally are designed to target a wider audience through
advertisements and outreach to professional organizations. The OIG team made an
informal recommendation that recruitment and selection of LE staff put greater
emphasis on diversity and that outreach efforts are documented.

     The section has established very good procedures for the awards program, the
employee evaluation program, and orientation for new arrivals. However, the OIG
team found that other SOPs are either missing or outdated. This was true not only
in the HR section, but throughout other management sections. The OIG team ad­
dressed the need for SOPs in the HR section through an informal recommendation.
Other informal recommendations address minor operational weaknesses.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   79 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       Eligible Family Member Program

           One of the success stories at Embassy Kabul is a program to allow spouses to
       reside at this otherwise unaccompanied post if they have EFM employment. Em­
       bassy Kabul used to have a dozen EFM positions; now it has now 35 positions. The
       Embassy plans to identify even more EFM positions, and request hiring authoriza­
       tion from the Department. Given the multiple priorities that the HRO faces, the
       Embassy has not been able to provide sufﬁcient oversight to the EFM program. The
       inspectors identiﬁed problems with recruitment, advertizing, and hiring of EFMs.

           The rapid growth of the EFM program has created some problems and EFM
       hiring is occasionally a contentious issue. The OIG inspectors assessed the program
       and found that it has weaknesses and inconsistencies. Although the Department does
       not guarantee that a spouse will be accepted for a particular position, and an employ­
       ee cannot bid or be assigned to a Kabul position on the condition that an accompa­
       nying spouse be guaranteed a job, the reality has been that every spouse who wanted
       to work in Kabul has been given an EFM position to date, as long as he or she
       meets the basic qualiﬁcations for that job. However, many of the EFM ﬁles that the
       OIG team reviewed did not include a résumé showing the EFM’s qualiﬁcations. It is
       important to note that the majority of the EFM positions do not require specialized
       qualiﬁcations; therefore, a letter describing work experience would sufﬁce. However,
       in some cases, even that information was not found in the ﬁles. The inspectors were
       told that some of the required documents were stored in individual email accounts
       or in the shared drive rather than in the personnel ﬁles, but after a review of the HR
       shared drive, the inspectors were unable to ﬁnd the required documentation in the
       electronic ﬁles.

           The OIG team advised post management that information pertaining to EFM
       employment needs to be either in hard copy or in shared electronic ﬁles. Although
       there is no evidence of unqualiﬁed EFMs working in the Embassy, HR’s record
       keeping and documentation are lacking.

            There is also an absence of advertisements for available EFM positions in the
       Embassy. As a result of the previous OIG inspection report of Embassy Kabul
       (ISP- I-04-35), SCA advised OIG that, starting with 2007 assignments, “the bureau
       will advertise available EFM positions so that bidders on embassy jobs will know
       which might be available for an EFM at post.” The lack of advertisements for EFM
       jobs remains a problem. Some positions go unﬁlled without being advertised. Other
       positions are created to match the qualiﬁcation of speciﬁc EFMs. In some cases,
       only after the EFMs arrive in Kabul do they learn about other vacant jobs that may
       have been a better ﬁt for them. The Embassy, rightly so, has selected some positions


80 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



which are critical and need to be ﬁlled ﬁrst. However, that should not prevent post
from providing information on all options in a transparent manner.

    The OIG team found several other anomalies: an occasional lack of EFM per­
sonnel ﬁles, missing EFM work requirements statements, inappropriate procedures
to document the superior qualiﬁcation rate process, and, in one instance, a position
description that had not been updated when the employee was assigned to another
EFM position. Finally, the selection process could be improved. The ﬁles revealed
that the post employment committee was not being used in selecting the candidates
for EFM jobs and that the CLO coordinators were not on the committee. Shortly
after the arrival of the inspectors, the HR section rectiﬁed this situation and imple­
mented standard operating procedures for the post employment committee.



   Recommendation 67: Embassy Kabul, in coordination with the Bureau of
   South and Central Asia Affairs, should establish a streamlined system for ad­
   ministering the eligible family member program and for addressing weaknesses
   including transparency, recruitment and selection of candidates, and documen­
   tation. (Action: Embassy Kabul, in coordination with SCA)



Nepotism Review

     As part of the EFM process, the Embassy conducts a nepotism review for every
EFM position to comply with 3 FAM 8300, which prohibits an employee from exer­
cising supervisory responsibilities over another member of the his or her family. If
necessary, an alternate reporting chain is established to ensure compliance. Although
the Embassy has been requesting the requisite nepotism reviews from the Bureau of
Human Resources, the inspectors found that the information the Embassy provided
to the Bureau of Human Resources has not been comprehensive or detailed enough
for some positions, including those involving EFMs of senior-level ofﬁcers. The
Embassy does not have a standard formal process for developing the information
that is needed to conduct the nepotism reviews. A standard checklist that applies to
all nepotism reviews, especially those for spouses of senior-level ofﬁcers and section
heads, is a useful tool. The nepotism reviews that the inspector examined did not
provide details on what steps embassy management would take in different situations
to avoid conﬂicts of interest (i.e. supervision arrangements, attendance at meetings,
approval of time and attendance.)




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   81 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           Although the OIG team found instances where the Department asked for ad­
       ditional information from post, this practice was not consistent in all of the nepo­
       tism reviews. In a few instances, the information included in the nepotism reviews
       was different from the actual situation on the ground. The inspectors found that
       embassy management was not aware of how detailed and comprehensive the nepo­
       tism reviews needed to be. Given that spouses of senior-level ofﬁcers are working in
       the Embassy, and more will be employed in the future, it is important that Embassy
       Kabul include in the nepotism reviews, all possible conﬂict of interest scenarios and
       proposed solutions. Doing so in advance will reduce the probability of conﬂicts aris­
       ing later.

          Recommendation 68: Embassy Kabul, in coordination with the Bureau of
          Human Resources and the Ofﬁce of the Legal Adviser, should develop, docu­
          ment, and implement a formal and comprehensive nepotism review process
          and then seek approval of the revised process from the Department. (Action:
          Embassy Kabul, in coordination with HR and L)



       Recusal Letters of Senior-Level Ofﬁcers

           Because a number of the spouses of senior ofﬁcers work in the Embassy, each
       of these ofﬁcers is required by 18 U.S.C. section 208(a) to recuse himself or herself
       from personal and substantial participation in any particular matter with a direct and
       predictable effect on his or her ﬁnancial interests or those of any person whose in­
       terests are imputed to him or her. To document such a recusal, the ofﬁcer drafts and
       signs a recusal memorandum that is then provided to those embassy employees who
       may ﬁnd themselves in situations possibly involving a conﬂict of interest between
       the ofﬁcer and his or her spouse. The recusal memorandum is a message that identi­
       ﬁes the speciﬁc issues that the employee’s spouse will be handling, and informs the
       staff that the senior-level ofﬁcer will recuse himself or herself from any discussion,
       action, or decision related to the spouse’s portfolio.

           The OIG team applauds the Embassy for initiating letters of recusal as soon as
       the inspectors notiﬁed post management; however, this is an opportunity for the
       Embassy to establish SOPs on how to draft recusal letters. The reason these letters
       were not done in the ﬁrst place is because HROs were not aware of this requirement.
       Before the letters are distributed to all appropriate mission personnel, it is imperative
       that Embassy Kabul seek approval and clearance from the Bureau of Human Re­
       sources and Ofﬁce of Legal Adviser. The recusal letters will help mission personnel




82 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




to get a better understanding of the roles of the senior-level ofﬁcer and his or her
spouse. In addition, the recusal letters show a commitment from embassy manage­
ment to a process that is transparent and free of conﬂicts of interest.

   Recommendation 69: Embassy Kabul, in coordination with the Bureau of
   Human Resources and the Ofﬁce of the Legal Adviser, should ﬁnalize the re­
   cusal memoranda for senior employees whose spouses work at the Embassy
   and issue a formal notiﬁcation to appropriate mission staff. (Action: Embassy
   Kabul, in coordination with HR and L)



Locally Employed Staff Training and Development

    Although Embassy Kabul tracks LE staff training, the Embassy does not have a
comprehensive training plan for all LE staff. (See the information management sec­
tion of this report for some speciﬁc training needs.) The LE staff committee mem­
bers raised the issue of a general lack of training opportunities with the inspectors.
Unfortunately, the embassy has not required LE staff to prepare individual develop­
ment plans, a basic management tool to determine need, availability of training, and
data for ﬁnancial planning.

    In reviewing training documentation, the Embassy had a robust training plan in­
cluding individual development plans until 2007. Part of the development of a good
workforce is properly training employees. After four LE employees were sent to FSI
for training in early 2009 and did not return, the embassy temporarily stopped most
U.S.-based training but resumed it on a case-by-case basis in July. Regional training
continued. Post management has now requested authorization to bring experienced
LE staff from neighboring embassies to provide on-the-job training. LE staff ex­
pressed their desire to take online training offered by FSI, but some admitted that
their English skills are insufﬁcient to beneﬁt from those courses. Others expressed
dissatisfaction that, due to the workload, their supervisors would not allow time to
take the courses. The information management section indicates that latency prob­
lems also make online training problematic.

    Given that most U.S. ofﬁcers are on one-year tours, it would be beneﬁcial to have
one single document where American supervisors can ﬁnd information on what
training courses the LE staff have taken and which ones are needed. Training plan­
ning requires full participation by all sections of the Embassy.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   83 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Recommendation 70: Embassy Kabul should establish and implement a mis­
          sion-wide comprehensive training plan including the preparation of individual
          development plans for the locally employed staff and should make that plan
          available to American supervisors. (Action: Embassy Kabul)



       Checkout Procedures

           Embassy Kabul has a comprehensive checkout sheet. However, in reviewing the
       checkout process, the inspectors found that the majority of departing employees did
       not turn in the checkout sheets to the HR section. The checkout process is more
       problematic among employees from the PRTs who stop in Kabul for only a few
       days before departing the country. The PRT employees do not feel that the checkout
       sheet applies to them because the sheet is designed for employees who live on the
       embassy compound.

           Despite efforts by embassy management to require completion of the checkout
       sheet, the OIG team found that no one enforces the checkout procedures. The lack
       of a formal checkout procedure produces a ripple effect. For example, the health
       unit records are not given to the employee before departure; email accounts remain
       open for a long time because there is no evidence that the employee has left per­
       manently; reconciliation of inventory items is not veriﬁed until after the employee
       leaves; some supervisors do not complete employee evaluation reports for their
       subordinates; and outstanding ﬁnancial debts are not settled in time.

          Recommendation 71: Embassy Kabul should review and modify its current
          departure checkout sheet to disseminate clear guidance and procedures and
          require all departing employees to complete the checkout process before their
          airline tickets are issued. (Action: Embassy Kabul)



       Tracking Embassy Personnel

            Embassy Kabul tracks its personnel manually by checking with ofﬁces periodical­
       ly to have them count and recount employees. The Department’s current automated
       system is not useful because some types of direct-hire Kabul positions as well as
       long-term TDY positions actually appear only in the Department’s stafﬁng patterns.
       The embassy has to contact Department HR personnel for help in verifying employ­
       ee and position information for these alternative hiring mechanisms. This is a time
       consuming and ineffective way to track the number of positions on the ground. In


84 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




addition, this practice circumvents normal procedures and standards for creating and
funding positions. The 2009 OIG inspection report for Embassy Baghdad (ISP-I­
09-30A) addressed the same issue. Embassy Kabul has expressed its concerns to the
Bureau of Human Resources without much success. Tracking mission stafﬁng yields
a formal stafﬁng pattern to ensure proper accountability for all embassy personnel in
Afghanistan.

   Recommendation 72: The Bureau of Human Resources, in coordination with
   the Bureau of South and Central Asia, should establish a mechanism to manage
   all categories of personnel assets in Afghanistan using the Department’s stan­
   dard automated application for post personnel. (Action: HR, in coordination
   with SCA)



American Stafﬁng

    The Department has exerted considerable effort to attract individuals to work
in Afghanistan. The Afghanistan service recognition package includes two R&Rs,
three RRBs, special differential and premium pay provisions, and a rollover of some
pay beneﬁts to the following year. Even if the Department were to staff Embassy
Kabul without signiﬁcant stafﬁng gaps, one-year tours of duty with two R&Rs and
three RRBs means that the average employee only spends approximately 10 months
on the job. Moreover, the number of key positions ﬁlled by employees in stretch
assignments is signiﬁcant. ELOs on their ﬁrst tour ﬁll 11 embassy positions. Other
untenured ofﬁcers are on the ﬁrst tours in their area of expertise. These ofﬁcers are
doing impressive work, but they require more supervision from senior ofﬁcers and
often miss key points of the job, most signiﬁcantly, a lack of attention to detail in
processes and internal controls.

    The OIG team found that some ofﬁcers have volunteered for a second year in
Kabul. Many of them said that the work and the incentives were the primary reasons
for staying a second year. Others expressed the opinion that Embassy Kabul should
move to two-year tours with adult dependents authorized to accompany the em­
ployee. Many feel that the Embassy would attract more qualiﬁed bidders if spouses
were able to accompany the employee routinely, and indeed there is a correlation
between those agreeing to an extension and those whose spouses are working at the
Embassy. Given the civilian plus up that Embassy Kabul is experiencing, it is hard to
determine now if the Department would beneﬁt from changing from one to two-
year tours. Employees are ﬁnding the work in Kabul to be challenging and rewarding
and are volunteering on their own to stay for a second year. However, the Embassy



       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   85 .


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       would beneﬁt by exploring other options and presenting them to the Department.
       One idea is for Embassy Kabul to have a hybrid tour in which employees serve at the
       Embassy for a period of time (i.e., one year), and then do a short tour in the Depart­
       ment with the SCA bureau (i.e. desk ofﬁcer or another position) and then return to
       Kabul to ﬁnish off a two-year stint. The OIG team encouraged post management to
       engage actively with the Department on this issue.

       Locally Employed Staff

            The OIG team heard in addition to compensation issues common to almost
       all LE staff worldwide, high on the Kabul LE employees’ list of concerns was the
       debilitating effect of the yearly turnover of their U.S. supervisors. Not only did they
       cite such issues as lack of continuity and ineffectual leadership, but they complained
       about the lack of camaraderie, cultural indifference, and lack of sense of “family.”
       The human side of working together was lost as Americans come and go in frequent
       rotations. Many Americans arrive lacking social and cultural training in the very dif­
       ferent mores of Afghanistan; LE staff noted that the short tours, combined with
       workload factors, made it impossible to develop anything but superﬁcial relation­
       ships.

           The other LE staff issue was an economic one that the Embassy addressed dur­
       ing the inspection. The Department approved Embassy Kabul’s enrollment in the
       Deﬁned Contribution Fund, an off-shore LE staff retirement fund. LE staff is also
       interested in plans to implement the congressionally-approved SIV program. The
       consular section of this report addresses this issue. LE staff also expressed concern
       about personal security for themselves and their families. Several employees men­
       tioned that working for the U.S. Government is dangerous. Most hide their place
       of employment from all but immediate family, and their children may be subject to
       harassment if their parents’ employment becomes known.



       INFORMATION MANAGEMENT
             Embassy Kabul’s information management (IM) program generally meets cus­
       tomer needs in a challenging environment and was given high marks by most of its
       clients. The IM section’s priorities, however, are focused on achieving externally im­
       posed goals such as consolidation of Department and USAID information manage­
       ment programs and on piloting new technologies, and as a result, the section is strug­
       gling to maintain some aspects of its daily operations, including updating systems
       documentation, developing SOPs, providing information systems security oversight,
       and monitoring staff development.

86 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     The IM section’s mantra is “if we can do it in Afghanistan, they can do it any­
where.” With that in mind, section management has been eager to take on several
pilot projects including consolidation of USAID’s information technology (IT)
operations and SharePoint collaboration (intranet) while simultaneously undergoing a
major infrastructure upgrade that includes a satellite dish installation. The infrastruc­
ture upgrade is intended to increase bandwidth while leveraging existing tools in or­
der to improve the Embassy’s communication capability. In addition, the IM section
is planning to revamp the Internet, telephone, and television infrastructure in the
temporary housing that is being constructed, while at the same time planning a major
deployment of the OpenNet unclassiﬁed network to the PRTs in the ﬁeld. The OIG
team commends this proactive approach to the Embassy’s many challenges but notes
the difﬁculty of piloting projects in a conﬂict zone and the distractions that these
projects cause to IM’s daily operations. Some projects, such as OpenNet installation
in USAID ofﬁces, could have been piloted elsewhere so that the Kabul IM staff
could focus on information security, SOP development, and other required duties.
Other areas that require attention include strategic planning, switchboard operations,
and contact management.

     The IM team handles system administration of unclassiﬁed and classiﬁed
networks, radio, telephone, and classiﬁed and unclassiﬁed pouch service in 18 build­
ings. Currently, there are 13 U.S. direct-hires and 19 LE staff who support over 1,000
customers. With the mission projected to grow to over 1,300 by the summer of
2010, the IM section will face greater challenges in keeping up with an ever growing
customer base.

Strategic Planning

    Requests for Internet service in the housing units, video conferencing, and other
technical services are growing. With 16 government agencies each bringing a variety
of technical requirements, the IM section cannot accommodate everyone on an ad
hoc basis. With the inclusion of IM in senior management planning sessions, the IM
section would be able to establish priorities better, request resources more rationally,
and provide consistent customer service. The end result would be that mission em­
ployees could do their jobs more effectively, funds would be expended more judi­
ciously, and embassy morale would improve.

   Recommendation 73: Embassy Kabul should involve the information man­
   agement section in the Mission Strategic Plan exercise and identify speciﬁc
   benchmarks for the future development of information technology, as appro­
   priate. (Action: Embassy Kabul)



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   87 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           The December 2005 OIG inspection report recommended that the Embassy
       “develop an operating plan that identiﬁes and prioritizes IM operations,” but to date,
       no such operating plan is in place. In addition to establishing priorities through the
       MSP process, it is also important to have SOPs to guide program implementation.
       For example, in one case, a U.S. Government agency ordered radios for their opera­
       tions, but they did not coordinate the technical requirements with the IM section.
       When the radios arrived, they discovered that they could not be operated in Kabul.
       If the IM section had SOPs requiring coordination on the procurement of all techni­
       cal equipment embassy-wide, this waste could have been avoided.

          Recommendation 74: Embassy Kabul should develop standard operating
          procedures on the procurement and installation of all information technology
          equipment embassy-wide. (Action: Embassy Kabul)


            IM places inadequate emphasis on management efﬁciencies. Because there is
       very little time to systematize operations, the IM section ﬁnds itself reinventing and
       repeating processes that take a toll on resources, both human and monetary. For ex­
       ample, to support the large number of congressional delegations and other high-level
       visits, the IM section builds temporary VIP support centers, complete with comput­
       ers, telephones, printers and furniture, only to dismantle them after the visits. It takes
       approximately two days for several IM employees to establish a support center. There
       is no established procedure to decide what should remain in place and reused for the
       next visit. The OIG team made an informal recommendation to identify temporary
       ofﬁce space for high-level visits and maintain core IT equipment for reuse by subse­
       quent visiting delegations.

       United States Agency for International Development
       Information Technology Consolidation

           Under chief of mission direction, Embassy Kabul has embarked on a program
       to create a single IT platform to move all mission employees to the OpenNet system.
       This effort is progressing slowly. The goal is to avoid stove piping and to reorganize
       the Embassy along functional rather than agency lines. The Embassy manages the
       largest USAID program globally, and the purpose of consolidating IT functions is
       to share ﬁnancial, procurement, and performance data among agencies that support
       the Afghan program; to provide access to staff in remote locations; and to facilitate
       collaboration with local partners.

          USAID’s Afghanistan Ofﬁce of Regional Legal Advisor, with three employees,
       and USAID’s Ofﬁce of Program and Project Development, with 14 employees, have


88 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




already been moved to the OpenNet system. The project, however, continues to run
behind schedule. Initial plans called for all users to be consolidated by October 15,
2009. A subsequent cable requested a delay of that deadline to November 15. That
deadline has not been met either.

    In addition to progress delays, many end-user and technical issues have not been
resolved. For example, Ofﬁce of Program and Project Development employees were
provided OpenNet accounts and needed to have their data transferred. But they also
needed to retain access to AIDNet from their workstations. The Embassy is still
dealing with related conﬁguration issues, regular trouble shooting meetings have not
occurred, and there is no proper project management methodology in place. As a
result, consolidation will most likely experience continued delays.

   Recommendation 75: Embassy Kabul should work with the United States
   Agency for International Development to convert the Afghanistan information
   technology pilot plan into a formal OpenNet consolidation project plan and
   include new target dates. (Action: Embassy Kabul)


     USAID is a member of the Embassy’s recently created local change control
board. According to 5 FAM 115.6-2 a., the local change control board is required to
review the different applications that other agencies need to have on the OpenNet
desktop. As a result of the recent consolidation, USAID has several applications to
be reviewed prior to placement on the OpenNet network. If these applications are
installed on OpenNet without thorough testing, they may introduce security vulner­
abilities to the network.

   Recommendation 76: Embassy Kabul should submit all United States
   Agency for International Development applications to the local change control
   board for review. (Action: Embassy Kabul)


     The USAID mission director identiﬁed an alternative method to connect the
USAID and OpenNet networks directly. The OIG team noted that since Kabul is pi­
lot testing numerous projects, it might also be valuable to test the “local connection”
option proposed by USAID to see if it would be simpler and more cost effective.
The local connection option is already in use in 38 locations and supports the shar­
ing of the Department’s WebPASS application, SharePoint, and other applications.
The OIG team made an informal recommendation on this subject.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   89 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

          Recommendation 77: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


       Switchboard Operations

           Currently, the telephone switchboard operation is staffed 24 hours per day, 7 days
       a week. The OIG team reviewed the telephone logs, and noted that there were very
       few calls after 8:00 p.m., and those calls usually involved misdialed numbers. Staff­
       ing the switchboard during times when there are few incoming calls results in wasted
       funds. The telephone operation can be automated by establishing a recorded greeting
       that directs emergency calls to a duty ofﬁcer. Ofﬁcial communication with Washing­
       ton is handled through other systems and would not be effected by this measure.

          Recommendation 78: Embassy Kabul should establish an automated re­
          cording for after-hours use that directs emergency callers to a duty ofﬁcer and
          should cease telephone operator service after normal business hours. (Action:
          Embassy Kabul)


       Contact Management

           Embassy Kabul lacks a single database that allows all Embassy sections and
       agencies to maintain a record of their local contacts. Sections have been maintaining
       their own contact lists in a variety of ways, but it is not easy for one section to tap
       into another section’s guest lists or representation records. A single integrated ap­
       plication would provide a standardized system that generates guest lists for ofﬁcial
       functions and serves the entire embassy.

90 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




   Recommendation 79: Embassy Kabul should form a committee to review
   Department-approved contact management options and those databases cur­
   rently in use by protocol and other embassy sections, decide which option best
   meets the needs of all embassy sections, and require all embassy elements to
   use the same contact management system. (Action: Embassy Kabul)



Employee Development

     The Embassy has hired many talented IM employees locally, and they have pro­
vided superb technical support at the information systems center helpdesk and in the
mailroom. The majority of the LE staff are university students majoring in business
and computer science who also work full time for the Embassy. Due to latency that
causes slow response times on the OpenNet network, it is difﬁcult for them to take
online courses offered by FSI. Instead, they have taken the initiative to study manu­
als and some have traveled at their own cost to nearby countries to take certiﬁcation
examinations. The hiring of Afghan students for the information service center has
been a real success; they provide desperately needed continuity when U.S. staff de­
parts after their one-year assignments.

    Despite this success, there are still some problems in LE staff development.
Three individuals have not yet completed the Information Assurance for Administra­
tors course as recommended in an earlier regional computer security ofﬁce report.
There is one radio technician who, despite providing valuable knowledge and service
for several years, has not had the opportunity to attend radio training. Two new LE
staff from USAID will transition to the information services center as a result of
USAID consolidation, and they have not been trained on the OpenNet system.

   Recommendation 80: Embassy Kabul should develop and implement indi­
   vidual development plans for locally employed information technology staff to
   include information assurance and radio systems. (Action: Embassy Kabul)




       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   91 .


                   SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





92 .   OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                           QUALITY OF LIFE

    The quality of life at Embassy Kabul is difﬁcult and will remain so for the indeﬁ­
nite future as the arrival of even more personnel increases the stresses on the infra­
structure. The workload is heavy virtually across the board and the hours are long, as
addressed elsewhere in this report. Employees live and work on two adjoining com­
pounds, and security considerations severely limit any travel off the compounds for
ofﬁcial or unofﬁcial business. There are some recreational facilities (i.e. gymnasiums,
tennis court, volleyball court, and swimming pool), which employees use on a limited
basis due to long work days. There are even fewer common areas where staff living
in CHUs can relax or socialize, although post management is seeking creative ways
to redress this problem including large heated tents for common use, a year-round
enclosure for the pool, and common reading areas.

     Morale at the mission is mixed. As indicated in OIG’s personal questionnaire sur­
vey, some individuals have very high morale while others are less satisﬁed. A variety
of factors affect morale, including time in country, job satisfaction, separation from
family members, and limited social activities. The extraordinary pressures gener­
ated by the Presidential review process, the uncertainties surrounding the Afghan
elections, and the need to plan for the dramatic staff surge contributed to a particu­
larly stressful atmosphere as the inspection got underway. The Department and the
Embassy work hard to improve those areas over which they have some control, such
as providing a beneﬁts package to attract bidders to Kabul, regular R&R travel, and
employment opportunities for EFMs. These measures alleviate, but do not eliminate,
the austere living and working conditions that many employees experience.



HEALTH UNIT
     Embassy Kabul’s health unit performs well, and Embassy personnel are gener­
ally satisﬁed with the level of care. The health unit facility is spacious and has the
necessary equipment. In addition to the regional medical ofﬁcer, two Foreign Service
health practitioners, a local doctor, and a social worker due to arrive by December
2009, the Embassy receives frequent visits from the regional psychiatrist (RMO-P)
located in New Delhi. The workload, is by all accounts, heavy, and expected to in­
crease even more with the personnel plus up.


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   93 .


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           At the time of the inspection, there were no strong indications of mental health
       issues among employees. In reviewing the health unit’s post-traumatic stress disorder
       process, the OIG team found that the questionnaire used by the health unit, per the
       Ofﬁce of Medical Services’ instructions, has not produced any signiﬁcant statistical
       evidence of employees showing mental health problems. The Embassy asked the
       Department to assign an RMO-P to Kabul, but the Ofﬁce of Medical Services opted
       to have a new RMO-P in Doha cover Kabul. Given that the social worker has not
       yet arrived, and there are no indications of mental health issues, the OIG team is not
       taking any position on the assignment of an RMO-P. However, it would be appropri­
       ate for the Embassy to reevaluate the need for an RMO-P periodically.

           The health unit provides weekly health tips and general medical information to
       the embassy community on the Embassy’s internal television channel. The OIG team
       found some minor operational weaknesses in the health unit. Although medications
       are stored and controlled correctly, the inventory records are not well organized. The
       ﬁrst aid kits in ofﬁcial embassy cars are missing, and there is no assurance that all the
       ﬁrst aid kits have been checked by health unit staff. The OIG team made informal
       recommendations on these issues.



       COMMUNITY LIAISON OFFICE
            Two CLO coordinators serve the embassy community and ﬁll a real need. In
       addition to emails to the embassy collective, they have started to focus their atten­
       tion on providing more information to the embassy community through its monthly
       newsletter, The Kabul Khourier. At the time of the inspection, the two CLO coordi­
       nators participate in the emergency action committee meetings, country team meet­
       ings, USAID executive meetings, and IAHB meetings. While the inspectors were
       at post, the CLO coordinators were asked to join the post employment committee
       as well. The CLO coordinators are working with post management to reach out to
       personnel in the PRTs by sending DVDs and books when personnel from Kabul
       visit those locations. During the course of the inspection, the CLO coordinators
       converted an unused open area above the cafeteria into a reading area with sofas and
       an Internet wireless zone. In addition, the CLO coordinators, with the support of
       embassy management, plan to convert part of the cafeteria into an Internet café. The
       OIG team applauds these efforts to improve morale.




94 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




    The OIG team received feedback from embassy personnel that they were not
always aware of CLO-sponsored events. The OIG team found that a CLO bulletin
board had not been updated for some time. The CLO SharePoint site is not updated
frequently. There is no social sponsorship for new arrivals. The OIG made informal
recommendations addressing these issues.



EQUAL EMPLOYMENT OPPORTUNITY AND FEDERAL WOMEN’S
PROGRAM
     Embassy Kabul has three designated EEO counselors and a Federal Women’s
Program coordinator. They report no active EEO cases. Embassy Kabul issued the
Department policy on sexual harassment and EEO policy prior to the inspection
team’s arrival. One of the EEO counselors is working with the Ofﬁce of Civil Rights
to issue the Ambassador’s personal commitment on EEO policies. The OIG inspec­
tion team observed that the EEO policies and information about how to reach the
EEO counselors are posted only on one bulletin board outside the HR ofﬁce. Given
the multiple buildings on two compounds, it would be beneﬁcial to post the infor­
mation in Dari and Pashto in other high trafﬁc areas. The inspectors made informal
recommendations on these issues.




       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   95 .


                   SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





96 .   OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                 SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                MANAGEMENT CONTROLS

    The OIG inspectors found that internal controls in the management section are
weak in a number of key areas, as detailed elsewhere in this report. The 2009 chief
of mission annual management controls certiﬁcation did not acknowledge any of the
deﬁciencies identiﬁed by the OIG team but rather described routine actions that the
embassy has taken to ensure management controls in personal property assets, safety
environment, and inventory of ofﬁcial motor vehicles. The Embassy does not have
SOPs in place across all embassy sections. This leads to different procedures being
implemented every year with the arrival of new ofﬁcers. There is weak veriﬁcation
and control of overtime, leaving this area vulnerable to fraud and abuse. In the area
of general services, the Embassy has insufﬁcient management controls over a num­
ber of components including inventory of ofﬁcial motor vehicles and procurement.
As discussed elsewhere in this report, the Embassy has no accurate inventory of its
vehicles and ICASS vehicles are on loan to other U.S. agencies for their exclusive
use, yet service and repairs of these loaned vehicles are being paid by ICASS. The
OIG team reviewed travel procedures and vouchers and found deﬁciencies in the
oversight of travel program funds. The employee association has virtually no internal
controls in place.

    The risk assessment questionnaire completed by the Embassy shortly before the
arrival of the inspection team and scored by the Bureau of Resource Management
showed acceptable scores in all sections, with some scoring 100 percent. The only
function that scored 72 percent was overall post management. Embassy Kabul has
a program of management controls that on the surface appears to be adequate with
high scores in its annual risk assessments. The inspectors found, however, that these
controls do not work as intended in this embassy where long hours and understafﬁng
are endemic. The overworked staff, one-year tours, inexperienced American ofﬁcers,
and untrained LE staff members all contribute to lapses that collectively could create
signiﬁcant problems. The Embassy has tried to maintain good controls, but more
needs to be done to mitigate vulnerabilities.

     There was no evidence that the delegation of responsibilities has been reviewed
carefully. There are many inconsistencies in some of the delegations of duties. For
example, the OIG team noted that the members for the IAHB and the post-employ­
ment committee are listed incorrectly. The management controls program, outlined
in 2 FAM 021.3, is “the plan of organization, methods and procedures adopted by


       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   97 .


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       management to provide reasonable assurance that throughout all organizational ele­
       ments and activities of the Department, the objectives of management control are
       achieved and the integrity of the programs are safeguarded.” Embassy Kabul has
       not designated anyone as the management controls coordinator. Department policy
       (2 FAM 022.8 d.) requires the Ambassador to appoint the Embassy’s management
       controls coordinator, usually a management ofﬁcer with direct access to the DCM.
       Given the leadership structure at Embassy Kabul, whoever is appointed in this
       position will be responsible for ensuring that all ofﬁces within the Embassy report
       management control deﬁciencies accurately and establish corrective action plans.

            Recommendation 81: Embassy Kabul should appoint a management con­
            trols coordinator and disseminate this information in a revised designations of
            authorities administrative notice. (Action: Embassy Kabul)



       Overtime

           Most U.S. direct-hire employees in Kabul are paid a 20 percent premium to com­
       pensate for the long hours that they regularly work to support U.S. goals and objec­
       tives in Afghanistan. Non-tenured Foreign Service ofﬁcers, specialists, EFMs, and
       LE staff, however, are compensated for the actual number of overtime hours worked
       and do not receive the 20 percent premium. These staff accumulate a signiﬁcant
       amount of overtime. This situation is not new; the 2005 OIG report recommended
       that the embassy establish procedures to prevent abuse of overtime. In response to
       that inspection report, the Embassy implemented procedures requiring supervisors’
       approval in advance of any overtime, and requiring employees to detail the exact
       hours they worked overtime. In addition, supervisors were expected to review aver­
       age weekly overtime hours worked by each employee and highlight overtime hours
       that might be excessive. However, a review of the current overtime situation shows
       that the procedures have not gone far enough to prevent overtime abuse.

           In FY2009, the Department incurred over $1.5 million in overtime costs (Diplo­
       matic & Consular Programs and ICASS combined).16 With the increase in workload
       across the board, more employees are now claiming overtime. Examination of a
       sample of six pay periods for FY 2009 revealed that 80 percent of eligible U.S. staff
       and 68 percent of LE staff overtime justiﬁcations were weak, incomplete, or nonex­
       istent. There was no evidence that supervisors received reports on overtime usage or
       that they monitored overtime. The OIG team acknowledges that overtime is neces­


       16
         This ﬁgure does not include overtime costs incurred by other agencies but does include over­
       time by 3161s at the PRTs.


98 .        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




sary to meet the heavy demands placed on the Embassy for visitor support and other
priorities, but strong justiﬁcation and supervisory approval or veriﬁcation of pre­
mium time worked are necessary to prevent abuse of overtime.

   Recommendation 82: Embassy Kabul should establish, implement, and dis­
   seminate an updated policy on overtime that requires complete documenta­
   tion and valid justiﬁcations for the additional hours and sets up a process for a
   monthly management review. (Action: Embassy Kabul)



Representational Funding

    Embassy Kabul’s representational funding was not adequate to cover all of the
Embassy’s representational events in FY 2009. To cope with this shortfall, manage­
ment redirected representational funds initially budgeted for use by other embassy
sections to cover the Ambassador’s representational events. Ofﬁcers from other
embassy sections who had planned representational events expressed dissatisfaction
about the loss of representational funds, and some continued to follow their out­
reach program but simply did not submit any representational vouchers, assuming
they would not be paid anyway. Although the Department provided Embassy Kabul
additional representational funds at the end of the ﬁscal year, some ofﬁcers were ap­
parently unaware that they could have been reimbursed. The representational budget
and vouchering process could have been more transparent.

    The FY 2010 budget request for representational funding included an increase of
funds for representation across the board. In reviewing the representational funding,
the OIG team found that the Embassy does not have a representational policy that
discusses use of funds and distribution, nor does it set dollar limits for various types
of activities as outlined in 3 FAM 3246.3 a. A representational plan ensures that re­
sources are used efﬁciently to advance the Embassy’s goals and objectives.

   Recommendation 83: Embassy Kabul should establish, implement, and dis­
   seminate a policy on use of representational funds, redistribution of funds
   during the ﬁscal year, and dollar limits for various types of activities. (Action:
   Embassy Kabul)




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   99 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Representational Vouchers

             The OIG team reviewed a sample of representational vouchers from FY 2009.
        Vouchers often did not include the purpose of the event as required in 3 FAM
        3247.2 nor did the guest lists always indicate if invitees attended the event or not. As
        a result, it was not always possible to determine if executive branch attendees were
        less than 50 percent of the total attendees as required 3 FAM 3246.3 b. Also, no
        justiﬁcation was made for events with more than 50 percent executive branch at­
        tendees. There is no established process for reviewing representational vouchers. The
        OIG team noted some discrepancies in the numbers of guests versus the number of
        meals provided. In general, better and more complete documentation is necessary
        to meet the requirements of 4 FAH-3 H423.5. It was not clear that requirements for
        representational vouchers are enforced or that vouchers are sent back to the appro­
        priate ofﬁce for additional information.

            Recommendation 84: Embassy Kabul should establish and implement pro­
           cedures for representational vouchers that require clear documentation of at­
           tendees, costs, and justiﬁcation for the event. (Action: Embassy Kabul)



        Kabul Embassy Employee Association

            The Kabul Embassy Employee Association (KEEA) provides several important
        services that contribute to the morale and welfare of the embassy community. These
        include a logo store, which sells alcohol, meal tickets, and souvenir merchandise; a
        small club facility; and lease agreements with local vendors for sales of groceries and
        sundries. The store and the club use a point of sale system to capture sales informa­
        tion.

            The 2008 KEEA audit, completed in October 2009, was incomplete and issued
        as a qualiﬁed report due, in part, to corrupted computer ﬁles. KEEA subsequently
        acquired a proper accounting package, and the proﬁt and loss statement for FY 2009
        to date shows a proﬁt of $160,000. Assets include over $140,000 cash in the bank
        account.

            The KEEA board is relatively new, but is made up of enthusiastic ofﬁcers who
        have some good ideas on how to improve the overall operation. KEEA suffers,
        however, from the lack of experienced management staff and the frequent rotation
        of board members, who may not have sufﬁcient time to spend on association mat­
        ters in addition to their regular workload. In reviewing the association’s ﬁnancial and
        operational documents, the OIG team concluded that oversight and controls over


100 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




KEEA have been virtually nonexistent. There is no evidence that the oversight that
the board members are providing to the association’s operations is adequate. A per­
suasive case can be made that the board members are not familiar with Department
regulations on how to operate an employee association.

   Recommendation 85: Embassy Kabul should request, and the Bureau of
   Administration should perform, a site visit to provide speciﬁc guidance to
   board members, review internal controls, and establish strengthened procedures
   for employee association operations. (Action: Embassy Kabul, in coordination
   with A)



Meal Ticket Accountability and Process

    The current food service contractor does not accept cash. As a result, the
Embassy has arranged for TDY employees to purchase meal tickets from KEEA.
Embassy Kabul and KEEA have a memorandum of agreement to have the associa­
tion print and sell meal tickets. The Embassy devised this process almost overnight
when the new food service contractor came on board, but has not followed up or
evaluated the meal ticket process to determine if it is working as envisioned. Accord­
ing to the agreement, KEEA is to reimburse the Embassy for each meal ticket sold
and presented at the dining facilities as recorded by the food services contractor’s
daily head count document.

     Under the current reimbursement process, KEEA reports the number of tickets
sold each month to the ﬁnancial management ofﬁce, which in turn bills the associa­
tion for that amount, and the association pays that bill to the ﬁnancial management
ofﬁce. The ﬁnancial management ofﬁce then pays the food services contractor. Used
tickets collected by the food services contractor are sent back to the employee asso­
ciation without being cancelled. Meal ticket sales are not being reported according to
the memorandum of agreement. The process is cumbersome and difﬁcult to audit.
It is possible that the employee association is reimbursing too much to the embassy,
since tickets sold but not used are included in the calculations. In addition, meal
ticket proﬁts may be excessive when compared to the cost of providing this service
(resulting in higher per diem for TDY visitors and excessive proﬁts for the associa­
tion.)

   Recommendation 86: Embassy Kabul should reassess the current reimburse­
   ment process and develop a system that provides for the reimbursement of the
   actual number of meal tickets accepted by the food services contractor. (Ac­
   tion: Embassy Kabul)


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   101 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



            In addition, if the proﬁts from the meal ticket sales are subsidizing other KEEA
        operations, this could suddenly reduce the association’s proﬁts should the current
        food service contractor be replaced with one who accepts cash payments. The
        Embassy has not established cost centers or reviewed the operation for sustainability
        as required by 6 FAM 531.5. KEEA did not contribute any signiﬁcant portion of its
        excess funds to the embassy community, such as grants to the CLO for community
        events. The lack of cost centers prevents KEEA’s management or the board from
        identifying unproﬁtable services. The heavy reliance on meal tickets as a source of
        revenue is not a good management practice.

           Recommendation 87: Embassy Kabul should conduct an audit of the meal
           ticket program that justiﬁes administrative costs and a reasonable proﬁt margin
           and establishes cost centers to ensure that each cost center is self-sustaining.
           (Action: Embassy Kabul)



        Alcohol Sales and Limits

             KEEA does not have a workable system to limit sales of alcohol or a system to
        monitor sales to individual purchasers. Alcohol sales account for a considerable por­
        tion of total association sales. A variety of people have access to the embassy com­
        pound, but not all are eligible to purchase alcohol. KEEA established limits for per­
        sonal alcohol purchases; current limits are one bottle of liquor, three bottles of wine,
        and two cases of beer per day. Despite these limits, the OIG team found no evidence
        that alcohol sales were being monitored and reported periodically to Embassy. There
        were no indicators that duty-free alcohol bottles are being resold on the open market;
        however, given the current limits and lack of controls, it may be possible. However, it
        is a good management practice to prevent employees from abusing their diplomatic
        privileges.

           Recommendation 88: Embassy Kabul should review the current limits on
           alcohol sales, establish and implement limits, and monitor sales of duty-free al­
           cohol by the Kabul Embassy Employee Association (Action: Embassy Kabul)



        Employee Association Trailers

            In May 2009, the Embassy purchased ﬁve modiﬁed shipping containers ﬁtted
        out as retail sales space for a total of $59,900 from KEEA. The procurement was a
        negotiated sale. Documentation from the purchase order ﬁle shows the price to be
        the full price the association paid when it had originally acquired the containers. The


102 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Embassy did not receive a good or service as the result of the acquisition, and the
association continued to occupy the containers as before.

     Inspectors attended a KEEA board of directors meeting at which one member
stated that the purpose of the procurement was to give the association some liquid­
ity. The ﬁnancial condition of the association, documented elsewhere in this report,
is now quite strong. The OIG team believes the acquisition was a purely paper trans­
action to transfer embassy funds to the KEEA treasury, with no beneﬁt to either the
embassy or the government.

   Recommendation 89: Embassy Kabul should request, and the Kabul Embas­
   sy Employees’ Association should return, funds paid to the association for ﬁve
   used shipping containers ﬁtted as retail sales space. (Action: Embassy Kabul)




       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   103 .


                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED





104 .   OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                       RECOMMENDATIONS

Recommendation 1: Embassy Kabul should capture all the new positions and re­
  sources that it needs to carry out its counterinsurgency strategy in the FY 2012
  Mission Strategic Plan. (Action: Embassy Kabul)

Recommendation 2: Embassy Kabul should reorganize the staff assistant opera­
  tion so that the executive secretary manages a rotating schedule of responsibilities
  for the three staff assistants to include facilitating paper ﬂow, note taking, country
  team follow-up, travel, and other support activities as required. (Action: Em­
  bassy Kabul)

Recommendation 3: Embassy Kabul should streamline its clearance process, us­
  ing staff assistants to make nonsubstantive changes to end products, initiating
  in-house tradecraft training, if necessary, to encourage better products from initial
  drafters, and reducing the number of clearing ofﬁcers wherever possible. (Action:
  Embassy Kabul)

Recommendation 4: Embassy Kabul should develop, implement, and enforce a
  protocol for ofﬁcial visitors that requires travelers to submit their preferred pro­
  grams, including in-country travel, at least 72 hours before the group’s arrival in
  Afghanistan to allow for adequate logistical preparation. (Action: Embassy Ka­
  bul)

Recommendation 5: The Ofﬁce of the Special Representative for Afghanistan and
  Pakistan should coordinate all routine high-level communications between the
  Department, the National Security Council, and Embassy Kabul and restrict such
  communications with the Embassy to between 6:00 a.m. and 9:00 p.m. Kabul
  time. (Action: S/SRAP)

Recommendation 6: The Ofﬁce of the Special Representative for Afghanistan and
  Pakistan should ask the Joint Staff to reschedule its routine weekly Friday telecon­
  ferences with Embassy Kabul during ofﬁcial Kabul working hours. (Action: S/
  SRAP)

Recommendation 7: Embassy Kabul should assign a team or unit in its political
  section to follow Afghanistan’s relations with Iran and other neighboring coun­
  tries on a full-time basis. (Action: Embassy Kabul)



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   105 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Recommendation 8: The Foreign Service Institute should develop online modules
          in the history, politics, and culture of Afghanistan, and in reporting trade craft
          that can be added to the predeployment training of ofﬁcers who will have politi­
          cal reporting and analysis responsibilities on provincial reconstruction teams.
          (Action: FSI)

        Recommendation 9: The Ofﬁce of the Special Representative for Afghanistan
          and Pakistan should collect and convey the reporting needs of Washington con­
          sumers to Embassy Kabul by providing the mission with a periodic summary of
          key areas of reporting interest that reﬂect the needs of all consumers while con­
          solidating and prioritizing needs, wherever possible, to reduce ad hoc requests.
          (Action: S/SRAP)

        Recommendation 10: Embassy Kabul should produce a strategic reporting plan
          for political issues and link it to resource planning through the Mission Strategic
          Plan. (Action: Embassy Kabul)

        Recommendation 11: Embassy Kabul should prepare a quarterly cable summariz­
          ing key political developments and trends in addition to its daily reporting. (Ac­
          tion: Embassy Kabul)

        Recommendation 12: Embassy Kabul should appoint an experienced biograph­
          ics coordinator, and that coordinator should construct appropriate databases of
          information on key Afghan leaders and potential leaders to assist in identifying
          effective interlocutors. (Action: Embassy Kabul)

        Recommendation 13: Embassy Kabul should assign responsibility for oversight of
          large-scale grants for the advancement of women’s rights to an agency with devel­
          opment experience. (Action: Embassy Kabul)

        Recommendation 14: Embassy Kabul should reorganize its political section into
          at least two units, headed by ofﬁcers who can replace the deputy counselor when
          necessary. (Action: Embassy Kabul)

        Recommendation 15: Embassy Kabul should streamline and consolidate its plan­
          ning system by reducing the number of working groups, focusing agendas on de­
          cisions to be made, and keeping formal records of all meetings that reﬂect agree­
          ment by all agencies on what decisions were reached. (Action: Embassy Kabul)

        Recommendation 16: Embassy Kabul should keep minutes of all regularly sched­
          uled meetings between the Ambassador and the commander of U.S. military
          forces in Afghanistan, ensuring that the minutes reﬂect agreement by both sides
          on what decisions were reached. (Action: Embassy Kabul)


106 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Recommendation 17: Embassy Kabul should add an administrative assistant to its
  political-military section, using an eligible family member or other appropriate hir­
  ing mechanism, to take over the clerical aspects of civilian-military planning meet­
  ings and required Leahy Amendment vetting. (Action: Embassy Kabul)

Recommendation 18: Embassy Kabul, in coordination with the Bureau of Ad­
  ministration, should implement policy decisions in accordance with acquisition
  and grant law and regulations, including the requirements that contract and grant
  changes be authorized by warranted contract and grant ofﬁcers. (Action: Em­
  bassy Kabul, in coordination with A)

Recommendation 19: Embassy Kabul should amend and reissue the letter of
  instruction from the Ambassador to the senior civilian representatives in the
  regional commands to bring the text into harmony with contractual obligations
  regarding direction and performance evaluations of other agency contractors and
  indicating that responsibility for direction and performance evaluations must re­
  main with the employing agency. (Action: Embassy Kabul)

Recommendation 20: Embassy Kabul should conduct a review of the rules,
  regulations, and practices of all agencies with employees under chief of mission
  authority in Afghanistan and amend guidance as necessary so that performance
  evaluations are done in accordance with the appropriate rating system. (Action:
  Embassy Kabul.)

Recommendation 21: Embassy Kabul should authorize activity managers and con­
  tracting ofﬁcer technical representatives in the ﬁeld to send technical performance
  reports on implementing partners and development projects directly to the cor­
  responding agency’s contracting ofﬁce at the embassy at the same time that they
  send such reports to the interagency provincial affairs ofﬁce. (Action: Embassy
  Kabul)

Recommendation 22: The Ofﬁce of the Special Representative for Afghanistan
  and Pakistan, in coordination with the Bureau of International Narcotics and Law
  Enforcement, should approve and disseminate a sustainable, comprehensive rule
  of law strategy, to include program priorities, interagency stafﬁng and skill needs,
  and a timeline. (Action: S/SRAP, in coordination with INL)

Recommendation 23: The Ofﬁce of the Special Representative for Afghanistan
  and Pakistan, in coordination with the Bureau of South and Central Asian Affairs
  and the Bureau of International Narcotics and Law Enforcement Affairs, should
  approve an anticorruption strategy and authorize the allocation of assistance
  funding to support that strategy. (Action: S/SRAP, in coordination with SCA and
  INL)


        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   107 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Recommendation 24: Embassy Kabul should review the positions it requested for
          FY 2010 in light of the approved anticorruption strategy and assign an anticor­
          ruption ofﬁcer to oversee its implementation. (Action: Embassy Kabul)

        Recommendation 25: The Bureau of International Narcotics and Law Enforce­
          ment Affairs should immediately ﬁll all seven of the in-country contracting ofﬁ­
          cer representative positions. (Action: INL)

        Recommendation 26: Embassy Kabul should require that all aircraft and crew in
          the Embassy Air pool adhere to the International Civil Aviation Organization
          crew proﬁciency, aircraft maintenance, and aircraft safety standards and that all
          personnel have appropriate security clearances. (Action: Embassy Kabul)

        Recommendation 27: Embassy Kabul should expand the border coordinator’s role
          to include the coordination of border activities at all borders. (Action: Embassy
          Kabul)

        Recommendation 28: Embassy Kabul should establish a concise public diplo­
          macy and communications strategy to set priorities, drive program initiatives, and
          provide a framework to judge proposals and should disseminate this plan to all
          ofﬁcers, sections, agencies and entities that conduct public diplomacy activities in
          Afghanistan. (Action: Embassy Kabul)

        Recommendation 29: Embassy Kabul should clarify the role of the director of
          communication and public diplomacy in providing policy direction to all person­
          nel under chief of mission authority in Kabul and in the ﬁeld who are working on
          public diplomacy and communications issues. (Action: Embassy Kabul)

        Recommendation 30: Embassy Kabul should rationalize and clarify the public di­
          plomacy stafﬁng structure to eliminate duplication of functions and unclear lines
          of authority and should establish a clear organizational chart with work require­
          ments for each position. (Action: Embassy Kabul)

        Recommendation 31: Embassy Kabul should increase its use and support of the
          Government Media Information Center and should clearly deﬁne the position
          and clarify the authority of the Foreign Service ofﬁcer advising the center, as well
          as other U.S. Government staff working there. (Action: Embassy Kabul)




108 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Recommendation 32: The Bureau of South and Central Asian Affairs, in coordi­
  nation with the Ofﬁce of the Special Representative for Afghanistan and Pakistan
  and Embassy Kabul, should develop and implement a stafﬁng plan to cover all
  of the additional public diplomacy programs to be carried out by the Embassy
  and should link these new programs to the provision of additional staff in Kabul.
  (Action: SCA, in coordination with S/SRAP and Embassy Kabul)

Recommendation 33: Embassy Kabul should establish a stronger oversight system
  for issuing and monitoring grants to ensure that projects are completed according
  to the proposal, funds have been expended properly, and grants ﬁles include all
  the required documents. (Action: Embassy Kabul)

Recommendation 34: Embassy Kabul should request grants training for the locally
  employed staff handling grants. (Action: Embassy Kabul)

Recommendation 35: The Ofﬁce of the Special Representative for Afghanistan
  and Pakistan, in coordination with the Bureau of South and Central Asian Affairs,
  the Bureau of Human Resources, and the Foreign Service Institute, should au­
  thorize all U.S. direct-hire personnel who are designated to do public diplomacy at
  the provincial reconstruction teams to have targeted diplomacy training, including
  grants training, and provide other provincial reconstruction teams ofﬁcers with
  some basic public diplomacy (especially media) training. (Action: S/SRAP, in co­
  ordination with SCA, DGHR, and FSI)

Recommendation 36: Embassy Kabul should reach out to the entire mission for
  nominations, project proposals, and selection committee participation for the In­
  ternational Visitor Leadership Program and should place more emphasis on seek­
  ing out non-English speakers. (Action: Embassy Kabul)

Recommendation 37: Embassy Kabul should hire a Pashto translator for the pub­
  lic affairs section, and backup the translator’s work by investigating the availability
  of private translation companies and consulting with Embassy Islamabad on co­
  operation in producing Pashto language materials. (Action: Embassy Kabul)

Recommendation 38: Embassy Kabul should develop the capacity in the general
  services ofﬁce to handle non-public diplomacy audio-visual work, as well as an
  arrangement in the information management ofﬁce for handling non-public di­
  plomacy digital video conferences. (Action: Embassy Kabul)




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   109 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Recommendation 39: Embassy Kabul, in coordination with the Ofﬁce of the Le­
          gal Adviser, should clarify the role of the embassy photographer, including issues
          of supervision, payment and approval of overtime, and ownership of the photo
          archive. (Action: Embassy Kabul, in coordination with L)

        Recommendation 40: Embassy Kabul should review, clarify, and where necessary
          streamline the policy on when and how the interagency provincial affairs ofﬁce
          and other sections and agencies transmit and coordinate policy and program guid­
          ance between the Embassy and the ﬁeld to enable more direct communication
          while maintaining limitations on mandatory taskings. (Action: Embassy Kabul)

        Recommendation 41: Embassy Kabul should request immediate clariﬁcation from
          the Bureau of Overseas Buildings Operations and the Bureau of Consular Affairs
          of plans to relocate the consular section and review any new space conﬁguration
          to be sure that new premises can accommodate the additional staff expected in
          FY 2010 and the return of the immigrant visa function. (Action: Embassy Ka­
          bul)

        Recommendation 42: Embassy Kabul, in coordination with the Bureau of Con­
          sular Affairs, should identify one or more panel physicians and a laboratory facil­
          ity in Kabul that is capable of providing reliable physical examinations and x-rays,
          referring to Centers for Disease Control guidelines for selecting a panel position.
          (Action: Embassy Kabul, in coordination with CA)

        Recommendation 43: Embassy Kabul, in coordination with the Bureau of Con­
          sular Affairs, Embassy Islamabad, and Embassy New Delhi, should send one of
          its consular ofﬁcers and one locally employed staff to observe immigrant visa
          processing at a consular section in the region prior to initiating visa processing
          in Kabul and designate a locally employed supervisor from the region to oversee
          initial processing in Kabul. (Action: Embassy Kabul, in coordination with CA,
          Embassy Islamabad, and Embassy New Delhi)

        Recommendation 44: The Bureau of Consular Affairs should transfer all immi­
          grant visa processing for persons resident in Afghanistan to Embassy Kabul as
          soon as the initial surge of special immigrant visa applications has moved through
          the pipeline. (Action: CA)

        Recommendation 45: The Bureau of Consular Affairs should advise the Depart­
          ment of Homeland Security to transfer approved petitions for temporary work
          visas for Afghan residents to Embassy Kabul. (Action: CA)




110 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Recommendation 46: Embassy Kabul, in coordination with the Bureau of Con­
  sular Affairs, should develop a referral program to address the large number of
  Afghan trainees that the U.S. military commands propose for U.S. programs who
  fall outside the standard referral guidelines. (Action: Embassy Kabul, in coordi­
  nation with CA)

Recommendation 47: Embassy Kabul should require Foreign Service ofﬁcers as­
  signed to the two new consulates to take the portions of consular training that
  deal with American citizen services regulations and processes before assignment.
  (Action: Embassy Kabul)

Recommendation 48: Embassy Kabul should rewrite the consular section’s travel
  plans to include quarterly oversight and training trips to the consulates in Herat
  and Mazar-e-Sharif. (Action: Embassy Kabul)

Recommendation 49: Embassy Kabul should identify the reason it has been
  unsuccessful in making the needed corrections to the Inventory of On Hand
  Vehicles Report and request assistance from the Bureau of Administration to ac­
  curately adjust its inventory. (Action: Embassy Kabul)

Recommendation 50: Embassy Kabul should reconcile the Inventory of On Hand
  Vehicles Report to document the reasons for the 95-vehicle discrepancy. (Action:
  Embassy Kabul)

Recommendation 51: Embassy Kabul should recover loaned International Coop­
  erative Administrative Support Services vehicles and return them to the embassy
  motor pool. (Action: Embassy Kabul)

Recommendation 52: Embassy Kabul should inform agencies that have been op­
  erating loaned International Cooperative Administrative Support Services vehicles
  that maintenance and fuel costs for the period that those agencies have had exclu­
  sive use of the vehicles will be charged directly to the agency. (Action: Embassy
  Kabul)

Recommendation 53: Embassy Kabul should cease loaning International Coop­
  erative Administrative Support Services vehicles to Afghan Government agencies.
  (Action: Embassy Kabul)

Recommendation 54: Embassy Kabul should schedule regular meetings of the
  interagency housing board throughout the year to consider assignments to apart­
  ments as well as housing appeals from employees. (Action: Embassy Kabul)




       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   111 .


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Recommendation 55: Embassy Kabul should identify apartments occupied by
          non-foreign affairs agency personnel and propose to the interagency housing
          board the assignment of direct- hire foreign affairs agency personnel upon the
          departure of the incumbents, according to the published priority list for housing.
          (Action: Embassy Kabul)

         Recommendation 56: Embassy Kabul should update and reconcile its property
          inventory in accordance with its projected schedule and document the reasons for
          the discrepancies in the 2008 inventory. (Action: Embassy Kabul)

        Recommendation 57: Embassy Kabul should provide guidance that details the Af­
          ghan First policy while clearly stating the necessary exceptions. (Action: Embassy
          Kabul)

        Recommendation 58: Embassy Kabul should establish internal review procedures
          for large procurements and request contracting assistance when a procurement
          exceeds the embassy’s warrant limits. (Action: Embassy Kabul)

        Recommendation 59: The Bureau of South and Central Asian Affairs should de­
          duct an appropriate amount from the operations and maintenance contractor’s
          payment due to the failure to train local personnel to take over the contractor’s
          duties. (Action: SCA)

        Recommendation 60: Embassy Kabul should establish and implement an ofﬁcial
          temporary duty policy that delineates the terms, calculations, and conditions un­
          der which International Cooperative Administrative Support Services costs of
          ofﬁcial visitors are recorded and charged to the sponsoring agency. (Action: Em­
          bassy Kabul)

        Recommendation 61: Embassy Kabul should review and close all open suspense
          deposit abroad accounts. (Action: Embassy Kabul)

        Recommendation 62: Embassy Kabul should revise, issue, and implement an up­
          dated travel policy that includes the requirement for supervisory authorization,
          justiﬁcation, and documentation. (Action: Embassy Kabul)

        Recommendation 63: Embassy Kabul should develop and implement procedures
          requiring all travel authorizations to show the authorized itinerary and authorized
          cost. (Action: Embassy Kabul)




112 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Recommendation 64: Embassy Kabul, in coordination with the Bureau of South
  and Central Asian Affairs, should identify and approve cost-constructive routes
  for rest and recuperation travel and document all cost-constructive travel with the
  associated costs. (Action: Embassy Kabul, in coordination with SCA)

Recommendation 65: The Bureau of Resource Management, in coordination with
  the Bureau of Administration, should conduct an audit of all rest and recupera­
  tion travel performed by Embassy Kabul employees in FY 2009 to verify that
  travel was based on the most cost efﬁcient routes, that the proper cost construc­
  tive basis was used, and that all premium class travel was properly approved and
  justiﬁed. (Action: RM, in coordination with A)

Recommendation 66: Embassy Kabul should review its current system for con­
  trolling travel within Afghanistan and establish procedures that require all ofﬁcial
  travel to be approved in advance by the chief of mission or his designee; distin­
  guish ofﬁcial from unofﬁcial travel; protect the U.S. Government from liability for
  nonofﬁcial travelers; and allocate costs, including collecting the cost of trips from
  temporary duty employees and visitors on ofﬁcial travel when appropriate. (Ac­
  tion: Embassy Kabul)

Recommendation 67: Embassy Kabul, in coordination with the Bureau of South
  and Central Asia Affairs, should establish a streamlined system for administer­
  ing the eligible family member program and for addressing weaknesses including
  transparency, recruitment and selection of candidates, and documentation. (Ac­
  tion: Embassy Kabul, in coordination with SCA)

Recommendation 68: Embassy Kabul, in coordination with the Bureau of Human
  Resources and the Ofﬁce of the Legal Adviser, should develop, document, and
  implement a formal and comprehensive nepotism review process and then seek
  approval of the revised process from the Department. (Action: Embassy Kabul,
  in coordination with HR and L)

Recommendation 69: Embassy Kabul, in coordination with the Bureau of Hu­
  man Resources and the Ofﬁce of the Legal Adviser, should ﬁnalize the recusal
  memoranda for senior employees whose spouses work at the Embassy and issue a
  formal notiﬁcation to appropriate mission staff. (Action: Embassy Kabul, in
  coordination with HR and L)

Recommendation 70: Embassy Kabul should establish and implement a mission-
  wide comprehensive training plan including the preparation of individual devel­
  opment plans for the locally employed staff and should make that plan available
  to American supervisors. (Action: Embassy Kabul)



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   113 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Recommendation 71: Embassy Kabul should review and modify its current depar­
          ture checkout sheet to disseminate clear guidance and procedures and require all
          departing employees to complete the checkout process before their airline tickets
          are issued. (Action: Embassy Kabul)

        Recommendation 72: The Bureau of Human Resources, in coordination with the
          Bureau of South and Central Asia, should establish a mechanism to manage all
          categories of personnel assets in Afghanistan using the Department’s standard au­
          tomated application for post personnel. (Action: HR, in coordination with SCA)

        Recommendation 73: Embassy Kabul should involve the information manage­
          ment section in the Mission Strategic Plan exercise and identify speciﬁc bench­
          marks for the future development of information technology, as appropriate. (Ac­
          tion: Embassy Kabul)

        Recommendation 74: Embassy Kabul should develop standard operating proce­
          dures on the procurement and installation of all information technology equip­
          ment embassy-wide. (Action: Embassy Kabul)

        Recommendation 75: Embassy Kabul should work with the United States Agency
          for International Development to convert the Afghanistan information technol­
          ogy pilot plan into a formal OpenNet consolidation project plan and include new
          target dates. (Action: Embassy Kabul)

        Recommendation 76: Embassy Kabul should submit all United States Agency for
          International Development applications to the local change control board for re­
          view. (Action: Embassy Kabul)

        Recommendation 77: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
           (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
           (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
           (b) (2)(b) (2)(b) (2)
        Recommendation 78: Embassy Kabul should establish an automated recording for
          after-hours use that directs emergency callers to a duty ofﬁcer and should cease
          telephone operator service after normal business hours. (Action: Embassy Kabul)

        Recommendation 79: Embassy Kabul should form a committee to review De-
          partment-approved contact management options and those databases currently in
          use by protocol and other embassy sections, decide which option best meets the
          needs of all embassy sections, and require all embassy elements to use the same
          contact management system. (Action: Embassy Kabul)



114 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Recommendation 80: Embassy Kabul should develop and implement individual
  development plans for locally employed information technology staff to include
  information assurance and radio systems. (Action: Embassy Kabul)

Recommendation 81: Embassy Kabul should appoint a management controls co­
  ordinator and disseminate this information in a revised designations of authorities
  administrative notice. (Action: Embassy Kabul)

Recommendation 82: Embassy Kabul should establish, implement, and dissemi­
  nate an updated policy on overtime that requires complete documentation and
  valid justiﬁcations for the additional hours and sets up a process for a monthly
  management review. (Action: Embassy Kabul)

Recommendation 83: Embassy Kabul should establish, implement, and dissemi­
  nate a policy on use of representational funds, redistribution of funds during the
  ﬁscal year, and dollar limits for various types of activities. (Action: Embassy Ka­
  bul)

Recommendation 84: Embassy Kabul should establish and implement procedures
  for representational vouchers that require clear documentation of attendees,
  costs, and justiﬁcation for the event. (Action: Embassy Kabul)

Recommendation 85: Embassy Kabul should request, and the Bureau of Admin­
  istration should perform, a site visit to provide speciﬁc guidance to board mem­
  bers, review internal controls, and establish strengthened procedures for employee
  association operations. (Action: Embassy Kabul, in coordination with A)

Recommendation 86: Embassy Kabul should reassess the current reimbursement
  process and develop a system that provides for the reimbursement of the actual
  number of meal tickets accepted by the food services contractor. (Action: Em­
  bassy Kabul)

Recommendation 87: Embassy Kabul should conduct an audit of the meal ticket
  program that justiﬁes administrative costs and a reasonable proﬁt margin and
  establishes cost centers to ensure that each cost center is self-sustaining. (Action:
  Embassy Kabul)




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   115 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Recommendation 88: Embassy Kabul should review the current limits on alcohol
          sales, establish and implement limits, and monitor sales of duty-free alcohol by
          the Kabul Embassy Employee Association (Action: Embassy Kabul)

        Recommendation 89: Embassy Kabul should request, and the Kabul Embassy
          Employees’ Association should return, funds paid to the association for ﬁve used
          shipping containers ﬁtted as retail sales space. (Action: Embassy Kabul)




116 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





           INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by or­
ganizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or onsite compliance review will assess the mission’s
progress in implementing the informal recommendations.

Executive Secretariat

Because of the constant change in the structure of the executive secretariat, protocol
assistants and interpreters have different supervisors although they often work on
the same events and the interpreters backstop the protocol assistants. The interpret­
ers, in particular, are not adequately mentored.

Informal Recommendation 1: Embassy Kabul should review the arrangements
for the supervision of the protocol assistants and interpreters to ensure that all re­
ceive the same level of mentoring and supervision.

Political Affairs

Temporary reinforcements enable the Embassy to cover the national elections with­
out overwhelming its small political section.

Informal Recommendation 2: Embassy Kabul should make more use of tempo­
rary duty surge capacity in the future to cover crucial national events.

A number of required reports, such as those on human rights, religious freedom, and
trafﬁcking in persons, are due at the end of the summer, which coincides with the
annual ofﬁcer rotation. It is unreasonable to assign the drafting of such complex and
important assessments to ofﬁcers who have just arrived in country, but the embassy
cannot change the deadlines for the reports.

Informal Recommendation 3: Embassy Kabul should make the ﬁrst draft of an­
nual reports the last thing that reporting ofﬁcers do before transferring out of Kabul
rather than the ﬁrst thing a replacement ofﬁcer does upon arrival in the fall.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   117 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        IPA coordinates PRT reporting with minimal guidance from the political and eco­
        nomic sections. Sometimes this results in PRT failure to put their reporting in a
        broader context and results in a loss of synergy between the embassy reporting of­
        ﬁces and the PRTs.

        Informal Recommendation 4: Embassy Kabul should require the embassy report­
        ing sections to provide the provincial reconstruction teams with periodic guidance
        on which priority issues to investigate and report.

        Informal Recommendation 5: Embassy Kabul should develop and fund a travel
        plan for the political and economic sections to bolster reporting from the ﬁeld.

        One Foreign Service ofﬁcer and one LE staff spend hours watching plenary sessions
        of the Afghan Parliament from the visitors’ gallery to gather information. This is not
        an efﬁcient use of time.

        Informal Recommendation 6: Embassy Kabul should make use of a daily sum­
        mary of developments that the Parliament produces in Dari and English.

        The political section is not currently using some management tools that could make
        its work easier and address the lack of experience and continuity that results from
        the one-year tours.

        Informal Recommendation 7: Embassy Kabul should develop and use an elec­
        tronic system to help new political ofﬁcers identify key sources, organizing it by issue
        rather than by individual or portfolio, and including annotations to reﬂect reliability.

        Informal Recommendation 8: Embassy Kabul should require political ofﬁcers to
        leave a handover memo for successors before departing the Embassy.

        Informal Recommendation 9: Embassy Kabul should invite all ofﬁcers at provin­
        cial reconstruction teams who have political reporting responsibilities to consult with
        the political section on arrival and debrief it prior to departure.

        Informal Recommendation 10: Embassy Kabul should develop a written orienta­
        tion to the political section’s work and use it to help new arrivals become familiar
        with their work more quickly.




118 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Political-Military Affairs

A new fusion cell has been created to work with U.S. military and coalition forces on
efforts to persuade enemy ﬁghters to switch sides and join the coalition payroll. The
embassy has not yet sorted out exactly how to clear its reporting and coordinate its
advocacy with the new cell, which has been assigned the lead role in reintegration
policy by NATO.

Informal Recommendation 11: Embassy Kabul should review its systems for
communication links, reporting responsibilities, and information sharing to ensure
that the work of the fusion cell is fully coordinated with U.S. policy and United Na­
tions mandates for the disarmament and reintegration of former Taliban members.

The small strategic planning unit of the pol-mil section is partially staffed with TDY
personnel and much of its work is destined for Department ofﬁces. Most of the
planning work does not depend on interaction with the Afghan Government and
does not necessarily need to be done in Kabul, where the costs and security risks of
maintaining U.S. employees are high.

Informal Recommendation 12: Embassy Kabul should review the strategic plan­
ning unit to determine whether it would be more cost effective to do the strategic
planning and metrics monitoring in the Department or at another embassy in the
region.

Refugee Affairs

It is often difﬁcult for the refugee coordinator or PRM’s nongovernmental imple­
menting partners to visit projects because of the security situation in the area. The
refugee coordinator relies on secondhand reports on how the projects are advanc­
ing. Synergies with other assistance programs may be the best way to maximize PRM
resources.

Informal Recommendation 13: Embassy Kabul should establish a mechanism to
coordinate Bureau of Population, Refugees, and Migration Affairs and U.S. Agency
for International Development projects in the same regions of Afghanistan to pro­
vide maximum synergy in those communities.

The refugee coordinator and her staff have difﬁculty monitoring projects in conﬂict
areas. The Ambassador can often travel to areas with his protective detail that the
RSO would consider unsuitable for travel by less well-protected refugee affairs staff.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   119 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Informal Recommendation 14: Embassy Kabul should include the refugee co­
        ordinator or the senior locally employed assistant when the Ambassador travels to
        areas where there are Bureau of Population, Refugees, and Migration Affairs-funded
        projects.

        Coordinating Director for Development and
        Economic Affairs

        The CDDEA ofﬁce has several management layers that review drafting from the
        ofﬁcers in the sections and agencies under the coordinator’s responsibility. Ofﬁcers
        in many of those agencies and sections are frustrated at having their work returned
        not only for substantive additions but for grammatical and semantic changes as well.
        This multiple clearance and redrafting process can delay products.

        Informal Recommendation 15: Embassy Kabul should focus their drafting clear­
        ance efforts on products for consumption outside of the embassy such as reporting
        cables and give internal products a lighter scrub for policy consistency.

        Development Assistance

        The Ambassador reviews all USAID programs and projects, including new projects,
        additional funding for ongoing projects, and project extensions to ensure that they
        support U.S. policy priorities. The decision memorandum can be extremely detailed
        and cumbersome.

        Informal recommendation 16: Embassy Kabul should streamline the process for
        approving U.S. Agency for International Development programs and projects so that
        only essential information is included, and in the case of contract extensions, that
        contract performance is the key issue addressed.

        Public Affairs Section

        All or virtually all ofﬁcers heading out to PRTs will eventually do some media or
        public diplomacy work. Some will have PD as their primary focus.

        Informal recommendation 17: Embassy Kabul should continue public affairs
        brieﬁngs for outgoing provincial reconstruction team ofﬁcers and expand those
        brieﬁngs to staff who will be focusing on public diplomacy.




120 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




PAS ofﬁcers lack the time to do basic contact work and develop relationships with
the key Afghans in educational, cultural institutions, and media organizations.

Informal recommendation 18: Embassy Kabul should take advantage of the ar­
rival of additional public diplomacy staff to set up a regular schedule of meetings
with key contacts and should use these meetings to develop contact information for
the contact management database.

The ﬁling system in PAS is not well organized, and ofﬁcers said they had difﬁculty
ﬁnding previous records. They also said they spent a lot of time doing essentially
clerical tasks.

Informal recommendation 19: Embassy Kabul should hire an American ofﬁce
management specialist for the public affairs section to upgrade the ﬁling system and
establish better administrative procedures.

The FY 2009 supplemental spending plan for public diplomacy includes $1 mil­
lion for ten or more cultural preservation projects. Since these projects would likely
involve sensitive cultural, historic, or religious sites, it is essential that they be done
well.

Informal recommendation 20: Embassy Kabul should get a cultural preservation
specialist to handle the work if the proposed multiple large-scale cultural preserva­
tion projects go forward. In cooperation with the staff of the Ambassador’s Fund
for Cultural Preservation, the embassy should use these projects to build Afghan
cultural preservation capacity.

PAS produces an attractive report on public diplomacy activities called the “PD
Weekly” that is distributed internally within the embassy and to ofﬁces in Washing­
ton. Although it is quite popular and well-received, the PD Weekly is very time-con­
suming for the PAS staff, especially for a document that is not distributed outside the
U.S. government.

Informal recommendation 21: Embassy Kabul should investigate ways to reduce
the amount of time spent on the public diplomacy weekly report or get more beneﬁt
from it by using portions of it in public fora, such as the embassy Web site.

The Embassy Web site is not used routinely to highlight the beneﬁts to the Afghan
people of U.S. involvement and assistance.




        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010    121 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Informal Recommendation 22: Embassy Kabul should highlight more positive
        stories about successful programs and the U.S. Agency for International Develop­
        ment on the Embassy Web site.

        Consular Affairs

        Consular ofﬁcers have an emergency telephone that they pass among the three of
        them on a consular duty ofﬁcer rotation. No other embassy personnel handle the
        consular duty. When new consular ofﬁcers arrive they have no resources for the
        consular duty.

        Informal Recommendation 23: Embassy Kabul should develop a consular duty
        manual that can be used by consular ofﬁcers but also by nonconsular duty ofﬁcers in
        the future.

        The ACS LE assistant doubles as the part-time fraud investigator. Most of his work
        involves responding to requests for investigation from other embassies that are pro­
        cessing Afghan NIV or IV cases. He has no systematic way of tracking and record­
        ing his anti-fraud work.

        Informal Recommendation 24: Embassy Kabul should develop a system for
        tracking its fraud prevention and detection work in preparation for the arrival of an
        assistant regional security ofﬁcer for investigations and the onset of immigrant visa
        processing.

        Consolidation

        IPA has its own management section to handle inprocessing of new employees,
        logistics, and support operations for over 180 (soon to be 380) U.S. civilians at the
        PRTs.

        Informal Recommendation 25: Embassy Kabul should examine the possible ef­
        ﬁciencies that could be gained by consolidating Ofﬁce of Interagency Provincial
        Affairs management support into the management section.

        Motor Vehicles

        Embassy Kabul allows some employees who are not embassy chauffeurs to operate
        armored vehicles, but does not have a current policy statement informing employees
        of their personal liability and the extent of embassy liability insurance coverage.


122 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 26: Embassy Kabul should revise its motor vehicle
self-drive policy following guidance in the Department of State Motor Vehicle Safety
Program for Overseas Posts (issued by OBO/OPS/SHEM, dated November 2009)
to establish the applicability of the policy to all agencies under chief of mission
authority and provide for an active Certiﬁed Safe Driver Instructor Program for all
employees operating motor pool vehicles.

Procurement

Embassy Kabul provides bottled water to embassy personnel even though the water
in the embassy compound is potable. There is no justiﬁcation in the ﬁles for pur­
chasing and distributing bottled waters to embassy personnel

Informal Recommendation 27: Embassy Kabul should include in the procure­
ment ﬁles, justiﬁcation for providing bottled water to embassy personnel.

Financial Management

There is no travel authorization or blanket travel authorization for some in-country
travel since there is no travel cost. While cost may not be an issue, there could be li­
ability issues if travelers performing ofﬁcial travel are not covered by a travel authori­
zation.

Informal Recommendation 28: Embassy Kabul should prepare either travel au­
thorizations or blanket travel authorizations for in-country travel in advance of travel
for all travelers.

Human Resources

Embassy Kabul’s vacancy announcements are only advertised on one Internet Web
site.

Informal Recommendation 29: Embassy Kabul should advertise on more than
one Internet Web site and establish practices that foster diversity in local recruitment.

The FSN Handbook was last updated in 2008. New compensation information has
not been included in the handbook.

Informal Recommendation 30: Embassy Kabul should revise the local employee
handbook and distribute it to the local staff.



        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   123 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        The HR section does not use its SharePoint site to advertise internal vacancy an­
        nouncements

        Informal Recommendation 31: Embassy Kabul should advertise internal vacancy
        announcements on its SharePoint site.

        Embassy Kabul does not have a regular orientation program for their newly hired
        local staff employees.

        Informal Recommendation 32: Embassy Kabul should establish and implement a
        mission-wide orientation program for all their newly hired locally employed staff.

        American supervisors do not take advantage of other types of recognition, such as
        local staff employee of the quarter awards, certiﬁcates of appreciation, and nonmon­
        etary awards of minimal value.

        Informal Recommendation 33: Embassy Kabul should establish other types of
        recognition for local staff employees.

        Embassy Kabul does not have a human resources checklist with timelines to guide
        the hiring process for EFMs.

        Informal Recommendation 34: Embassy Kabul should prepare a checklist with
        timelines to guide the hiring process for eligible family members.

        An explanation from the post employment committee on the selection of an eligible
        family member is not always included in the ﬁles.

        Informal Recommendation 35: Embassy Kabul should request from the post
        employment committee and keep in the ﬁles an explanation of the selection of an
        eligible family member.

        Information Management

        The OIG team noted that since Kabul is pilot testing numerous projects, it would
        also be valuable to test the “local connection” option suggested in a USAID Mission
        Director memo to the Chief of Mission. The “local connection” is in use in 38 loca­
        tions and supports the sharing of the State WebPASS application, SharePoint, and
        other applications. There may be cost savings for all agencies.




124 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 36: Embassy Kabul should test the U.S. Agency for
International Development’s “local connection” option to determine if it is a viable
alternative to the information technology consolidation pilot project underway.

There is no established procedure to decide what IT hardware should remain in place
and be reused for the next VIP visit.

Informal Recommendation 37: Embassy Kabul should identify temporary ofﬁce
space for high-level visitors and maintain core information technology equipment in
that space for future visitors.

Telephone, radio, and computer inventories are not up to date.

Informal Recommendation 38: Embassy Kabul should update its telephone, radio
and computer inventory systems.

The IM ofﬁcer was responsible for monitoring contracts in excess of $14,000,000,
and had not received the Government Technical Monitor training.

Informal Recommendation 39: Embassy Kabul should require that the informa­
tion management ofﬁcer completes Government Technical Monitor training.

The IM staff did not have updated individual development and security awareness
training.

Informal Recommendation 40: Embassy Kabul should require that the informa­
tion management staff have updated individual development plans and complete
security awareness training.

Health Unit

Although medications are correctly stored and controlled, the inventory records are
not well organized.

Informal Recommendation 41: Embassy Kabul should prepare and maintain
inventory records of medications.

The ﬁrst aid kits in some embassy ofﬁcial cars are missing and there is no assurance
that all the ﬁrst aid kits have been checked by health unit staff.

Informal Recommendation 42: Embassy Kabul should maintain ﬁrst aid kits in all
embassy ofﬁcial vehicles and have health unit personnel check the kits regularly.


       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   125 .


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Community Liaison Ofﬁce

        The CLO SharePoint site is not updated frequently.


        Informal Recommendation 43: Embassy Kabul should update the community 

        liaison ofﬁce SharePoint site regularly.


        The second CLO bulletin board does not have current information.


        Informal Recommendation 44: Embassy Kabul should update its second commu­
        nity liaison ofﬁce bulletin board regularly.


        Embassy Kabul does not have a social sponsor program.


        Informal Recommendation 45: Embassy Kabul should establish a social sponsor 

        program for new arrivals.


        The CLO coordinators do not have a systematic way of gathering information from 

        embassy personnel about activities of interest.


        Informal Recommendation 46: Embassy Kabul should prepare a survey to elicit 

        information from embassy personnel on activities that they would like to have spon­
        sored by the community liaison ofﬁce.




126 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                     PRINCIPAL OFFICIALS

                                                Name                         Arrival Date


Ambassador                                      Karl W. Eikenberry                   05/09
Deputy Chief of Mission                         Francis J. Ricciardone               04/09
Assistant Chief of Mission                      Joseph A. Mussomeli                  05/09
Coordinating Director for Development           E. Anthony Wayne                     06/09
 and Economic Affairs


Chiefs of Sections:


Management                                      Kevin Milas                          07/09
Consular                                        Randall Merideth                     08/09
Economic                                        Michael Spangler                     08/09
International Narcotics and
Law Enforcement                                 Andrew Quinn                         08/09
Political                                       Annie Pforzheimer                    07/09
Political-Military                              Philip Kosnett                       08/09
Public Affairs                                  Stephen Cristina                     09/09
Regional Security                               Douglas Allison                      07/09


Other Agencies:


Department of Defense –
  USFOR-A Liaison to the Embassy                Lt. Gen. Carlton Everhart            03/09
Department of Homeland Security –               Raoul Ortiz                          07/09
  Border Management Task Force
Drug Enforcement Administration                 Michael Marsac                       10/08
Department of Justice                           Howard Parker                        02/08
Federal


       OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010    127 .


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        Aviation Administration                          David Boulter                          03/08
        Legal Attaché                                    Robert Jones                           09/09
        Treasury Attaché                                 Stuart Jones                           04/08
        U.S. Agency for International                    William Frej                           05/09
          Development
        U.S. Department of Agriculture                   Rodrick McSherry                       11/09
        U.S. Marshals Service                            Joseph Kimpel                          10/09




128 .      OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                              ABBREVIATIONS

ACS                                American citizen services
ARSO-I                             Assistant regional security ofﬁcer – investigations
BMTF                               Border management task force
CA                                 Bureau of Consular Affairs
CDDEA                              Coordinating Director for Development and
                                   Economic Affairs
CHU                                Containerized housing units
Civ-mil                            Civil-military
CLO                                Community liaison ofﬁce
COIN                               Counterinsurgency strategy
COM                                Chief of mission
COR                                Contracting ofﬁcer’s representative
CSTC-A                             Combined Security Transition Command -
                                   Afghanistan
DCM                                Deputy chief of mission
DEA                                Drug Enforcement Administration
EEO                                Equal Employment Opportunity
EFM                                Eligible family member
ELO                                Entry-level ofﬁcer
EVB                                Embassy visitor bureau
FAH                                Foreign Affairs Handbook
FAM                                Foreign Affairs Manual
FSI                                Foreign Service Institute
GMIC                               Government media information center
GSO                                General services ofﬁce
HR                                 Human resources



          OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   129 .


                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




        HRO                                Human resources ofﬁcer
        HVAC                               Heating, Ventilating, and Air Conditioning
        IAHB                               Interagency housing board
        ICASS                              International Cooperative Administrative Support
                                           Services
        I-COR                              In-country contracting ofﬁcer representative
        IM                                 Information management
        INL                                Bureau of International Narcotics and Law
                                           Enforcement
        IPA                                Ofﬁce of Interagency Provincial Affairs
        ISAF                               International Security Force for Afghanistan
        ISSO                               Information systems security ofﬁcer
        IV                                 Immigrant visas
        IVLP                               International Visitor Leadership Program
        KEEA                               Kabul Embassy Employee Association
        LE                                 Locally employed
        MIST                               Military information support team
        MSP                                Mission Strategic Plan
        NAS                                Narcotics affairs section
        NATO                               North Atlantic Treaty Organization
        NIV                                Nonimmigrant visa
        NSDD-38                            National Security Decision Directive 38
        OBO                                Bureau of Overseas Buildings Operations
        OIG                                Ofﬁce of Inspector General
        PAO                                Public affairs ofﬁcer
        PAS                                Public affairs section
        PD                                 Public diplomacy
        PM                                 Bureau of Political-Military Affairs




130 .        OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



Pol-mil                            Political-military
PRM                                Bureau of Population, Refugees and Migration
PRT                                Provincial reconstruction team
PSC                                Personal services contract
R&R                                Rest and recuperation
RMO-P                              Regional medical ofﬁcer – psychiatrist
ROL                                Rule of law
RRB                                Regional rest break
RSO                                Regional security ofﬁcer
SCA                                Bureau of South and Central Asia
SCA/PPD                            Bureau of South and Central Asia, press and
                                   public diplomacy ofﬁce
SCR                                Senior civilian representative
S/CRS                              Ofﬁce of the Coordinator for Reconstruction and
                                   Stabilization
SDA                                Suspense deposit abroad
SIV                                Special immigrant visa
SOP                                Standard operating procedures
S/SRAP                             Special Representative for Afghanistan and
                                   Pakistan
TDY                                Temporary duty
USAID                              United States Agency for International
                                   Development
VIP                                Very important person
3161                               Subject matter experts hired under Title 5, Section
                                   3161 of the U.S. Code




          OIG Rpt. No. ISP-I-10-32A, Inspection of Embassy Kabul, Afghanistan, February 2010   131 .


                      SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
